 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

OFFICE OF JUVENILE JUSTICE AND DELINQUENCY 

      PREVENTION GRANTS AWARDED TO 

   BIG BROTHERS BIG SISTERS OF AMERICA 



          U.S. Department of Justice 

        Office of the Inspector General 

                 Audit Division 



         Audit Report GR-70-13-006 

                 June 2013 

       AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

      OFFICE OF JUVENILE JUSTICE AND DELINQUENCY

            PREVENTION GRANTS AWARDED TO

         BIG BROTHERS BIG SISTERS OF AMERICA


                        EXECUTIVE SUMMARY


      The Department of Justice, Office of the Inspector General, Audit
Division, completed an audit of three Office of Justice Programs, Office of
Juvenile Justice and Delinquency Prevention grants awarded to the national
headquarters of Big Brothers Big Sisters of America (BBBSA) located in
Philadelphia, Pennsylvania. The grants reviewed were grant numbers
2009-TY-FX-0047, 2010-JU-FX-0005, and 2011-MU-MU-0017, which totaled
$23,177,286. The grants were provided to support BBBSA’s mentoring
services to tribal youth, youth with a parent in the military, and other high-
risk populations that were considered underserved due to various factors.
The primary goal of BBBSA was to provide children facing adversity with
enduring, professionally supported relationships that change their lives for
the better.

      The purpose of our audit was to determine whether the
reimbursements claimed for costs under the grants were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and the terms and conditions of the grants. We also evaluated program
performance to determine whether the goals and objectives of the grants
were met, as well as the grant-funded programs’ overall accomplishments.

      Overall, we determined that BBBSA was in material non-compliance
with the majority of the grant requirements we tested. Most significantly,
we found that BBBSA’s practices for recording and supporting grant-related
expenditures were inadequate to safeguard grant funds and ensure
compliance with the terms and condition of the grants. We also determined
that all BBBSA expenditures were unsupported due to the commingling of
funds within BBBSA’s general fund account. Finally, we found that BBBSA
(1) did not adequately safeguard grant funds; (2) did not adequately
monitor subrecipients or require subrecipients to support the grant funds
received and expended; (3) charged unsupported and unallowable
expenditures to the grant; (4) did not compute indirect costs based on its
approved agreement; (5) did not adequately monitor consultants; (6) did
not base its drawdown of funds on actual expenditures; (7) did not monitor
actual spending against the approved budget; (8) did not properly safeguard
accountable property acquired with grant funding; (9) did not prepare
Federal Financial Reports based on actual expenditures; and (10) generated


                                      -i­
program income which was not properly reported. As a result of these
weaknesses, we questioned $19,462,448 in funding that the grantee has
received and recommended the $3,714,838 in funds not yet disbursed be
put to better use.

      Based on the findings related to BBBSA, we made
15 recommendations to the Office of Justice Programs, regarding the use of
grant funds, including questioned costs and funds to better use. These
items are discussed in detail in the Findings and Recommendations section
of the report. Our audit objectives, scope, and methodology are discussed
in Appendix I. Our Schedule of Dollar-Related Findings is located in
Appendix II.

      Due to the significant findings and recommendations found during this
audit, we also provided the Office of Justice Programs a preliminary briefing
on our audit findings. In response to that briefing, the Office of Justice
Programs froze the disbursement of all grant funds to BBBSA and notified
BBBSA of this restriction.

      We discussed the results of our audit with BBBSA officials and have
included their comments in the report, as applicable. Additionally, we
requested a response to our draft report from BBBSA and OJP, and their
responses are appended to this report as Appendix IV and V, respectively.
Our analysis of both responses, as well as a summary of actions necessary
to close the recommendations can be found in Appendix VI of this report.




                                     -ii­
                                 TABLE OF CONTENTS



INTRODUCTION ........................................................................ 1

Office of Justice Programs............................................................. 1

Office of Juvenile Justice and Delinquency Prevention....................... 2

Big Brothers Big Sisters of America................................................ 2

Our Audit Approach ..................................................................... 4


FINDINGS AND RECOMMENDATIONS........................................ 7

Overview .................................................................................... 7

Internal Control Environment ....................................................... 8

Subrecipient Monitoring...............................................................12

Grant Expenditures .....................................................................15

Indirect Costs ............................................................................23

Drawdowns................................................................................25

Budget Management and Control................................................. 26

Accountable Property ..................................................................26

Grant Reporting .........................................................................27

Program Performance and Accomplishments ..................................29

Program Income.........................................................................29

OJP Actions................................................................................30

Conclusions .............................................................................. 31

Recommendations ..................................................................... 31


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY .......35


APPENDIX II - SCHEDULE OF DOLLAR RELATED FINDINGS .....37


APPENDIX III - DEPARTMENT OF JUSTICE AWARDS ...............38


APPENDIX IV – BIG BROTHERS BIG SISTERS OF AMERICA

    RESPONSE TO THE DRAFT AUDIT REPORT.......................39


APPENDIX V – OFFICE OF JUSTICE PROGRAMS RESPONSE

    TO THE DRAFT AUDIT REPORT ........................................78


APPENDIX VI – OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
    TO CLOSE THE REPORT....................................................88

                             INTRODUCTION

      The Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of three grants awarded by the Office of
Justice Program’s (OJP) Office of Juvenile Justice and Delinquency
Prevention (OJJDP) to Big Brothers Big Sisters of America (BBBSA) located in
Philadelphia, Pennsylvania. These grants included: (1) grant number
2009-TY-FX-0047, that funded FY 2009 Tribal Youth National Mentoring
Programs, (2) grant number 2010-JU-FX-0005, that funded FY 2010
National Mentoring Programs, and (3) grant number 2011-MU-MU-0017,
that funded FY 2011 National Mentoring Programs. As shown in Exhibit I,
OJP awarded BBBSA a total of $23,177,286 under the three awards.

                             EXHIBIT I

            BBBSA OFFICE OF JUSTICE PROGRAMS AWARDS

                      PROJECT PERIOD
        AWARD                           AWARD END DATE       AWARD AMOUNT
                        START DATE
2009-TY-FX-0047         10/1/2009          12/31/2011         $    1,867,286
2010-JU-FX-0005          10/1/2010         03/31/2013             10,000,000
2011-MU-MU-0017          10/1/2011         09/30/2013             11,310,000
Total                                                        $23,177,286
Source: Office of Justice Programs

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also assessed BBBSA’s program performance in
meeting grant objectives and overall grant-related accomplishments.

Office of Justice Programs

       The Office of Justice Programs (OJP), within the Department of Justice,
provides the primary management and oversight of the grants we audited.
According to its website, OJP provides innovative leadership to federal, state,
local, and tribal justice systems by disseminating state-of-the-art knowledge
and practices across America, and providing grants for the implementation
of these crime fighting strategies. Because most of the responsibility for
crime control and prevention falls to law enforcement officers in states,
cities, and neighborhoods, the federal government can be effective in these
areas only to the extent that it can enter into partnerships with these
officers. Therefore, OJP does not directly carry out law enforcement and



                                     -1­
justice activities. Instead, OJP works in partnership with the justice
community to identify the most pressing crime-related challenges
confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges.

Office of Juvenile Justice and Delinquency Prevention

       The Office of Juvenile Justice and Delinquency Prevention (OJJDP),
within OJP, is responsible for management and oversight of the three grants
we audited. OJJDP contributes to the reduction of youth crime and violence
through comprehensive and coordinated efforts at the federal, state, and
local levels.

       OJJDP also works to strengthen the nation’s juvenile justice system
and supports prevention and early intervention programs that make a
difference for young people and their communities. According to its website,
OJJDP has long supported mentoring programs, awarding more than
$480 million since 1994 to support juvenile and youth mentoring programs.

Big Brothers Big Sisters of America

      Big Brothers Big Sisters of America (BBBSA), headquartered in
Philadelphia, Pennsylvania, is an organization formed in 1977 through a
merger of Big Brothers Association and Big Sisters International. BBBSA
was established to provide leadership, strategic direction, and unified
standards of service throughout the national network of affiliate agencies.
BBBSA is a non-profit 501(c)(3) organization and each of its affiliate
agencies is a separate 501(c)(3) organization. 1 The mission of BBBSA is to
provide children facing adversity with strong and enduring professionally
supported one-to-one relationships that change their lives for the better.

      According to its website, BBBSA operates in almost 370 communities
across the United States. Local affiliates work to design and develop
programs that are tailored to the needs of their community. Utilizing the
network of affiliate agencies, BBBSA matches at-risk youths (“Littles”) with
adult role models (“Bigs”) to provide one-to-one mentoring for children
between the ages of 6 and 18. BBBSA operates several special programs to
meet the needs of communities facing adversity. These special programs


      1
        501 (c)(3) organizations have been granted tax exempt status by the Internal
Revenue Service under 26 U.S.C. 501 (c)(3).




                                         -2­
include: African-American mentoring, Hispanic mentoring, Native American
mentoring, military children mentoring, and programs that provide adult role
models to children coping with parental incarceration.

        As part of the relationship between BBBSA and its affiliates, affiliates
pay certain fees to BBBSA, including a membership affiliation fee and an
Agency Information Management (AIM) system fee. 2 The membership
affiliation fees and AIM fees, as reported on the tax year ending June 30,
2011 tax exempt income tax return, totaled $3,740,015. We discuss these
fees in more detail in the Program Income section of the report.

     Recently, BBBSA has gone through some changes to its management
team. In June 2012, a new Chief Executive Officer was appointed by the
BBBSA Board of Directors (Board). Shortly after the appointment, the
BBBSA headquarters staffing level was reduced by 25 percent from 111 to
83. A new executive leadership team, including a Chief Operating Officer
and Senior Director of Finance, were also appointed at the end of 2012.

       Over the course of our audit we kept BBBSA management apprised of
the results of our work. The newly appointed Chief Operating Officer
developed an internal audit committee and action plan to address some of
the deficiencies we had identified during fieldwork. In discussions with
BBBSA senior management, as well as the BBBSA Chairman of the Board,
they indicated the organization was committed to addressing and resolving
all of the issues identified by our audit. However, we did not assess or
review the adequacy of the steps BBBSA was taking to address the issues
because the action plan was not fully implemented at the time of our
fieldwork.

BBBSA Grants

      Since 2004, BBBSA has received 13 grants from OJP totaling
$68,488,039. 3 These grants have generally been for two major programs,
the Tribal Youth National Mentoring program and the National Mentoring
program, which are described below.



      2
         AIM is BBBSA’s program management system which allows its network of affiliates
to track matches between Bigs and Littles and allows it to conduct case management, youth
outcomes, and program evaluation.
      3
          Appendix III includes a listing of OJP grants awarded to BBBSA since 2004.




                                           -3­
      Beginning in 2008, BBBSA has received grants under the Tribal Youth
National Mentoring program. These grants provided funding for BBBSA to
offer mentoring services to tribal youth populations that are underserved
due to location, shortage of mentors, emotional or behavioral challenges of
the targeted population, or other situations identified by the federally
recognized tribes. BBBSA received these grants for 2008, 2009, 2010, and
2011.

       Annually, beginning in 2007, BBBSA has received National Mentoring
program grants. 4 These grants were awarded to provide mentoring services
to high-risk populations that are underserved due to various factors
identified by the community in need of mentoring services. In 2007, BBBSA
was 1 of 17 organizations selected to receive non-competitive or
“invitational” grants from the Department of Justice. This decision was
made by the Assistant Attorney General after the elimination of the previous
practice of “earmarking” the recipients of awards by Congress. According to
the Assistant Attorney General, the decision to use invitational awards was
to ensure the continuing and deserving programs would receive funds. 5

      In 2008, National Mentoring grants were no longer invitational, but
instead an open solicitation was announced on OJP’s website soliciting
applicants to apply. However the applicant pool was limited to national
organizations, defined as those organizations having an active program or
programs and active affiliates, chapters, or subgrantees in at least 45 states.
All applicants, including BBBSA, were required to submit an application for
the grants and, in the event of receiving an award, provide 90 percent of the
award received to at least 38 of the states where BBBSA had a presence.

Our Audit Approach

      Where possible, we tested compliance with what we considered to be
the most important conditions of the grants. Unless otherwise stated in our
report, we applied the OJP Financial Guide as our primary criteria during our
audit. The OJP Financial Guide serves as a reference manual assisting award
recipients in their fiduciary responsibility to safeguard grant funds and
ensure funds are used appropriately. In addition, we tested against policies

       4
         The FY 2011 National Mentoring grant award funds included $3,310,000 in funds
that were transferred from the Department of Defense to OJJDP to provide mentoring
programs and services to youth with a parent in the military, including a deployed parent.
       5
          U.S. Department of Justice Office of the Inspector General, Procedures Used by the
Office of Juvenile Justice and Delinquency Prevention to Award Discretionary Grants in Fiscal
Year 2007, Audit Report 09-24 (April 2009).




                                           -4­
found in applicable Office of Management and Budget and Code of Federal
Regulations criteria that we also considered in performing our audit. We
tested BBBSA’s:

      •	 Internal control environment to determine whether the financial
         accounting system and related internal controls were adequate to
         safeguard grant funds and ensure compliance with the terms and
         conditions of the grant.

      •	 Monitoring of subrecipients to determine whether BBBSA
         provided sufficient oversight of its subrecipients.

      •	 Grant expenditures to determine whether the costs charges,
         including personnel, fringe benefits, travel expenditures, consultant
         payments, and other expenditures, to the grants were allowable
         and supported.

      •	 Indirect costs to ensure that charges paid for with grant funding
         complied with BBBSA’s indirect cost agreement.

      •	 Drawdowns (requests for grant funding) to determine whether
         BBBSA’s requests for funding were adequately supported.

      •	 Budget management and control to determine the overall
         acceptability of budgeted costs by identifying any budget deviations
         between the amounts authorized in the OJP grant budget and the
         actual costs incurred for each budget category.

      •	 Accountable property to determine BBBSA’s procedures for
         controlling accountable property.

      •	 Reporting to determine if the required periodic Federal Financial
         Reports and Progress Reports were submitted on time and
         accurately reflect grant activity. 6

      •	 Program performance and accomplishments to determine
         whether BBBSA achieved the grant’s objectives and to assess
         performance and grant accomplishments.



      6
         In October 2009, the financial reporting form was changed from the Financial
Status Report to the Federal Financial Report. Because most of the forms we reviewed were
Federal Financial Reports, that is how we refer to them in this report.




                                         -5­
      When applicable in our grant audits, we also test for compliance in the
areas of matching funds and program income. For the grant awards to
BBBSA, we determined that matching funds were not required and were told
the grant programs generated no program income.




                                    -6­
                 FINDINGS AND RECOMMENDATIONS

           COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

       We determined that all BBBSA expenditures were
       unsupported due to commingling of funds and that BBBSA
       was in material non-compliance with the essential grant
       requirements in the areas we tested. Specifically, we found
       that BBBSA (1) did not adequately safeguard grant funds;
       (2) did not adequately monitor subrecipients or require
       subrecipients to support the grant funds received and
       expended; (3) charged unsupported and unallowable
       expenditures to the grant; (4) did not accurately compute
       indirect costs; (5) did not adequately monitor consultants;
       (6) did not base its drawdown of funds on actual
       expenditures; (7) did not monitor actual spending against
       approved budgets; (8) did not properly safeguard accountable
       property acquired with grant funding; (9) did not prepare
       Federal Financial Reports based on actual expenditures; and
       (10) generated program income which was not properly
       reported. As a result of these weaknesses, we questioned
       $19,462,448 in funding that BBBSA received and recommend
       the remaining grant funds, totaling $3,714,838, not yet
       disbursed be put to better use. These amounts represent the
       total award amount for the three grants we audited. The
       conditions for our findings, including the underlying causes
       and potential effects, are further discussed in the body of this
       report. 7

Overview

       In August 2012, we initiated an audit of three grants provided by OJP
to BBBSA totaling $23,177,286. Following our routine audit process, we
requested summary and detailed accounting records for all expenditures
charged to the grant. In response to our request, and after repeated
attempts to obtain the information, BBBSA provided accounting system
reports that included journal entries summarizing what it stated to be a
collection of grant-related transactions. We asked BBBSA to identify the

       7
          The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs and funds put to better use. However, not all findings
are dollar-related. See Appendix II, for a breakdown of our dollar-related findings and for
the definition of questioned costs and funds to better use.




                                            -7­
underlying transactions associated with each of the summary entries, but
the accounting staff was unable to use its accounting system to provide that
information. Instead, BBBSA provided spreadsheets that we found were
based on budgets, included miscalculations, and did not tie back to the
summary journal entries previously provided.

      When asked whether the grant-related transactions could be identified
in the accounting system specifically, BBBSA finance staff acknowledged that
it had not been using its accounting system to track grant activity. Instead,
spreadsheets were maintained outside of the accounting system and were
the primary source of transactions related to the OJP grants we audited.
Additionally, we found that the OJP grants were commingled in the same
operating account in BBBSA’s accounting system with other funding sources,
including other restricted funds.

      The difficulty in producing a listing of grant-related transactions was
discussed with BBBSA’s accounting staff, who acknowledged the issue and
explained that the difficulty was due to a recent reduction in staff combined
with the timing of our audit, as external auditors were scheduled to perform
BBBSA’s annual financial audit.

       Due to BBBSA’s continued inability to produce an accounting system
report of detailed grant-related transactions, we suspended the audit and
issued a warning letter to the agency on September 18, 2012. The warning
letter informed BBBSA that if it was unable to identify the specific
transactions related to the three grants we were auditing within 30 days, we
would issue a report questioning all funds disbursed for each award. Within
30 days of the warning letter, BBBSA provided a manually prepared listing,
rather than a report from its accounting system, of what it stated were
grant-related transactions. At this point, our audit work resumed and was
completed in February 2013. We discuss the assessment of the manually
prepared listing of expenditures further in the Internal Control Environment
section and throughout the report.

Internal Control Environment

      While our audit did not assess BBBSA’s overall system of internal
controls, we did review certain internal controls of BBBSA’s financial
management system specific to the administration of the grant funds during
the period under review. Specifically, we determined that BBBSA did not
have adequate written internal control procedures to govern the use of
federal funds and did not have adequate processes in place to ensure the
safeguarding and segregation of federal funds from other sources. These



                                    -8­
internal control deficiencies are discussed in greater detail below and
warrant corrective action.

      We reviewed BBBSA’s Single Audit Report and OJP Desk Review
Reports to assess the organization’s risk of non-compliance with laws,
regulations, guidelines, and the terms and conditions of the grants. We also
interviewed management staff from the organization, reviewed financial
management policies, performed testing when possible, and reviewed
financial and performance reporting activities to further assess the risk. Our
review of the Single Audit and OJP Desk Reviews are discussed below.

Financial Management System

      We found BBBSA’s financial management system did not have
adequate controls in place to safeguard grant funds. Most significantly, we
determined the practices for recording and supporting grant-related
expenditures were inadequate to ensure compliance with the terms and
conditions of the grants. Specifically, we found that BBBSA grant-related
expenditures were not segregated from funds from other sources. As a
result, BBBSA’s accounting practices prevented it from producing a reliable,
accurate, and supportable representation of how grant funding was used.
Without this, grant funding was not adequately safeguarded to ensure
compliance with the terms and conditions of the grants. In addition, the
potential existed that grant funds specifically received for one project were
used to support other projects. Further, if grantees are not properly
safeguarding grant funds, there is a potential for fraud, waste, and abuse.

      According to the OJP Financial Guide (Financial Guide), award
recipients are responsible for establishing and maintaining an adequate
system of accounting and internal controls to account accurately for funds
awarded to them. The Financial Guide further states that an adequate
accounting system for grant recipients must be able to separately track
expenditures for grant awards. In addition, award recipients must provide
adequate fund accountability for each project it has been awarded and the
financial management system should require recipients to support
accounting records with source documentation.

      We found that BBBSA did not properly segregate grant-related
expenditures to ensure that funds specifically received for one project were
not used to support another project or other activities. BBBSA commingled
grant-related expenditures in its operating account. BBBSA finance
department staff were unaware that grant-related transactions were
required to be tracked separately for each grant award. In addition,
BBBSA’s financial management policies and procedures did not require


                                     -9­
sufficient oversight of its staff to ensure grant-related expenditures were
separately tracked. BBBSA did not have an internal control system in place
to safeguard funds and ensure that grant funds were used solely for
authorized purposes. Instead, all transactions were commingled in the
BBBSA operating account with other funding sources.

      Summary Journal Entries

      We found that grant-related expenditures were not expensed to an
appropriate fund account at the time a transaction occurred. Rather, BBBSA
made after-the-fact summary journal entries to grant fund account general
ledgers based on what we found to be inaccurate spreadsheets. The
summary journal entries we reviewed did not preserve the transaction
history that comprised the entry. The majority of entries were based on the
OJP-approved budget as opposed to the actual costs of the transactions. As
a result, we were unable to determine the universe of transactions for
testing because the summary general ledger entries were not adequately
memorialized and were not based on actual expenditures. As a result, we
discontinued our audit until BBBSA provided a manual listing of grant-related
transactions.

      Manual Listings. When we were provided the manual listing of
transactions, we asked BBBSA for the methodology utilized to create the
manual listing and assessed the reliability of the data based on BBBSA’s
methodology. We found that the majority of the amounts represented by
these manual listings were based on budget estimates for personnel and
subrecipient payments. The remaining amounts identified actual
transactions associated with expenses, but these were based on the after-
the-fact recollection of the BBBSA Finance Director and were not
memorialized as grant-related at the time of the expenditure.

       As an example, the BBBSA Finance Director told us that the personnel
and fringe benefit amounts on the manual listings were based on the OJP-
approved budget. Specifically, the total approved budget amount was
divided by the number of months for the grant funded program, rather than
the actual costs for personnel and fringe benefits. In addition, we found that
the manual listing included salary and wages claimed for two individuals who
were actually paid through accounts payable. As a result, we determined
that the budgeted costs associated with the salary and wages cost category
were not reliable for testing based on the methodology used to create the
listing.

      We also assessed the reliability for the other cost categories included
in the manual listing associated with the grants, including subrecipient


                                    - 10 ­
payments, consultant payments, travel expenditures, and indirect costs.
The BBBSA Finance Director told us that the subrecipient payments were
based on the total subaward divided evenly by the length of the subaward
period; the payments are not based on actual subrecipient expenses. We
determined that this was not a reasonable methodology for charging
subrecipient payments to the grant because of the requirement that grant
payments be based on actual expenditures.

       The BBBSA Finance Director told us that for consultants, he identified
the transactions after the expense was incurred by associating or recalling
that the consultant was grant-related based on the consultant name. The
consultants were not memorialized in the accounting system as grant-
related at the time of the transaction. We determined that this was not a
reliable methodology for expensing consultant payments to the grants,
especially given the concurrent OJP grants. For travel related expenditures,
because all BBBSA transactions were in one operating account, BBBSA was
unable to reliably identify grant-related transactions after the fact. The
BBBSA Finance Director, on more than one occasion, acknowledged that this
methodology was prone to error. During a cursory review of the listing of
travel-related expenditures identified as grant-related by BBBSA, we noted
at least one travel and related expenses report, comprised of 19 individual
transactions totaling $1,694, was charged to more than one grant. In
addition, we reviewed the underlying support that was provided by BBBSA
for the grant-related charges and found that the support did not reliably
identify the award to which the travel was related. As a result, the BBBSA
identified travel expenditures were not reliable.

      During interviews with BBBSA management officials, we discussed the
lack of adequate internal controls in place to safeguard funds and assure
grant funds are used solely for authorized purposes. We noted that grant-
related transactions were commingled in BBBSA’s operating fund, including
other Department of Justice grants that were not included in the scope of
this audit. We were told by BBBSA management that the commingling was
pervasive throughout BBBSA’s restricted funding sources and not limited to
grant funds.

      We recommend that OJP ensure that BBBSA establishes appropriate
internal controls that include the design and implementation of policies and
procedures to ensure that the financial management system provides for
adequate recording and safeguarding of grant-related activities and ensure
that staff are adequately trained and supervised in the use of the system. In
addition, we recommend that OJP remedy the $19,462,448 in grant fund
drawdowns, as of February 2013, that are unsupported due to commingling
and put $3,714,838 in non-drawn down funds to better use.


                                   - 11 ­
Previous Single Audit and OJP Desk Reviews

      Single Audit Review

       According to OMB Circular A-133, non-federal entities that expend
$500,000 or more in federal awards in a year shall have a Single Audit
conducted. We reviewed BBBSA’s most recent Single Audit for the FY ending
June 30, 2011. We found that the independent auditors had issued an
unqualified opinion without noting any material internal control weaknesses,
deficiencies, or findings directly related to Department of Justice grants.

      OJP Desk Reviews

       An OJP desk review, or desk monitoring, consists of reviewing grant
files to ensure they are current, accurate, and complete. We noted that OJP
Program Managers responsible for grant awards 2009-TY-FX-0047 and
2010-JU-FX-0005 had performed desk reviews in September 2010,
September 2011, and June 2012. All three desk review reports stated that
BBBSA was not a high-risk grantee and a low priority for monitoring. None
of the desk reports noted any financial or progress compliance exceptions.

      In performing our audit work, we review Single Audits and Desk
Reviews to determine whether any issues have already been identified within
an agency’s internal controls, as both reviews would contain such issues if
found. However, in this instance, both reviews contained no findings and, as
a result, we did not modify our audit based on the reviews. However, during
the course of our audit, we found significant internal control deficiencies and
ensured our audit scope was adjusted appropriately.

Subrecipient Monitoring

      We determined BBBSA failed to provide adequate oversight of its
subrecipients. This included failure to assess subrecipient financial
management systems, failure to obtain budgets on which grant funds would
be spent, and no assessment of how the grant funds were spent. As a
result, BBBSA was unable to demonstrate that its subrecipients used grant
funding as intended.

     As shown in the Exhibit II below, we determined that from the
$23,177,286 BBBSA was awarded by OJP for the three grants we audited,
BBBSA budgeted $19,164,548, or about 83 percent, of this funding for
subaward funding to affiliates. Although these affiliates carry the Big



                                    - 12 ­
Brothers Big Sisters name, they are separate and distinct non-profit
organizations that are operated independently from BBBSA. 8

                              EXHIBIT II
                  BBBSA BUDGETED SUBAWARD AMOUNTS

                                       Budgeted              Percentage of
                 Grant                 Subaward               Total Grant
                                        Amount                  Budget
          2009-TY-FX-0047              $ 1,316,550                      71%
          2010-JU-FX-0005                  8,000,000                    80%
          2011-MU-MU-0017                  9,847,998                    87%
          Total                         $19,164,548                     83%
      Source: GMS, BBBSA budgets

      As a prime recipient of OJP grant funding, BBBSA was required to
ensure that its subrecipients, such as the Big Brothers Big Sisters affiliates,
spent grant funding in accordance with the program and grant requirements,
laws, and regulations. Specifically, the Financial Guide requires that
grantees have written policies and procedures for subrecipient monitoring.
The Financial Guide also includes best practices that recipients may consider
incorporating in their subrecipient monitoring. These best practices include
pre-award procedures such as requiring subrecipients to submit detailed
performance plans with integrated budget line items.

      In addition, the Financial Guide suggests using monitoring activities
during the life of the subaward such as requiring subrecipients to submit
monthly financial and performance reports and site visits to examine records
and observe operations. When site visits are not conducted, OJP suggests
inspecting documents that may include timesheets, invoices, contracts, and
ledgers that support monthly financial reports submitted by the subrecipient.
The Financial Guide also requires grantees to develop procedures to ensure
that subrecipients expending $500,000 or more in Federal awards during the
subrecipients’ fiscal year provide a complete audit within 9 months after its
year-end. Additionally, recipients need to evaluate the impact of
subrecipient activities on the recipient’s ability to comply with applicable
Federal regulations and ensure that the subrecipient takes timely and
appropriate corrective action on audit findings.


      8
          According to the Financial Guide, subawards, also known as subcontracts or
subgrants, refer to the award of financial assistance in the form of money (or property in
lieu of money) made by an OJP grantee under an OJP grant to an eligible subrecipient or by
a subrecipient to a lower-tier subrecipient.




                                          - 13 ­
       BBBSA required its affiliates to submit a financial audit within 60 days
of the completion of an affiliate’s fiscal year. However, BBBSA told us it did
not have a robust system to ensure that subrecipients fulfilled the corrective
actions noted in the audits that were performed. In response to our bringing
this issue to BBBSA’s attention, BBBSA management stated that it intended
to implement strategies to ensure corrective action on all affiliate audit
findings, however, these strategies were not implemented prior to the close
of our fieldwork and we were not able to review any actions taken.

       To evaluate BBBSA’s subrecipient monitoring, we interviewed BBBSA
officials and reviewed related documentation. BBBSA officials told us that
there were no written policies and procedures in place for the monitoring of
subrecipients. Additionally, BBBSA told us that they did not have OJP
suggested pre-award practices in place for grant subrecipients. Specifically,
as required by the Financial Guide, we found that BBBSA failed to evaluate
subrecipient financial management systems and did not require
subrecipients to provide budgets for anticipated grant-related expenditures.
As no assessment of subrecipients’ financial management systems was
conducted, BBBSA could not provide assurance that the grant funds that
were passed through to affiliates were adequately tracked and safeguarded.

      In addition, BBBSA did not provide funding to its subrecipients based
on specific projected costs through proposed budgets. Instead,
subrecipients were required to provide BBBSA with a proposed number of
matches. 9 BBBSA then based each subrecipient award on the number of
matches multiplied by a cost-per-match. For example, in the 2011 grant,
BBBSA used a $1,750 cost-per-match. 10 BBBSA would then take the total
award amount for a subrecipient, divide it by the number of months in the
grant period, and provide an equal monthly payment to the subrecipient
each month. The payments to the subrecipients were made each month
without any assurance from the subrecipient that such matches were
actually made.

      Throughout the award period, BBBSA did not request any detailed
financial information to be submitted by the subrecipient and did not request
any timesheets, invoices, or ledgers to support the payments it made to any
subrecipient. The conditions for subrecipients to receive a monthly payment

       9
          A match is defined by BBBSA as a one-to-one relationship between a volunteer
and a child with the expectation that they will meet regularly for a significant amount of
time in order to reach positive youth development outcomes.
       10
         BBBSA used $1,750 per match as an average cost for servicing high-risk youth
and the amount was used by all subrecipients, regardless of location.




                                           - 14 ­
included acknowledging receipt of prior month funds, reporting monthly
revenue, and being up-to-date in paying affiliate fees to BBBSA. As a result,
subrecipients may have received grant funds without performing any grant-
related activities as BBBSA did nothing to evaluate what grant funds were
being used for by subrecipients.

       When grantees fail to properly monitor subrecipient expenditures, OJP
funds are at risk for fraud, waste, and abuse. By failing to require
subrecipients to submit budgets and detailed expenditure documentation,
BBBSA cannot be sure that funds are being spent as intended. In addition,
by paying subrecipients on an award budget basis, BBBSA is not ensuring
that it minimizes the time elapsing between the transfer of funds from
BBBSA and disbursement for grant eligible expenditures. When recipients
fail to monitor subrecipient timing of funding, the Federal government is at
risk for incurring unnecessary lost interest receipts.

       In discussing this finding during our audit, a BBBSA official told us that
subrecipients were believed to use grant funds to cover costs associated with
salaries, fringe benefits, grant-related travel, supplies (office, program-
specific, and printing), and office equipment for new hires, if needed.
However, because BBBSA did not monitor how subrecipients spent funds, we
found all payments made to the subrecipients to be unsupported. During
our fieldwork, this amounted to $12,624,008 representing the amount
provided to BBBSA’s subrecipients from the initiation of the grants through
June 27, 2012, the date of the documentation we used in our testing. As a
result, we recommend that OJP remedy the $12,624,008 in payments
BBBSA awarded to subrecipients as unsupported. In addition, we
recommend that OJP ensure BBBSA implement policies and procedures for
subrecipient monitoring and document the policies in writing.

Grant Expenditures

     Where possible, we reviewed grant expenditures to determine if costs
charged to the grants were allowable, supported, and properly allocated in
compliance with grant requirements. To determine if expenditures were
supported, we reviewed invoices, receipts, wire transfer records, and travel
expense reports.

     As mentioned in our Internal Control section, due to the accounting
system weaknesses, we were provided with a manually created listing of
what BBBSA asserted to be grant-related expenditures rather than an
accounting system report. We asked BBBSA’s Finance Director the
methodology he used to create the listing and sampled transactions from the
manual listing to determine the reliability of the listing. BBBSA’s grant


                                     - 15 ­
expenditures consisted of (1) disbursements made to subrecipients in
support of mentoring program activities, (2) personnel and fringe benefit
costs related to the administration of the grant program, (3) disbursements
to consultants in support of the grant program, and (4) staff travel-related
expenditures. Disbursements made to subrecipients were addressed
previously in the Subrecipient Monitoring section and therefore we do not
discuss it in this section.

Personnel and Fringe Benefit Expenditures

       BBBSA provided us with manually prepared listings of grant-related
expenditures that included salary totaling $1,602,336 and fringe benefits
totaling $406,069. BBBSA’s listing of grant-related personnel expenditures
included monthly amounts of salary and fringe benefits. We reviewed the
methodology used to prepare the listing of personnel and fringe benefit
expenditures and determined the related expenditures were based on the
OJP approved budgets, not on actual documented payroll expenditures.
BBBSA calculated the amount charged to the grant by using the position and
salary rates from the related grant budget rather than actual salary and
fringe benefit amounts. As a result, we determined the transactions
provided by BBBSA reflecting salary and fringe benefit expenditures were
not reliable for testing. During our audit, the BBBSA Finance Director told us
that personnel and fringe benefits were charged to the grants based on the
OJP-approved budgets divided by the timeframe, the number of months, of
the associated grant. Because the BBBSA Finance Director claimed charges
on a monthly budget basis and BBBSA’s payroll was done on a biweekly
basis, the expenditures could not be traced from budgeted cost to actual
cost.

       The Office of Management and Budget Cost Circular A-122, “Cost
Principles for Non-Profit Organizations,” requires charges to awards for
salaries and wages to be based on documented payrolls approved by a
responsible official of the organization. By charging grants based on the
OJP-approved budget rather than documented payrolls, BBBSA failed to
ensure that funds supported grant-related activity.

      In October 2012, BBBSA told us that it was in the process of
implementing an online allocated timesheet system as part of the current
payroll system, and that the new allocated timesheet would require staff to
enter the hours worked on a particular project on a biweekly basis. In
addition, the new automated timesheet was to be reviewed by supervisors to
ensure that employees are accurately accounting for grant-related activities.
Because the system was not fully implemented at the time of our fieldwork,
we could not determine whether the new system met the requirements of


                                    - 16 ­
the Financial Guide. In addition, a BBBSA official who was working to ensure
grant-related employees were in fact working on such activities, stated she
had to inform some employees they were being paid with grant funds, and
therefore, need to keep track of the time spent on grant related activities.

      BBBSA officials told us that supervisors maintained an allocation
spreadsheet to document the time and effort employees spent on grant-
related activities. We reviewed BBBSA’s allocation spreadsheet and found
that certain Financial Guide criteria were not being met. Specifically, the
allocation spreadsheet did not account for the total activity for which each
employee was compensated, was not signed by the employee, and there
was no evidence that the spreadsheet was reviewed or approved by a
supervisory official. In addition, the BBBSA Finance Director told us that he
did not use the allocation spreadsheets to identify actual costs to the grant
for personnel, but rather the spreadsheets were used by supervisors to
monitor staff. As explained previously, personnel charges to the grant were
based on budget estimates.

      Periodic Certifications

      BBBSA, in its approved grant budgets, was specific about the staff
percentage of time to be spent on grant-related tasks. BBBSA identified two
employees that were to spend 100 percent of their time working on grant-
related activities. BBBSA told us it did not require employees working 100
percent of their time on a single award to complete periodic certifications of
work.

       According to the Financial Guide, grantee employees working solely on
a single Federal award must support their salaries by completing periodic
certifications. The certification must be prepared at least semi-annually and
be signed by the employee and a supervisory official having firsthand
knowledge of the employee’s work. A BBBSA official told us that the two
employees working solely on a single grant had not completed periodic
certifications.

      Position Not Authorized in Budget

       BBBSA identified the Associate Director of Native American Mentoring
on its listing of personnel costs associated with grant award
2009-TY-FX-0047; however, this position was not included in the OJP
approved budget. The Financial Guide states that a grant adjustment notice
must be submitted when making changes to the staff with primary
responsibility for implementation of an award.



                                    - 17 ­
       The BBBSA Finance Director was unaware that a comparison to actual
activity spent on grant-related activities was required. By failing to compare
actual time spent on grant-related activity, BBBSA could not demonstrate
that the amount charged to the grants could be supported by grant-related
activities. Our audit identified unsupported personnel questioned cost
expenditures for all three grants. In addition, because the calculation of
fringe benefit expenditures are based directly on personnel expenditures as
either a percentage or fixed amount, we determined fringe benefit
expenditures were not adequately supported.

                         EXHIBIT III

             SUMMARY OF PERSONNEL EXPENDITURES

       AND FRINGE BENEFIT COSTS CHARGED TO THE GRANTS


          Grant Award Number                Personnel       Fringe
                                           Expenditures    Benefits
       2009-TY-FX-0047                       $ 326,730      $ 81,682
       2010-JU-FX-0005                           939,180      238,833
       2011-MU-MU-0017                           336,426        85,554
       Total Questioned Costs:               $1,602,336     $406,069
      Source: Big Brothers Big Sisters of America

      Consequently, we questioned $1,602,336 in personnel expenditures
and $406,069 in fringe benefits as unsupported for the three grants. In
addition, we questioned $37,017 as unallowable due to the unapproved
Associate Director of Native American Mentoring position. As a result, we
recommend that OJP ensures BBBSA implements and adheres to policies and
procedures that ensure personnel expenditures paid with grant funding are
documented as required by the Financial Guide, and BBBSA implements time
and effort tracking procedures that ensure employees document time spent
on grant-related activities and document the procedures in writing. We also
recommend that BBBSA implement policies and procedures that ensure
employees paid with grant funds are identified on approved grant budgets.

Travel Expenditures

      BBBSA did not use its accounting system to track expenditures and
instead used summary journal entries for cost categories, including travel
expenditures. BBBSA provided us a manually created spreadsheet of grant-
related travel expenditures and, according to the spreadsheet, BBBSA had
218 travel expenditures totaling $196,059 for the 3 grants we audited.
However, according to the originally provided summary journal entries,
travel expenditures BBBSA claimed for reimbursements were $186,193. The



                                        - 18 ­
BBBSA Finance Director explained that the difference between the two
amounts was due to errors in assigning travel expenses to the grants.

       The BBBSA Finance Director stated his methodology for identifying
grant-related travel expenditures included an after-the-fact recollection, on a
monthly basis, to associate a travel expense with OJP grant funding. The
BBBSA Finance Director acknowledged his methodology was prone to error
because he did not memorialize travel expenditure documentation as related
to a specific grant at the time the expenditure was incurred. At the time of
our fieldwork, BBBSA officials were planning to begin expensing grant-
related travel to different grant-related fund accounts. However, this
process had not yet been implemented.

       We sampled travel expenditures from BBBSA’s manually created listing
of grant-related travel expenditures and noted that there was no supporting
documentation to identify it as related to a specific grant. Since all BBBSA
transactions were in one operating account and BBBSA did not memorialize
supporting documentation to a specific award, BBBSA was unable to reliably
identify the grant-related transactions after the fact. Because BBBSA had
numerous concurrent OJP grants and failed to adequately document grant-
related travel to a specific OJP grant, BBBSA could not demonstrate that
costs claimed under one OJP grant were not also claimed under other
sources.

       In examining BBBSA travel expenditures that we were told were
associated with grants, we found many of the travel expenditures were
flawed. For example, we found transactions that were not grant related,
transactions that BBBSA could not support, supply transactions that were
categorized as travel expenses, and transaction amounts that were rounded.
Of particular concern was the fact that the travel receipts provided were
generally at a summary level, with no detailed information regarding the
associated transactions. For example, a restaurant receipt would show the
total charge with no indication of what was purchased or the number of
diners. We also identified at least one example of a travel-related
transaction that was charged to two OJP grants. In addition, we found an
instance of first class airfare for a BBBSA Board Member to travel to
Washington DC to attend Congressional meetings paid with grant funds.

      Travel expenditures were not contemporaneously identified and
memorialized as grant-related at the time the BBBSA Finance Director
recorded the transactions. Because the supporting documentation provided
did not establish a connection between a charge and a specific grant, we
could not determine that grant funding was appropriately used for the travel
expenditures, or that they were for allowable costs. As a result, we


                                    - 19 ­
determined the travel expenditures associated with the grants were
unreliable and we were unable to test the transactions. As a result, we
recommend that OJP remedy the $196,059 in unallowable and unsupported
travel expenditures.

Consultant Payments

      In each award application, BBBSA included a budget narrative for OJP
approval that identified consultants to be paid with grant funds. We
reviewed the manually prepared listing of transactions and identified
74 consultant payments in total for the three grants we audited. The BBBSA
Finance Director stated his methodology for identifying grant-related
consultant payments included a monthly review of the BBBSA operating
account and identifying consultant payments as grant-related based on the
name of the consultant.

     While we determined this methodology was flawed and prone to error,
we determined it was reasonable to test consultant payments because the
underlying contracts specified deliverables that could be associated with
approved grant-related activities. Those activities included outcomes being
pursued in the military mentoring, Juvenile Justice Initiative, and Tribal
Youth Mentoring programs. However, consultant expenditures were
commingled with expenditures from other funding sources.

      We reviewed the consultant expenses and the associated contracts to
determine compliance with OJP requirements. A BBBSA official explained
that consultants were identified and selected by referral and, in other
instances, the official asked for recommendations from existing consultants.
When the BBBSA official identified a potential consultant, the consultant was
asked if grant-related work would be performed for the federal rate of
$450 per day. Consultants willing to work for the $450 per day amount
were provided a contract and placed into a pool of consultants.

      Although the Financial Guide requires approval for rates exceeding
$450 per day, the Financial Guide also states that the $450 per day rate
should not be used for all consultants. Instead, consultant rates should be
developed and reviewed on a case-by-case basis and must be reasonable
and allowable in accordance with OMB cost principles. A BBBSA official
responsible for procuring consultant services under the grant awards was not
aware of the Financial Guide requirements and had explained that as long as
he did not exceed the federal rate of $450 per day it was believed to meet
grant criteria.




                                   - 20 ­
       We asked whether BBBSA had a formal policy in place for the selection
and monitoring of consultants and were told that BBBSA had no formal
policy in place to select or monitor consultants. However a BBBSA official
stated that it works closely with those contracted to do work. We consider
this to be minimally adequate and, as a better practice, BBBSA should
implement procedures to periodically evaluate consultants and maintain
documentation of any concerns.

       Without any meaningful negotiation to ensure the lowest possible rates
were paid, grant funding is subject to fraud, waste, and abuse. We
recommend that OJP remedy the $221,182 in consultant costs that were
unallowable due to BBBSA’s failure to ensure that reasonable rates were
established on a case-by-case basis. In addition, we recommend BBBSA
clearly document and maintain the analysis, negotiation, justification, and
monitoring for each consultant and document the policies and procedures.

     While we questioned all consultant costs due to BBBSA’s failure to
ensure reasonable rates, as discussed below, we noted two separate
consultants with costs that were either unallowable or unsupported, or both,
based on a specific additional criteria.

     Grant Award 2009-TY-FX-0047 Consultant Payments

     In the 2009-TY-FX-0047 grant budget, OJP approved the use of
consultants to support BBBSA’s Native American mentoring initiative.
BBBSA used grant funding for one consultant to support its Native American
mentoring initiative. The consultant was paid a rate of $3,875 per month.
We reviewed invoices for work completed by the consultant and could not
determine the time spent working on grant-related activities.

      According to the OJP Financial Guide, BBBSA must seek approval for
consultant rates in excess of $450 per day or $56.25 per hour. In addition,
grantees are required to retain time and effort reports for consultants. We
attempted to determine a daily or hourly rate by reviewing the invoices for
time and effort. We asked a BBBSA official how the $3,875 per month was
determined and the official was unable to provide a response.

      Without requiring time and effort reports, we could not determine what
daily or hourly rate the consultant was paid and, therefore, could not
determine if the consultant was paid in excess of $450 per day or $56.25 per
hour. As a result, we consider the $19,375 payment to the Native American
consultant unsupported because there were no time and effort reports to
support the rate paid to the consultant. In addition, we questioned $11,625
in costs as unsupported because there was no supporting documentation to


                                   - 21 ­
support grant-related activities. As a result, we recommend OJP remedy
$19,375 and $11,625 in unsupported expenditures for the Native American
mentoring initiative consultant.

     Grant Award 2010-JU-FX-0005 Consultant Payments

     In the 2010-JU-FX-0005 grant budget, OJP approved the use of a
consultant to assist with the development of BBBSA’s Agency Information
Management (AIM) system. The consultant was hired through a non­
competitive process and paid a rate of $100 per hour.

     According to the Financial Guide, all consultants who have been hired
without a competitive bidding process are subject to the $450 per day, or
$56.25 per hour, maximum consultant rate threshold. When the rate
exceeds that limit, a written prior approval is required from OJP and prior
approval requests require additional justification.

      We determined that the AIM consultant was paid $100 an hour, which
was $43.75 per hour over the allowable hourly rate, and BBBSA did not
request prior approval or provide additional justification for the $100 per
hour rate. BBBSA identified the consultant as sole-sourced and did not
provide evidence that the AIM consultant was procured through fair and
open competition.

      Because BBBSA exceeded the maximum consultant rate without
negotiating the contract through competition and did not receive prior
written approval from OJP to exceed the rate, we consider the total $79,000
paid to the AIM consultant as unallowable. As a result, we recommend OJP
remedy $79,000 in unallowable costs due to a failure to obtain prior
approval and provide justification for the $100 per hour rate.

      The following Exhibit summarizes the questioned costs associated with
the consultant payments. We question all of the consultant costs for the
three grants due to the overarching failure of BBBSA to establish the
consultant rates on a case by case basis. In addition, the Native American
and AIM consultant costs are further questioned due to BBBSA’s failure to
meet additional OJP criteria with respect to consultants.




                                   - 22 ­
                              EXHIBIT IV

                     SUMMARY OF QUESTIONED COSTS 11



                               OIG Reviewed                   Questioned Costs
     OJP Criteria
                               Grant Numbers              Amount               Type
Failure to Establish          2009-TY-FX-0047                $19,375
Consultant Rates on           2010-JU-FX-0005               $154,272       Unallowable
Case-by-Case Basis           2011-MU-MU-0017                 $47,535
Failure to Retain Time
                                                            $19,375*       Unsupported
and Effort Reports
                              2009-TY-FX-0047
No Supporting
                               Native American
Documentation to
                                 Consultant                 $11,625*       Unsupported
Support Grant Related
Activities
Consultant Paid in
Excess of Maximum
                              2010-JU-FX-0005
Rate – Not                                                  $79,000*       Unallowable
                               AIM Consultant
Competitively Bid and
No Prior OJP Approval

Other Grant Expenditures

      BBBSA was approved in its grant budgets for supplies and equipment.
We reviewed the list of transactions provided by BBBSA and were unable to
readily identify specific supplies and equipment. Instead, BBBSA stated that
the equipment and supplies were included in the indirect cost category
expenses. See the Indirect Costs section for further discussion.

Indirect Costs

       Indirect costs are the shared costs incurred by an organization that
may not be readily identifiable with a particular project or program but are
necessary to the overall operation of the organization and the performance
of its programs. In conjunction with its grant budget, a grantee must have a
written indirect cost rate agreement approved by its cognizant agency prior

       11
           We questioned the consultant costs in each of the three grants in their entirety
due to BBBSA’s failure to establish consultant rates on a case-by-case basis. The asterisked
(*) amounts represent consultant costs that were questioned for one or more reasons in
addition to BBBSA’s failure to review these rates on a case-by-case basis, as noted in
Exhibit IV.




                                          - 23 ­
to using grant funding for indirect costs. 12 We determined that indirect costs
were approved in the budgets for the grants we audited, and BBBSA had an
approved indirect cost rate agreement. However, we found that BBBSA
failed to follow the approved methodology in the indirect cost rate
agreement to identify the amount indirect costs associated with the three
grants we audited.

       According to BBBSA’s approved indirect cost rate agreement, indirect
costs are calculated by multiplying the approved cost rate by the total
eligible direct costs incurred during a period of time. For BBBSA’s indirect
cost rate agreement, eligible direct costs were to include all direct costs
incurred by the organization with the exception of distorting items such as
equipment, capital expenditures, pass-through funds, and each major
subcontract or subaward over $25,000.

       The BBBSA Finance Director told us, and we found, that indirect costs
associated with the three grants we audited were not calculated according to
the methodology defined in the indirect cost agreement. Rather, the BBBSA
Finance Director told us the estimated amount of indirect costs in each grant
budget was allocated over the life of the grants. This methodology was
inappropriate because it does not follow the methodology required by the
indirect cost rate agreement and it is based on estimated costs, not actual
costs.

      During our fieldwork, BBBSA attempted to support the indirect cost
charges made to the grants with specific transactions. However, in doing so,
the transactions included charges for equipment and supplies which were
separate cost categories approved by OJP in the grant budget and should
not have been included in the indirect cost charges for the grants.

      We determined that BBBSA’s methodology incorrectly identified
indirect costs totaling $434,157 associated with the three grants we audited
and we consider these costs as both unsupported and unallowable. In
addition, due to the unreliable grant expenditure data previously described
in the Internal Control Environment section of this report, it was not possible
to calculate the correct amount of indirect costs for the grants.




      12
         The designated cognizant agency is the Federal awarding agency that provides
the predominant amount of funding to an award recipient. For the grants awarded to
BBBSA, DOJ was the designated cognizant agency.




                                         - 24 ­
Drawdowns

      The term drawdown is used to describe the process when a recipient
requests and receives funds under a grant award agreement. Between
August 19, 2010 and February 5, 2013, BBBSA received a total of
$19,462,448 by making 77 drawdowns related to the 3 grants. We
determined that BBBSA’s methodology for making these drawdowns was
flawed as it (1) was not based on immediate cash needs or grant-related
expenditures and (2) did not demonstrate that all funding received was
disbursed for grant-eligible purposes in a timely manner. In addition, due to
the problems previously discussed related to the accurate tracking of grant-
related expenditures, it was not possible to determine whether BBBSA
maintained excess cash on hand during the period we audited.

      According to the BBBSA Finance Director, the methodology for
determining the timing and amount of the drawdowns was incorrectly based,
at least in part, on budget estimates rather than its immediate cash needs
for grant-related expenditures. Specifically, drawdowns were calculated
using OJP approved budget amounts for personnel, fringe, and indirect
costs, the total from a spreadsheet maintained by BBBSA’s finance
department that tracked monthly totals paid to subrecipients, and consultant
and travel expense line items identified at the end of the month in the
BBBSA operating account.

      The Financial Guide states that grantees should time their drawdown
requests to minimize the time between the receipt of funds and the
disbursement of those funds, and grantee systems should allow recipients to
make drawdowns as close as possible to the time of making disbursements.
In addition, the BBBSA Finance Director stated drawdowns were based on
reimbursements, yet his methodology relied heavily on budget data.

      We determined that BBBSA’s lack of written policies and procedures
for completing drawdowns in accordance with the Financial Guide and a lack
of knowledge of these requirements by the Finance Director likely
contributed to using this incorrect methodology.

       When grantees fail to properly manage and document that they
minimize the time elapsing between the receipt of funds and disbursement
of those funds for grant eligible expenditures, the Federal Government is at
risk of losing interest receipts. As we have already identified the entire
amount of drawdowns, $19,462,448, as questioned cost in the Internal
Control section of this report, we do not identify any questioned costs here.
However, we recommend that OJP ensure that BBBSA establishes and
adheres to written policies and procedures for (1) identifying drawdown


                                    - 25 ­
amounts and (2) minimizing the time between drawdown and disbursement
in accordance with the Financial Guide.

Budget Management and Control

      The Financial Guide addresses budget controls surrounding grantee
financial management systems. According to the Financial Guide, grantees
are responsible for adhering to approved grant budgets and any deviations
exceeding 10 percent must receive prior approval from OJP.

      Due to the commingling of transactions previously discussed in this
report, it was not possible to compare actual spending to the OJP-approved
budget amounts. In addition, we found that BBBSA’s reliance on budget
data further prevented effective management and monitoring of actual
spending.

      OJP grant funding is at risk of fraud, waste, and abuse when grantees
do not monitor grant budgets, adhere to their pre-approved grant budgets,
or do not receive prior written permission for making adjustments to grant
budgets exceeding 10 percent. We recommend that OJP ensure that BBBSA
develops and adheres to written policies and procedures that comply with all
budget-related requirements including monitoring budgets and only request
reimbursements for actual expenditures approved in the budget by cost
category and amount.

Accountable Property

      According to the BBBSA Finance Director, computer-related
equipment, such as computers and audio visual equipment, were purchased
using funding from two of the three grants we audited. However, due to
BBBSA’s lack of reliable grant-related expenditure data discussed previously
in the Other Grant Expenditures section, BBBSA was not able to document
that this accountable property was purchased using grant funding.

       The Financial Guide requires recipients to maintain property records
that include a description of the property, a serial number, source of the
property, identification of the title holder, acquisition date, cost of the
property, percentage of Federal participation in the cost of the property,
location of the property, use and condition of the property, and disposition
data. In addition, the Financial Guide states that grantees must take a
physical inventory of accountable property and reconcile the results with the
property records at least once every 2 years.




                                    - 26 ­
       Although the equipment BBBSA acquired using grant funding could not
be identified in BBBSA’s financial records, we reviewed key aspects of
BBBSA’s property management system utilized to safeguard similar types of
equipment. We determined that this property management system did not
include sufficient information related to items purchased to identify
acquisition date, cost of the property, percentage of Federal participation in
the cost of the property, and disposition data. In addition, BBBSA officials
told us that the items in this property system were not subject to periodic
inventory procedures. We also found that BBBSA did not have written
policies or procedures for the handling, inventory, and disposal of its
accountable property inventory.

     Provided that it can be demonstrated that BBBSA acquired the
accountable property it has claimed, we recommend that OJP ensure that
BBBSA improves its property management system and implement policies
and procedures to safeguard grant-related equipment.

Grant Reporting

      The Financial Guide states that two types of reports are to be
submitted by the grantee to provide grant-related information to OJP.
Specifically, Federal Financial Reports (FFRs) provide information on actual
funds spent and the unobligated amount remaining in the grant and program
progress reports provide information on the status of grant-funded activities.

Federal Financial Reports

      We reviewed 22 FFRs that BBBSA submitted to OJP for timeliness and
accuracy. FFRs are used by OJP to monitor spending by its grantees on a
quarterly basis. Although we found BBBSA submitted these FFRs in a timely
manner, we determined the reports submitted contained grant-related
expenditure information that was inaccurate.

      According to the Financial Guide, FFRs should be submitted within
30 days of the end of the most recent quarterly reporting period. Funds or
future awards will be withheld if reports are not submitted or are excessively
late. We determined that BBBSA submitted all of its FFRs within the 30 day
deadline.

      We also attempted to evaluate the accuracy of the FFRs by comparing
the level of spending reported against the same amounts reflected in
BBBSA’s accounting system. However, as previously discussed, BBBSA’s
accounting system did not contain accurate and reliable grant-related



                                    - 27 ­
expenditure data. Therefore, it was not possible for us to verify the
accuracy of the FFRs using the accounting system data.

     Attempting to verify the spending amounts, we reviewed the
methodology BBBSA used to identify the amount included in the FFRs.
According to the BBBSA Finance Director, the FFRs were based on the
amount of funding received from OJP during the quarter and not the actual
spending as required.

       Inaccurate reporting compromises OJP’s ability to monitor grant funds
and increases the risk that funding will be subject to fraud, waste, and
abuse. We recommend OJP ensure BBBSA implements and adheres to
policies and procedures to ensure FFRs are submitted based on accurate
information.

Progress Reports

      OJP requires grantees to complete and submit progress reports as a
means to monitor performance. Progress reports are submitted to describe
grant activities and accomplishments toward achieving the objectives
contained in an approved grant award application. According to the
Financial Guide, progress reports are to be submitted within 30 days after
the end of the reporting periods, which are June 30 and December 31.

       For the grants we audited, BBBSA submitted 12 required progress
reports to OJP and we determined that 10 of the 12 progress reports were
submitted on time. One of the reports was submitted 3 days late and we
consider this lateness immaterial. The other late report was submitted
185 days late. According to a BBBSA official, an attempt was made to
submit the report on time but encountered problems with reporting system.
After 180 days, OJP froze BBBSA’s grant funding. The same day the funding
was frozen, BBBSA successfully submitted the late progress report.
According to the OJP Financial Guide, progress reports are due within
30 days after the end of the reporting periods, which occur semiannually on
June 30 and December 31, for the life of the award. Because BBBSA
submitted the progress report late, OJP’s ability to evaluate the performance
of the ongoing grant program on a timely basis was compromised. We
recommend that OJP ensures that BBBSA implements and adheres to
policies and procedures to ensure progress reports are submitted timely.

       To verify the information provided in the progress reports, we sampled
statistics and other information provided in the most recent progress reports
submitted by BBBSA at the time of our fieldwork for each of the three grants



                                    - 28 ­
audited. We found BBBSA was able to verify and support the sample
statistics we chose for testing from the reports.

Program Performance and Accomplishments

      The performance goals associated with the grants we audited included:
(1) maintaining BBBSA’s Native American Mentoring Initiative and fostering
a deeper understanding of working with the American Indian and Alaskan
Native tribal communities, (2) reducing the incidence of juvenile crime in
50 underserved local communities across the country by providing research-
based local mentoring services to more than 13,725 newly identified high-
risk and at-risk youth, and (3) expanding the Juvenile Justice Initiative to
provide comprehensive mentoring services to at-risk and high-risk youth in
60 new underserved communities across the country including an increased
focus on the children of military or deployed parents.

      To assess BBBSA’s achievements in meeting the goals and objectives
for the grants, we interviewed officials and requested a sample of data that
they compiled and used in order to measure and evaluate performance and
accomplishments related to each objective.

      Based on the information we reviewed, including information regarding
the number of matches made with grant funds as tracked within BBBSA’s
AIM system, it appeared that BBBSA achieved or was on track to achieve the
goals and objectives of the grants. We reviewed BBBSA records, agendas,
reports, and other documentation and found BBBSA provided the trainings,
obtained the mentoring matches, and established partnerships that will fulfill
the award objectives.

Program Income

       Although grant documentation and statements made by BBBSA
officials during this audit suggested BBBSA derived no program income from
the grants we audited, we believe portions of two different fees BBBSA
collected from its subrecipients represent program income. 13



       13
           According to the OJP Financial Guide, program income means gross income
earned by the recipient during the funding period as a direct result of the award. Direct
result is defined as a specific act or set of activities that are directly attributable to grant
funds and which are directly related to the goals and objectives of the project.
Determinations of “direct result” will be made by the awarding agency for discretionary
grants and by the State for block/formula subawards.




                                              - 29 ­
        The first of these fees is an affiliate fee. BBBSA’s subrecipients, which
were all BBBSA affiliates, pay BBBSA an annual affiliation membership fee.
This fee is calculated as a percentage of total expenditures made by the
affiliate. Because each affiliate is required to include expenditures made
with subrecipient funding when calculating its fee, BBBSA received fees
based on subrecipients spending grant funding. Therefore, we believe
BBBSA receives program income when collecting affiliate fees from its
subrecipients.

      In addition, BBBSA subrecipients were required to pay a fee for the
use of the AIM system. For the 2011 grant award, affiliates were required to
use the AIM system in order to receive any subaward funding. The AIM fee
is based on the total number of children served by the affiliate. Because
subrecipient funding was intended to serve children, the AIM fee BBBSA
received from its affiliates also increased as a result of grant funding.

       Due to the accounting issues and lack of subrecipient monitoring
already discussed, we were not able to determine the amount of program
income generated by these two fees so we are unable to identify any
questioned costs. However, we recommend that OJP ensure BBBSA
implement policies and procedures to identify, track, manage, and use
program income in accordance with the Financial Guide requirements.
Because the affiliate fee structure established by BBBSA likely results in
income being generated by BBBSA’s subrecipient funding, we believe that
BBBSA should recognize the funds that it receives from the subrecipients,
based on the grant funds provided, as program income and reported to OJP
through the FFR reports. In addition, this program income should be used
strictly for grant-related expenditures as directed by the Financial Guide.

OJP Actions

      Given the significance and dollar amounts associated with our findings,
we briefed OJP on our preliminary findings in February 2013. On
February 27, 2013, OJP designated BBBSA as a high risk grantee and
imposed an immediate freeze on BBBSA’s access to grant funding. In being
assigned the high risk designation, BBBSA must now meet special
conditions, imposed by OJP, in managing and administering its current and
future Department of Justice grants to ensure that grant funds are not
misspent. In its February letter to BBBSA noting these actions, OJP stated
that: “These are preliminary and temporary mitigating controls which have
been put in place solely because of the seriousness of the indications of
improper financial management, which are still under review by the DOJ
Office of the Inspector General. Once the OIG issues its audit report, OJP



                                     - 30 ­
anticipates that there will be a more complete record which will allow a final
review of all issues related to BBBSA.”

Conclusions

      We determined that all BBBSA expenditures were unsupported due to
commingling of funds and that BBBSA was in material non-compliance with
the essential grant requirements in the areas we tested for the three
awards. Specifically, we found that BBBSA: (1) did not adequately
safeguard grant funds; (2) did not adequately monitor subrecipients or
require subrecipients to support the grant funds received and expended;
(3) had unsupported and unallowable expenditures; (4) did not compute
indirect costs based on its approved agreement; (5) did not adequately
monitor consultants; (6) did not base its drawdown of funds on actual
expenditures; (7) did not monitor actual spending against the approved
budget; (8) did not properly safeguard accountable property acquired with
grant funding; (9) did not prepare Federal Financial Reports based on actual
expenditures; and (10) generated program income which was not properly
reported.

       As a result of these material weaknesses, we questioned $19,462,448
in funding that the grantee has received and recommend the $3,714,838 in
funds not yet disbursed be put to better use. These amounts represent the
total award amounts for the three grants we audited. We also make
15 recommendations to improve BBBSA’s management of grants.

Recommendations

We recommend that OJP:

   1.	   Remedy the $19,462,448 in unsupported expenditures resulting
         from:

         (a) grant drawdowns that were unsupported due to commingling
             (drawdown of $19,462,448),

         (b) payments made to subrecipients, from the initiation of the
             grants to June 27, 2012, due to lack of monitoring how the
             subrecipients spent the funds (expenditures of $12,624,008),

         (c)	 costs associated with personnel and fringe benefits due to lack
              of time and effort reports (expenditures of $2,008,405),




                                    - 31 ­
              (d)	 travel expenditures that were not sufficiently documented
                   (expenditures of $196,059),

              (e)	 costs of a Native American Mentoring consultant without the
                   required time and effort reports (expenditures of $19,375),

              (f)	 costs associated with a Native American Mentoring consultant
                   with no documentation of grant related activity (expenditures
                   of $11,625), and

              (g) indirect costs not verifiable due to a lack of direct cost data
                  resulting from commingling expenditures (expenditures of
                  $434,157).

   2.	        Remedy the $967,415 14 in unallowable expenditures resulting from:

              (a)	 costs associated with the Associate Director of Native American
                   Mentoring position not on the 2009-TY-FX-0047 approved
                   budget (expenditures of $37,017),

              (b)	 travel expenditures that were not allowable (expenditures of
                   $196,059),

              (c)	 consultant costs due to a failure to ensure that reasonable
                   consultant rates were established on a case-by-case basis
                   (expenditures of $221,182),

              (d)	 costs due to an unapproved, non-competitively negotiated rate
                   without justification for the AIM consultant (expenditures of
                   $79,000), and

              (e) indirect costs that were improperly calculated (expenditures of
                  $434,157).

   3.	        Deobligate and put to better use the remaining $3,714,838.

   4.	        Ensure that BBBSA establishes appropriate internal controls that
              include the design and implementation of policies and procedures to
              assure that its financial management system provides for adequate
              recording and safeguarding of grant-related activities and ensure
              that staff are adequately trained and supervised in the use of the
              system.
         14
         In our draft report, the total unallowable expenditures was reported as
$1,019,818. This figure was adjusted to $967,415 in the final report.




                                          - 32 ­
5.	    Ensure that BBBSA document and implement policies and
       procedures for subrecipient monitoring.

6.	    Ensure that BBBSA implement policies and procedures that ensure
       personnel expenditures paid with grant funding are documented as
       required by the OJP Financial Guide.

7.	    Ensure that BBBSA implements time and effort tracking procedures
       that ensure employees document time spent on grant-related
       activities.

8.	    Ensure BBBSA implement policies and procedures that ensure
       employees paid with grant funds are identified on approved grant
       budgets.

9.	    Require that BBBSA clearly document and maintain the analysis,
       negotiation, justification, and monitoring for grant-funded
       consultants.

10.	   Ensure BBBSA implements policies and procedures for accurately
       calculating and charging indirect costs to Department of Justice
       grants.

11.	   Ensure BBBSA establishes and adheres to written policies and
       procedures for (1) identifying drawdown amounts and
       (2) minimizing the time between drawdown and disbursement in
       accordance with the Financial Guide.

12.	   Ensure BBBSA implements policies and procedures that comply with
       all budget-related requirements, including the monitoring of grant
       budgets so that only reimbursement requests are made for actual
       expenditures approved in the budget by cost category and amount.

13.	   Ensure BBBSA implements policies and procedures for the
       acquisition, inventory, and disposal of accountable grant-funded
       property.

14.	   Ensure BBBSA implements policies and procedures to ensure FFRs
       are submitted based on accurate information and implements and
       adheres to policies and procedures to ensure progress reports are
       submitted timely.




                                 - 33 ­
15.	   Ensure BBBSA implement policies and procedures to identify, track,
       manage, and use program income in accordance with the Financial
       Guide requirements.




                                 - 34 ­
                                                               APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY


      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants reviewed were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment,
(2) subrecipient monitoring, (3) grant expenditures, including personnel,
fringe benefits, travel expenditures, consultant payments, and other
expenditures, (4) indirect costs, (5) drawdowns, (6) budget management
and control, (7) accountable property, (8) reporting, and (9) program
performance and accomplishments. We determined that matching was not
applicable to these grants and were told that the grants did not generate
program income. Where possible, we tested compliance with what we
consider to be the most important conditions of the grants. Unless
otherwise stated in this report, the criteria we audit against are contained in
the OJP Financial Guide and the award documentation.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to the award of
grant number 2009-TY-FX-0047 in September 2009, through our exit
conference in February 2013. BBBSA had drawn down a total of
$19,462,448 in grant funds as of February 5, 2013.

       When we began our audit in August 2012, as part of our routine audit
process, we attempted to obtain a universe of grant related transactions in
order to perform sample testing in three areas, which were grant
expenditures (including personnel expenditures and indirect costs), Financial
Reports, and progress reports. BBBSA provided accounting system reports
that included journal entries summarizing what it claimed to be a collection
of grant-related transactions.

      We asked BBBSA to identify the underlying transactions associated
with each of the summary entries but the accounting staff was unable to do
so. BBBSA’s Finance Director provided multiple spreadsheets to support the
entries, which contained miscalculations and were loosely connected to the
summary journal entries. We found that BBBSA had not been using the
accounting system to track grant activity at the transaction level. In its


                                     - 35 ­
accounting system, transactions related to specific OJP grants were recorded
in the same accounts with other OJP grants as well as other funding sources.
Because BBBSA was unable to provide a listing of grant related transactions,
in September 2012, we suspended our audit and issued a warning letter.
The warning letter informed BBBSA that if they were unable to identify the
specific transactions related to each grant audited, within 30 days, we would
issue a report questioning all funds disbursed for each award.

       Within 30 days of our warning letter, BBBSA provided to us a manually
prepared listing, rather than an accounting system report, of grant-related
transactions and we resumed our fieldwork. We reviewed the manually
prepared listing and the methodology used to identify the transactions listed.
For several budget categories, including personnel and indirect costs, BBBSA
used budgeted or projected amounts identified at the start of the grants
rather than after the fact sources. We discuss the manually prepared listing,
its deficiencies, and the results of our limited testing in the Findings and
Recommendations section of the audit report.

      In addition, we reviewed the internal controls of BBBSA’s financial
management system specific to the management of OJP funds during the
award period under review. However, we did not test the reliability of the
financial management system as a whole. We also performed limited tests
of source documents to assess the accuracy and completeness of
reimbursement requests and Federal Financial Reports. In addition, we did
not perform extensive reliability testing of the BBBSA computerized systems
including AIM.




                                    - 36 ­
                                                                        APPENDIX II


            SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS: 15                                              AMOUNT              PAGE

Unsupported Costs
  Drawdowns                                                        $19,462,448          11
  Subrecipient Payments                                             12,624,008          15
  Personnel and Fringe Benefits                                      2,008,405          18
  Travel Expenditures                                                  196,059          20
  Native American Mentoring Consultant - rate                           19,375          21
  Native American Mentoring Consultant due to                           11,625          21
     no supporting documentation
  Unsupported Indirect Costs                                             434,157        24

Unallowable Costs
  Associate Director of Native American                                  $37,017        18
     Mentoring
  Travel Expenditures                                                    196,059        20
  Consultant Payment                                                     221,182        21
  IT Consultant – Lack of Approval and                                    79,000        22
     Justification
  Unallowable Indirect Costs                                             434,157        24

Gross Questioned Costs                                              $35,723,492
Less Duplicative Costs 16                                          (16,261,044)

NET QUESTIONED COSTS                                               19,462,448

FUNDS TO BETTER USE 17                                                3,714,838         11

TOTAL DOLLAR RELATED FINDINGS                                     $23,177,286



       15
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
       16
          Some costs were questioned for more than one reason. Net questioned costs
exclude the duplicate amount.
       17
       Funds to Better Use are future funds that could be used more efficiently if
management took actions to implement and complete audit recommendations.




                                          - 37 ­
                                                            APPENDIX III

           DEPARTMENT OF JUSTICE AWARDS TO
          BIG BROTHERS BIG SISTERS OF AMERICA
                    2004 - PRESENT

 Award Number         Cumulative            Project Begin    Project End
                    Award Amount                Date            Date
2004-JG-FX-K001      $ 6,011,865             01/01/2004      05/31/2005
2005-JG-FX-K001        13,810,596            09/01/2005      08/31/2007
 2007-JL-FX-0046          830,000            10/01/2007      09/30/2008
 2007-JU-FX-0011        2,000,000            10/01/2007      09/30/2010
 2008-JU-FX-0005        8,615,538            10/01/2008      09/30/2009
 2008-TY-FX-0001        2,000,000            10/01/2008      09/30/2010
 2009-JU-FX-0066        1,000,000            10/01/2009      09/30/2010
 2009-TY-FX-0047        1,867,286            10/01/2009      12/31/2011
 2010-JU-FX-0005       10,000,000            10/01/2010      03/31/2013
 2010-TY-FX-0104        2,042,900            10/01/2010      12/31/2012
2011-MU-MU-0017        11,310,000            10/01/2011      09/30/2013
 2011-TY-FX-0030        1,999,854            10/01/2011      09/30/2013
 2012-JU-FX-0008        7,000,000            10/01/2012      09/30/2015
            Total    $68,488,039
Source: Grants Management System




                                   - 38 ­
                                                                                                        APPENDIX IV


                BIG BROTHERS BIG SISTERS OF AMERICA

                RESPONSE TO THE DRAFT AUDIT REPORT



                                                                                                                   National Office
                                                                                                             230 Nort h 13th St reet
                                                                                                            Phil ade lph ia, PA 19107

                                                                                                                    T 21 5 567 7000
                                                                                                                    F 21 5 567 0394
       Big Brot hers Big Sisters
                    May 2 1, 20 13                                                                        Big BrothersB igSisters.o rg


                    VIA EMAIL

                    Thomas O . Puerzer
                    Office o f the In spector General
                    U.S . Department of Justice
                    70 I Ma rket Street, Suite 20 I
                    Philadelphi a, PA 19 106

                            Re: Response to Draft Audit Report, Audit of the Office ofJustice Programs
                    Office ojJuvenile Justice and Delinquency Prevention Grants Awarded to Big Brothers
                    Big Sisters of America, Philadelphia, Pennsylvania
                    Dear Mr. Puerzer:
                            Thank YOll for the opportunity to comm ent on the draft audit report (th e " Draft
                    Audit Report") prov ided by the Department o f Jus tice ("DO!,,), O ffi ce o f the In spector
                    General (the "OIG"). Encl osed is our response, which we hope clearly refl ects our
                    understanding of the issues and our top-down commitment to continui ng our impo rtant
                    work with young peopl e while also meeting or exceeding grant objecti ves and fully
                    com ply ing with all Department of Justi ce guidelines.

                             Big Brothers Big Sisters of Ameri ca ("B BBSA") values its 20-year working
                    partnershi p with DOl We a pprec iate your shared commitm ent to our core goa l o f
                    helping children rea li ze their potential and building the ir future. ev idenced by the worthy
                    grant programs you admini ster. O ur wo rk togethe r is making a diffe rence in
                    communities across the United States. In your draft report you acknowledge some of our
                    mutual successes and th at BBBSA met or is on track to meet the grant obj ectives. In fact,
                    in the three-year peri od between 2009 - 20 II , the program s under audi t all owed almost
                    17,000 at-ri sk yo uth , incl uding some in more than 60 underserved areas, to receive the
                    benefi t o f profess ionally supported one-to-one me ntoring.

                             BBBSA understands that programmatic achieve ments do not absolve our
                    organi zation of its responsibili ty to comply with a ll grant guide lines; we acknowledge
                    defi ciencies in o ur compli ance with, and fin ancial management o f, the grants reviewed in
                    the audit period . We take full responsibili ty for those defic iencies and have made
                    substanti ve changes to o ur fi nanc ial systems and grants admini stration to address these
                    inadequac ies. It is our hope that those im provements are recognized by DO J and will be
                    re flected in your fi nal audi t re port .

                             The attached response to the Draft Audit Report detai ls the improvements already
                    in pl ace. BBBSA retain ed ex perienced complian ce counse l (Arno ld & Porter LLP) and
                    engaged the forensic accounting services ofNavigant Consulting. Together, we are in
                    the mid st o f a th orough rev ie w and analysis of all g rant com pli ance systems. We are also
                    hiring a Chi ef Financial Office r to work close ly w ith the organi zati on's new fin ancial
                    management team. Enhancing our compli ance systems is a top pri ority fo r the



Th i nk of the po ssi b ilitil:!s. What will you start?                                start something


                                                            - 39 ­
                     organization, and an ongoing dialogue with the OIG and the Office of Justice Programs
                     ("OSP") will be critical to the success of those efforts.

                               We trust the remedial steps that BBBSA has taken to address all the audit
                     findings, our commitment to our mission , our des ire to work closely with your staff
                     throughout the forensic accounting review, and our remediation efforts will demonstrate
                     that it is appropriate to:

                                    •     grant an extension of 60 days before finalizing your report so that our
                                          forensics team can (I) undertake further analysis of the questioned costs,
                                          and (2) implement the updated policies, procedures and processes; and

                                    •     affirm your commitment to work closely with us in providing the
                                          infonnation and support needed by OJP to free up and distribute the
                                          remaining $3,7 14,838 of grant Funds not yet di sbursed so they can be
                                          used for the purposes originally intended.

                            We hope that our forensic and finance learns can meet wi th the OIG and OJP to
                     provide details of our efforts in the days and weeks to come, and receive feedback and
                     suggestions from the government. We suggest a meeting the week of May 27, 2013 to
                     continue this dialogue.

                             On behalfofBBBSA and its national Board of Directors, we pledge to resolve
                     the issues identified in the Draft Audit Report and to ensure that BBBSA has the systems
                     and personnel needed to comply with all Federal grant requirements.

                                                                         Sincerely,




                                                                         T. Charles Pierson
                                                                         President and Chief Executive Officer




                                                                         Jam es F. Singleton
                                                                         Chairman, Board of Directors

                     cc:       Linda J. Taylor (Lead Auditor, Audit Coordination Branch)




Th ink or the po ssib ilit ies .   Wh~t   will you start?                                start something




                                                                - 40 ­
   Response to Draft Audit Report, Audit of the O{fice of Justice Programs Office o(Juvenile
 Justice ond Delinquency Prevention Grants Awarded to Big Brothers Big Sisters of America,
                                     Philadelphia, Pennsylvania


Executive Summary

       The draft au dit repo rt ("Draft Audi t Repor t") prepare d by t he Department of Justice
("001"), Offi ce of Inspec tor General (the "OIG N ) has been thor oughly analyzed by those at th e
highest levels of th e Big Brothers Big Sist ers of America r SB BSAN } organizatio n.

        We recognize th e seri ousness of the findin g, and un der stand tha t greater emphasis
should have been placed on com pli ance w ith, and f inancial management of, th e Federal gra nts
identified in the Draft Audit Report. Re ctify ing the audit fin dings is our top priority.

         That bein g sai d, SBBSA remains pro ud of t he programmatic successe s we have
accompli shed under th ese au dited grants. This Federal fu nding has helped our o rgani zatio n
rem ain stead fa st in its core mission of improving the lives o f at-risk you th thr ough one-to -one
mentoring . We wo rk diligently at every sta ge of the mento ring process to establi sh and
facilitate meanin gful relationships, from recruiti ng, vettin g an d training volunteers, es tablishing
a presence in, an d gaining t he tru st and confidence of, the populatio ns to be serve d, and
providing ongoing supp ort fo r es tablished mentoring programs.

        As part of the three grants at issue in the Draft Audit Repo rt, BBSSA has mat ched 16,78 7
chi ldren w ith mentors. We ha ve exceeded the co mbined 13,725 match goal re quire d by the
audited gran ts by 22.3 per cent, providing a positive return o n investment to not only the
Federal government, but al so to participating individuals, fa milies an d surrounding
communities.

        To ensure that BBB5A's awarded Federal grants we re in comp liance, the or gani za t ion's
senior management an d Board of Oirectors ("Bo ard") r elied on a fi nance depart ment th at th ey
believed were qualified an d w ell tra ined. Seni o r management also took com fo rt when retained
to p-ranke d external auditors did not ra ise any red fla gs and DOJ desk au dits found no issues.
We now recognize that th ese efforts were insuffiCient. Our f inancial and grant management
syste ms need more of our direct focus and attentio n.

        SBSSA is already w ell underway in implementing a more intricate system of checks and
balances. We have made considerable progress in a sho rt amount of ti me through a number of
corrective and rem edial measures, includi ng personnel changes, th e creation and
implementatio n of new policies and procedures, an d employee training.




                                                   1




                                                - 41 ­
         BBBSA is deepl y committed to continuing our work to improve the lives of at-ri sk you th
by providing th em wi t h fri endship, emotio nal sup port and guidance from posi tive role models.
Our partnership wi th the Office of Justice Programs (UOJP"l, and other Federal agencies, is
critical to our continued success and vitality.

          Thanks to the 2009 Nati ve American Mentoring Initiative grant, BBBSA successfully
expanded and deepened its programs focusing on Ameri ca n Indian an d Alaskan Native youth.
We act ual ly exceeded our target increases in the number of American Indian and Alaskan youth
served. Under the 2010 Juvenile Justi ce exceeded its target Initiative grant, BBBSA successfully
achieved its thirteen objectives and for increases in the number of you th served by almo st 60
per cent - a to l:<ll of 8,182 high-ri sk and at-ri sk youth. Under the 2011 Juvenile Justice Initiative
gra nt, BBBSA reduced the number of you th waiting for a mentor by implementin g a proactive
recru itment and marketing campai gn to target African -American an d Hispanic men to serve as
mentors. In short, the partnership between OJP an d BBSSA is effective and is producing
posi ti ve re sults in the lives of at-risk youth.

        We reco gnize that, in o r der to con tinu e such mutually beneficial partnerships, w e must
fully remediate our complia nce and financial management systems. As set fo rth below, BBBSA
is commi tted to making matters ri ght by continuing to wo rk diligently and transpar ently to
address all of the Dra ft Audi t Report' s findings. We are ready to pursue all reasonable
measures to restore DOJ's full confidence in this o rganization.

       With the assistance of outside experts, Arnol d & Porter LLP (UArnold & Porter~) and
Navigant Consulting, Inc. rNavigann, BBSSA hopes to engage in a co ntinuing dialogue wi t h the
DIG and OJP to review and, if necessary, refine the systemic changes that BBBSA has
implemented to r enew its partnership with the Federal governm ent to help at-ri sk yo uth.




                                                   2




                                                - 42 ­
      Response to Draft Audit Report, Audit of the O{fice of Justice Programs Office o(Juvenile
     Justice and Delinguencv Prevention Grants Awarded to Big Brothers Big Sisters of America,
                                   Philadelphia, Pennsylvania

I,         BBBSA Has a Strong History of Improving the Lives of Children

         BBBSA is one of the oldest and largest you th mentoring organizations in the United
States. The BBBSA movement began in 1904 when a court clerk recognized the need for adult
role models for the at-risk youth he saw appear and reappear in his courtroom. Others
recognized th e need as we ll, and Big Brother and Big Sister affiliates spread throughout th e
country, channeling the deep tradition of volunteerism in America with a focus on improving
the lives of chi ldren. Today, BBBSA and hundreds of its local affiliates work with thousands of
volunteers to improve the quality of life of at-risk youth in over 5,000 communities across the
country. Since its founding, Big Brother Big Sister volunteers have spent millions of hours
mentoring children. Today, BBSSA and its affiliates serve over 200,000 children annually, and
such opera ti ons continue to expand. BBBSA's mission is to provide children facing adversity
with strong and enduring, professionally supported one-to-one relationships that change their
lives for the better, forever. Focusing on at-risk youth with single parent/guardian households
and living in poverty, BBBSA carefu lly pairs children with screened volun teer mentors, and
monitors and supports them in one-to-one mentoring roles.

         Research shows that BBBSA mentoring helps chi ldren improve in key areas. They are
less likely to begin using drugs and alcohol, less likely to skip school and classes, and less like ly
to engage in violent behavior. They gain self·confidence and are better able to get along with
family members and friends. BBBSA mentoring helps children increase their sense o f social
acceptance, increase their educational expectations and competence, increase parental trust,
and improve their attitudes toward ri sky behaviors. Simply put, BBBSA's mentoring works.

         In 2004, BBBSA celebra ted its 100'year anniversary. Congress commemorated that
anniversary with an official resolution in 2005, which expresses support for, and ca lis on ali
Americans to join in supporting, th e BBBSA movement. The resolution states that «Congress
(1) rE!1:ognizes the second century of Big Brothers Big Sisters, supports the mission and goals of
the organization, and commends Big Brothers Big Sisters for its commitment to helping children
in need reach their potential thro ugh professionally supported one to one mentoring
relationships wi th measurable results; (2) asks all Americans to join in marking the beginning of
Big Brothers Big Sisters' second cen tury and support the organization's next 100 years o f service
on behalf of America's children; and (3) encourages Big Brothers Big Sisters to continue to strive
towards serving 1,000,000 child ren annualiy." H. Con. Res. 41 (Apr. 28, 2005). BBBSA cannot
and does not rest on its laurels. It is working diligently to build on this lOO-yea r history to
improve the lives of more and more children each year.




                                                   3




                                                - 43 ­
II.    SSSSA is Committed to Compliance

       A.      SSSSA Has Segun the Remediation Prm:ess

        SSSSA acknowledges that the findings in the Draft Aud it Rep ort are unacceptable. The
Draft Audit fin dings fall far short of the standard s under w hich SSSSA expec ts to conduct its
operations, and SSSSA recog nizes that a number of comprehensive changes are required to se t
th e organization back o n course and ensure regulatory com pliance going forward. SSSSA take s
very seriously its responsibility to be a good st eward of Federal grant funds. SSSSA has already
made significant improvements in its financial management practi ces an d is commi tte d to
implementing each and every change recommended by th e DIG.

        Although the Draft Audit Report ackn owledged that SSSSA met or was on tra ck to mee t
its performance goal s under the grants, it al so uncovered numerous ar eas in w hich SSSSA fell
short_ SSSSA is confi dent that these problems will not come to define SSSSA as an
organization. Thou gh not a defense or an excuse, SSSSA was very successful in implementing
the grants at issue, and SSSSA hopes to build and expand these programs, while becoming fully
compliant wi th all Federa l grant re quirements. SSSSA understands that making things right will
require a candi d ackn owledgement of the erro rs that occurred, and we must fo rm ulate and
implement an effective plan for responding to the audit findings.

         SSSSA Soard and senior management, together with our co unsel, Arnold & Porter, an d
forensic acco unting experts, Navigant, have ca refully studied the Draft Audi t Report and have
developed a compr ehensive seri es of rem edial measures, many of which SSSSA began
implementing even before receipt of the Draft Aud it Report. The re mediation project is subject
to the direct monitoring and oversight of the Legal an d Finance Committee of the SSSSA Soard,
including a subcommi ttee that includes the Chairman of the Board, and the Co-Chairmen of th e
legal and Finance Commi ttee. The SOard has made thi s remediation proj ec t its top pri ority and
has authorized the expenditure of appropri ate fundin g to support all aspects of thi s project .
Much o f thi s funding is available only through th e utililation of reserve funds. Further, Arnold
& Porter and Navigant have a direct communication channel to th e subcommi ttee, ensuring
that all issues are properl y addressed. These improvements and changes are already we ll
underway - Arnold & Porter and Navigant worked with us to finalize new policies and
procedures, SSSSA has adopted such policies and procedures, and Navigant is working to
refine, document and test the resulting processes. Moving forward, SS SSA will monitor
progress and devote all necessary attention and resources t o implement - full y and
success fully - the new po licies an d procedures described in more detail below.

       S.      The Draft Audit Findings Are Not Representative of SSSSA

        The w eakn esses identified by the DIG for Federal grants awarded to SSSSA fo r fun ds
received between 2009 and 2013 are not refl ec ti ve of th e SSSSA organization as a whol e or
over time. Rather, it appears that SSSSA's comp liance practices have historicall y been sound.
An audit by the DIG in 2004 indicates that the recent deficiencies were an anomaly; in 2004,




                                                 4




                                              - 44 ­
less than 1% of BBBSA's $12,393,400 in OJP funding from May 1998 to Sep tember 2002 was
deemed unsupported.

         Further indicative of i ts history of compliance, BBBSA has recei ved considerable
recognition within the nonprofit sector for maintaining superior standards of financ ial
accountability an d tran sparenc y. BBSSA is currently recognized by the Better Business
Bureau's Wise Giving Alli anc e as a top charity, meeting all Standards for Charitable
Acco untability based upon its comprehensive, in-depth evaluations of BBBSA's governance,
fund -raising practices, solicitations and informational materials, and how it spe nds its money.
Additionally, of the mor e than one million chari ties operating in th e United States today, BBBSA
is curre ntly one of under 2,000 charities to have r eceived the Independe nt Charities Seal of
Excellence for members of Independent Charities of America that have, upon rigorous
independent review, been able to certify, document, and demonstrate on an annual ba sis tha t
th ey meet the highest standards of public accountability, program effectiveness, and cost
effectiveness. In fact, for seven consecutive years (FY 2001 through FY 2007), Charity
Navigator, an independent evalua tor of charitable organizatio ns, awarded SBBSA its top four­
star rating, placing BBBSA in the top l%of all cha riti es in America in terms of fiscal
responsibility and effec tive use of donati ons. On Augus t 1, 2012, Charity Navigator once again
awarded BBBSA four stars for both its financial and overall rating. BBBSA is also curre ntly one
of only two youth -development organiza ti ons wi th a top A+ rating from th e American Institute
of Philanthropy. Further, in 2011, BBBSA was named th e #1 Nonprofit for At-Risk Youth and
commended for its effective mento ring model, organizational leadership an d comm unity
outreach by GuideStars Philanthropedia, based on a survey of foundation professi o nals,
rese archers, academics, nonprofit senior staffers and other experts on their views of charities'
impact and or gani za ti onal strengths. !

         Despite running very successful programs, we now know that the systems that were in
place duri ng the 2009-2011 OJP grants were inadequate. These probl ems were not caught
earlier for a number of reasons . In each of BBBSA's Single Aud it Reports, the independent
auditors - PricewaterhouseCoopers LLP for audit years 2010-2011, and Morison Cogen LLP for
audit years 2006-2009 - issued unqualified opini ons that BBSSA had no grant-related material
                                              1
internal control weaknesses or deficiencies. Even the management letters provided to
BBBSA's Boar d included very few suggeste d changes and the ones that were noted w ere not
desisnated as material (e.g., improve BBBSA's timekeepin s system). Moreover, the OJP desk
rev iews of BBBSA's grants in Sep tember 2010, September 2011, and June 2012 foun d that
BBBSA was not a high-risk gra ntee, was a low pri ori ty for monitoring, and had no financial o r
progress comp liance issues. We recognize that th e responsibility of es tablishing and
maintaining effec tive grant com plian ce and control systems rest s with BBBSA an d whil e not an

     88BSA's first place ranking for the outcomes they help achieve in youth development was the
result of recommendations from 88 national at-risk youth experts with an average of 19 years of
experience in the field.
      BBBSA is in the process of retaining a new certified public accounting fi rm, Shechtman Marks Devor
PC, to serve as its outside auditor.



                                                   5




                                                - 45 ­
excuse for the recent systems failures, BBBSA's Board and management placed a significant
degree of reliance on these audits and reviews in determining whether its systems and policies
were su fficient and opera ting as required_ Moreover, it is important to note that, to date,
neither the DIG nor BBBSA's forensic accounting team has found any evidence of inten tional
misuse or misdirection of Federal funds .

        Compounding the pr oblems set forth above, the individuals who provided information
to the auditors during DOJ field work in th e Fall o f 2012 w ere unable to deliver the information
requested by DOJ in its review. We recognize th at now. In the investi gation we have
commissioned through our outside counsel and our forensic accounting firm, we have already
gathered significant information, and we expect that we will be able to provide in the near
future more comprehensive data to th e DIG regarding grant expendi t ures than was available
during DOJ's field work. In the days and weeks to co me, we request tha t the DIG and DOJ allow
our forensic and finance teams to pr ovide the government additional details of their work and
receive feedback on those efforts. The passage of time and recordkeeping li mitations may
prevent us from producing a full audit trail, but we believe we will be able to provide evidence
that will persuade a fi nder of fact that DOJ fund s were all spe nt in furtherance of the grant
goals.

       C.      BBBSA Has Put in Place New leadership

        In or der to move forward and to install effective new internal controls, BBBSA has
replaced all of its senior management and financial leadership _ This turnover process began on
June 15, 2012, when the Board completed a thorough search process and hired T. Charles
Pierson as BBBSA's new Chief Executive Officer. (Mr. Pierson previously served as the Chief
Executive Officer of BBSSA's largest affiliate.) Mr. Pierson, in turn, installed a new management
team: a new Vice President of Human Resources in July 2012, a new Vice President o f External
Relations in September 2012, a new Chief Operating Officer in October 2012, a new General
Counsel in January 2013, and crea ted a new Director o f Federal Compliance and Project
Management position in February 2013, which wa s filled in May 2013 _ Similarly, an entirely
new Finance department was put into place in early 2013, with a new Senior Director of
Finance, a new Staff Accountant, and a new Accounts Receivables/Payables Clerk. Mr. Pierson
and the Board have also instituted a broad search for a new Chief Financial Officer; filling this
position is a top priority.

         In addition, the new leadership team has implemented variOUS organizational changes.
This has included clarifying the responsibilities of the Director of Grantee Support and
Performance to be almost exclusively focused on the monitoring of subrecipients of grant
fund s. 1 Thi s position w ill be responsible for the oversigh t of subrecipient agreements, training,
compliance with financial guidelines, and other grant requirements.




    All subrecipients of Federal grant funds are affiliates of BBBSA.



                                                    6




                                                 - 46 ­
        D.     SSSSA Has Enhance d Its Financial and Grants M anagement Systems

         This new leadership te<lm has worked with outside counse l <lnd fo r ensic accountants to
overhaul the grants management and internal control policies and procedures in or der to
effectivel y comply with applicable law, regu lations and award guidelines. SSSSA has approved,
and is currently working with Navigant to implement, enhancements to its over all system of
internal con trols which <Ire designed to ensure that (1) transactions are properly recorded and
accoun ted for in order to permit preparation of re liable financial statements and reports to
funders (including Federal agencies), accountability over asse ts is maintained, and compliance
w ith laws, regulations and other compliance requirements, including requirements imposed
pursuant to grant agreements, can be demonstr ated; (2) funds, property and other <lssets are
safeguarded agains t 1055 from unauthorized use or disposition, including use or disposit ion
contrary t o any grant agreements; and (3) the necessary policies and procedures are in place so
that SSSSA is able to demonstrate clea r compliance with requirements associated with its
status as a Federal grantee. To the e)(tent Federal funds are released, SSSSA will be able to
veri fy that these new policies are sufficient to correct the problems identified in the Draft Audi t
Report or, if necessary, to make additional adjustments.

       This com prehensive overh<lul includes, b ut is not limi ted to, the fo llowing policies <lnd
associated procedures, which have been approved by SSSSA's management and the
implementation of which are already underway:

•   Financial Management System and Internal Controls Policy (discussed in the response to
    Recommendation No.4), which provides the framework for the organization to generate
    accur ate, timely and complete reports of the financial activi ties for each program or project;
    fo r accounting entries to be en tered into the SSSSA financial system contemporaneously,
    adequately coded to identify the source and use of grant funds, and preserved to enable
    accurate production of any transaction history; and for grant funds to be segregated and
    only be disbursed for gr<lnt-related expendit ures, including trave l <lnd personnel and fringe
    benefi ts expenditures, for which appropriate supporting documentation and approvals have
    been obtained.

•   Subrecipient Monitoring Policy (discussed in the response to Recommendation No. S), which
    sets forth procedures to ensure potential subrecipients are thoroughly evaluated prior to
    the disbursement to them of any Federal funds, that subrecipients provide accurate, timely
    and comp lete programmatic <lnd financia l disclosur e to SBSSA of activities undertaken
    pursuant to subawards (including to enable SSSSA to reques t drawdowns from the
    awarding Federal agency on a reimbursement process), and to ensure that the
    programmatic and financial requirements of subawards are fulfilled.

•   Timekeeping Policy (discussed in the response to Recommendation Nos. 6-8), which sets
    forth procedur es to ensure that all time spent by employees, including time spent on grant­
    r ela ted acti vities, is t racked accurately to provide further assurance that employee time is
    charged to the appropriate grant or funding source, and in accor dance with the approved
    grant budge t.


                                                   7




                                               - 47 ­
•      Policy for Hiring and Oversight of Consultants and Other Controctors (discussed in the
       response to Recommendation No.9), which sets forth procedures to ensure that the hiring
       and monitoring of Federally funded contractors is conducted in a manner that is consistent
       with Federal requirements.

•      Indirect Cost Allocations Policy (discussed in the response to Recommendation No. 10),
       which sets forth procedures to ensure the proper allocation of indirect costs of Federal
       grants, in accordance with agency-approved methodology.

•      Federal Aword Drowdown Policy (discussed in the resporu;e to Recommendation No. 11),
       which sets forth procedures to accurately identify amounts for drawdown from BBBSA and
       its subrecipients on a reimbursement basis, and to minimi~e the time between drawdown
       and disbursement.

•      Grant Adjustment and Budget Modification Policy (discussed in the response to
       Recommendation No. 12), which sets forth procedures to ensure that the organi~ation
       monitors the operation of grants and tracks actual expenditures against the approved
       award budgets on a con tinuous basis such that, in the case of a Federal grant, SSSSA
       receives appropriate Federal agency approval for budget modificatioru; and other changes
       to its Federal grants.

•      Property Policy (discussed in the r esponse to Recommendation No. 13), which sets forth
       procedures to ensure that SSSSA appropriately accounts for and monitors the acquisition,
       maintenance and disposal of all equipment and related property, including additional
       requirements where such equipment or property is acquired with Federal funds.

•      Grant Reporting Policy (discussed in the response to Recommendation No. 14), which sets
       forth procedures to ensure the timely and accurate reporting of financial and programmatic
       information to funders in accordance with both Federal and non-Federal reporting
       requirements.

•      Program Income Policy (discussed in the response to Recommendation No. IS), which sets
       forth procedures to ensure that th e organization appropriately identifies, treats, records
       and reports program income associated with funds received from Federal agencies_

        SSSSA reiterates its previous communications to the OIG and OJ? th at it will work
cooperatively to ensure that these policies and their implementation fully address the concerns
raised in the Draft Audit Report.

III.      BBBSA and DOJ Have Had a long and Successful Partnership

        SBSSA and OOJ have worked closely over many years to address the challenges
confronting our nation's youth. A description of our work together as part of the three OJP
grants at issue is set forth below. As a direct result of OJP funding, BBSSA mentoring has
emerged as an evidence-based practice for posi tive youth development and as an effective tool



                                                   8




                                                - 48 ­
to help young people build resilience and succeed in life. BBSSA is uniquely po sitioned to
leverage lessons learned from our prior OJP national mentoring experience (including the
audited grants) t o expand mentoring activi t ies and create new opportunities for mentee
achievement, increase access to and the quality of mentoring services, and improve outcomes
for at-risk, high-risk, and underserved youth. Fu ture OJP funding could further demonstrate the
efficacy of the BBSSA mentoring model and highlight the extent to which individual,
environmental, and/or program characteristics build resilience and contribute to observed
differences among vulnerable young people including tribal, military, and juvenile justice
system invo lved youth.

        BBBSA has utili~ed the grant funds made available by the OJP to provide much-needed
services to at-risk and high-risk young people. As acknowledged by the OIG in the Draft Audit
Report, "BBBSA achieved or was on track to achieve the goals and objectives of the grants .~
Draft Audit Report at 29. In fact, BBBSA exceeded the objectives of the grants by 22.3%. BBBSA
is steadfast in its commitment to the grant objectives, and the organi~ation has worked
diligently to achieve its programmatic goals, as detailed in the grant progress reports.

                                  Grant No. 2009-TY-FX-0 041

        On September 18, 2009, OJP approved BBSSA's application for fun ding under th e FY 09
Tribal Youth National Mentoring Program . BBBSA's stated goal was to maintain and expand its
Native Ame rican Mentoring Initia tive, which seeks to increase the number of mentoring
matches involving American Indian or Alaskan Native youths, a population with an elevated
incidence of exposure to violence and gangs, and at increased ris k for dru g abuse, school
dropout, depression and suicide.

       BBBSA's successes under this grant include:

   •   Increasing the number of American Indian and Alaskan Native youth in SBBSA
       mentoring r ela tionships by 3,644 childr en.

   •   Enhancing organi~ational capaci ty through expanded recrui tment, training, and the
       retention of qualified mentors. These efforts included such things as implementing a
       marketing cam paign to recruit new Native American volunteers to serve as mentors,
       and developing partnerships with local businesses and tribal communities to encourage
       adults to volun teer as mentors. For example, the BBSS of Siouxland developed a
       partnership with Ho Chunk, Inc., an economic development corporation owned by the
       Winnebago Tribe of Nebraska, whereby Ho Chunk, Inc. provided an on-site workplace
       for mentor recru itm ent and enrollment. As another example, the BBBS of Mississippi
       partnered with government departments of local tribal nations so that department
       employees we re provided with paid time off to mentor BeBSA youth, thus allowing the
       agency to provide 100% Native American volunteers.

   •   Obtaining authorization to work in additional tribal nations, whi ch enables BBBSA to
       further expand its capability to serve Native American and Alaskan Native youth.


                                               9




                                            - 49 ­
                                    Grant No.   Z010-JU~FX-0005


         On Sep tember 15, 2010, OJP approved BBBSA's application for funding to support
BBBSA's Juvenile Justice Initiative, which seeks to re duce the incidence of juvenile crime in SO
underserved local communities acros s the country thro ugh research-based local mentorin g
services for high-risk and at-risk youth_ Rigorous external evaluations of SBSSA programs have
found that youth mentored by seBSA volunteers are 70% less likely to initiate drug use, one­
third less likely to exhibit violent behavior, and hal f as likely to skip school days as their peers.

        BBSSA achieved many successes under the grant, including:

   •    Exceeding the goal for number of youth served by almost 60%, to serve a total of 8,182-
        new ly identified high-risk and at-risk you th in more than SO underserved communities.

   •   Providing essential screening, skilled matching, case management. in-service tr aining,
       and stru ctured oversight for all mentoring re lationships to ensure long-term and
       successful matches.

   •   Achieving the goal of having less than 15% of program partkipants arrested for a (rime,
       offense and /or vio lation. In addition, a majority of the youth served experienced
       improved social compe ten cies.

   •   Entering into 157 Memoranda of Agreement (NMOAsH) to develop partnerships with
       organizations that wo rk with high·risk youth such as schools, law enforcement agencies,
       juveni le justice agencies and re· entry programs. These partnerships help BSBSA to
       establi sh a collaborative community to identify high-risk you th, connect them with
       mentors and increase appropriate wrap-around services to reduce delinquency,
       substance abuse, t ruancy and other problem or high-risk behaviors.

   •   Exceeding BBSSA's goal t o establish at least three new partnerships with national youth­
       serving organi za tions to improve the quality of mentoring services and improve
       recruitment of high-risk and at-risk youth by adding four new partners _

   •   Developing Juvenile Justice and Mentoring flow charts to facilitate the delivery of BeBSA
       mentoring services to high-ri sk youth at the appropriate and allowable referral stage of
       their speci fic juvenile justi ce involvement.

                                   Grant No. 2011-MU-MU-0017

        On September 30, 2011, OJP approved BBBSA's application for funding under th e FY 11
National Mentoring Program to expand BBSSA's Juvenile Justice Initiative. Under this grant,
BBSSA provides comprehensive mentorin g services for at-risk and high-risk youth in 40 new
underserved communities a(rOSS th e country, and collec ts and disseminates evidence -ba sed
referral and service delivery practices, while working at ten sites already showing promise as
models of prevention and intervention.



                                                  10




                                                - 50 ­
        The expansion that SSBSA has accomplished under this grant has enabled SSSSA to
serve 4,961 newly identified at-risk and high-risk youth in an effort to reduce drug abuse,
truancy, and other probl em behaviors _ As of Oecember 31,2012 4 , BBBSA had met, or was
confident that it would meet, all grant deliverables and youth goals by the end of the grant
period:

   •     SBBSA exceeded its goal of providing skilled matchin&. case management, in-service
         training, and structured mentoring for 4,8S0 new one-to-one matches in 70
         underserved communi ti es. As of December 31, 2012, BSSSA had made significan t
         progress toward the o ther objectives _ BBBSA expan ded its reach by (a) serving 4,961
         youth (111 matches greater than the goal), including 671 children of military parents,
         and (b) successfully recruiting, screening and training 4,961 new volunteer mentors.

   •     SBBSA's goal was to ensure that fewer than 1S% of program participants were arrested,
         and was on tra ck to exceed that goal as of the end of 2012. In addition, an
         overwhelming majority had shown an increase in social competenc ies.

   •     BBBSA's goal was to have 50 BBBS programs in local underserved communities sign
         three new MOAs (a project total of 150 MOAs), and to have 20 BBBS Military Mentoring
         programs sign three new MOAs (a project to tal of 60 MOAs) with military bases, military
         service organizations, schools, juvenile justice organizations, and other "wrap around
         services _ ~ As of December 31, 2012, BBBSA was on track to obtain all of the required
         MOAs by the end o f the grant period_

   •     SBBSA's goal was that 100% of the 70 participating programs would be in both program
         and budgetary compliance with BBBSA contractual agreements. As of December 31,
         2012, BSSSA had conducted 29 site visits, had completed other steps toward its
         objective, and did not foresee barriers to success ful com pletion of th e objective.

   •     SBSSA has collaborated w ith other national organizations that support high-quality
         mentoring services to learn from each other and to reinforce effective practices in the
         juvenile justice and mentoring fields. SSSSA created a National Mentoring and Juvenile
         Justice Advisory Council, and has disseminated the meeting minutes and publicized the
         Council's fin dings. BSBSA has also coordinated efforts w ith the Office of Juvenile Justice
         and Delinquency Prevention ("OJJDP") and participated in OJJDP meetings to discuss a
         national strategy for mentoring _

   •      SBSSA has decreased the size o f the waiting list of high-risk and at-risk youth th rough a
          recruitment and marketing campaign targeting African-American and Hispanic men _




       Data lor our next Progress Report will be gathered in July 2013.



                                                     11




                                                   - 51 ­
      •   s eSSA has incre ase d awareness and understandin g of key issu es in mentonng by
          hosting fi ve Juvenile Justice and M entonng w ebinars (open t o the publ ic) with the
          assistance of j uvenile j usti ce consultants.

IV.       Response to Audit Issues

        s eSSA's responses to the recommendations in th e Draft Aud it Report contain a detailed
descri ptio n of the remed ial measures th at seSSA has taken, or is in the process of taki ng, to
enhance i ts financial system and grants management A crit ical part of th is enhancement is th e
adopti on and continued implementation of th e po licies described in detail below.

         While many of the procedu ral improvements associated with th e above policies we re
alrea dy impl emente d or in the process of being implemented lat e last year or early thi s year
(even prior to issu ance of t he Draft Audit Report), the polici es approved by management w ere
finalized in cl ose coo rdinatio n w ith, and w ith input from, SeSSA's o utside counsel and forensiC
accountants, to en sure that the se poliC are in co mpliance with Federal re quirements,
                                            ies
includi ng the DJP Fina ncial Guide_ As part of an ongoing dialogue, SBBSA welcomes feedback
on these policies from the DIG and DJP, to confirm that the Federal req uirements, an d the
concerns rai sed in t he Draft Audit Report, have been fully addressed

         In addition, in th e co ming peri od, Navigant will be workin g close ly with BBBSA to
document th e processes through which t hese policies (an d the procedures contained th erein)
have been implemented, an d then Navigant will be performi ng testing on an independent ba sis,
to verify that these process es ar e o perat ing as set forth in the poliCies or suggesting
im provements to such policies. BBBSA, in co njunctio n with Navigant. will be provid ing the DIG
and OJP w it h r egular upd ates regard ing thi s process testi ng, to demonstr ate that these
com pli ant policies have been impl emented an d th e concerns rai sed in the Draft Audit Report
have been rectifi ed.

          A.     Recommendations Identified in Draft Audit Report

                 1.      Recommendation No.1: Remedy the $19,462,448 in unsupported
                         expenditures resulting from:

                         (a)     grant drawdowns that were unsupported dueto commingling
                                 (drawdown of $19,462,448),
                         (b)     payments made to subrecipients, from the initiation of the
                                 grants to June 27, 2012, due to lack of monitoring how the
                                 subrecipients spent the funds (expenditures of $12,624,008),
                         (c)     cosh associated with personnel and fringe benefih due to lack
                                 of time and effort reports (expenditures of $2,008,405),
                         (d)     travel expenditures that were not suffi<:ientiy documented
                                 (expenditures of $196,059),




                                                   12




                                                 - 52 ­
                      Ie)     costs of a Native American Mentoring con sultant without the
                              required time and effort reports lexpenditures of $19,375),
                      (f)     cosb associated with a Native American Mentoring consultant
                              with no documentation of grant related activity (expenditures of
                              $11,625), and
                      (8)     indirect costs not verifiable due to a lack of direct cost data
                              resulting from commingling expenditures (expenditures of
                              $434,157).
               2.     Recommendation No.2: Remedy the $1,019,818 in unallowable
                      expe nditures resulting from:

                      (a)     costs associated with the Associate Director of Native American
                              Mentoring position not on the 2009-TY·FX·0047 approved
                              budget (expenditures of $37,017),
                      (b)     travel expenditures that were not allowable (expenditures of
                              $196,059),
                      Ic)     consultant costs due to a failure to ensure that reasonable
                              consultant rates were established on a case-by-case basis
                              (expenditures of $221,182),
                      Id)     cosb due to an unapproved, non-competitively negotiated rate
                              without justification for the AIM consultant (expenditures of
                              $79,000), and
                      Ie)     indirect costs that were improperly calculated (expenditures of
                              $434,157).
         BBBSA has not yet completed a forensic examination and thus cannot ascertain whether
it ( an agree to any o f the alleged ly unsuppo rte d an d unallowable expenditures_ Sho rtly after
receipt of the Draft Audit Report, BBBSA engaged Navigant to review and ana ly~e, among other
things, the alleged unsupported and unallowable expenditures. Navigant, with BBBSA's
support, has been working diligently but requires additional tim e to complete its inves tigati on.
BBBSA respectfully requests that the DIG withhold any final determination on the unsupported
or unallowable expenditures until that forensic investigation is complete. BBBSA commits to
working wi th the OIG to provide routine updates on the forensic investigation to facilitate the
DIG's comfort on the progress, reliability and diligence of the ongoing forensic investigation.
Moreover, as set forth below in response to Recommendation Nos. 4 through IS, BBBSA has
adopted several new and enhanced policies and procedures to its financial system s, grant
management and other procedu res and processes to ensure BBBSA's comp liance with all
Federal and non-Federal grant requirements, enhance BBBSA's pra ctices for r ecor ding and
supporting gra nt-related expenditures, safeguard grant fund s, ensure compliance with the
term s and condition of the grants, and improve performance and financial moni toring of
subrecipients of grant funds.




                                                13




                                              - 53 ­
        Set forth below is a summary of the current ongoing forensic investigation and proposal
for the forensic investigation of SSSSA's subrecipients. As SSSSA has previously advised, it
would like to work collaboratively with the OIG to ensure the investigation meets wi th the
OIG's approval.

         BeSSA is in the process of using forensic accounting review and analysis techniques,
through Navigant, to determine that the questioned grant funds were used for the intended
purposes and to address the other audit findings inclu ded in the Draft Audit Repor t. Navigant
has begun tracking the flow of the $19.462,488 questi oned grant funds from receipt through
disbursemen t and ultimate expenditure. This exercise will include assessment of the use of
such funds that were transferred to subrecip ients. At BBSSA, we understand that the
questioned grant fund s were commingled with oth er fun ds, although BBBSA has since put in
place con trols to ensure that such commingling no longer occurs. Accordingly, Navigant is
utilizing commonly accepted forensic accounting techniques to track the flow of these
commingled funds. The primary objective of this e)(ercise is to determine where the
questi onable grant funds were depOsited and to determine whether disbursemen ts in an
amount equivalent to what BSSSA claimed were subsequen tly disbursed from these accounts
for allowable grant activities.

        While Navigant's work to date has been at the national level, Navigant also plans to
track the flow of questioned grant funds transferred to SBSSA subrecipients, totaling
$12,624,008. Concurrently, Navigant is al so performing the forensic accounting steps necessary
to address th e other draft audit findings relating to the alleged unsupported or unallowable
expenditures. Navigant wi ll also assess the audit finding that certain fees charged to
subrecipients should be conSidered program income and, as such, restricted as to their use.

        Navigant is still finalizing its workplan; its current plan includes, but is not limited to,
interviewing SSSSA employees; performing walk-throughs of the curren t processes and
subsequently providing improvements to enhance approach and strengthen BSSSA's internal
controls; collecting and analyzing bank statements, deposit slips, cancelled checks and wire
advances for all BBBSA bank accounts from 2009 to the present to track the flow of funds;
imaging hard-drives of select ed current and former employees; performing keyword
searches of compu ter files and emails of key personnel; and reviewing invoices, consu lting and
other contracts , competitive bids, purchase orders and disbursement records to assess the
adequacy of competent evidential support of corporate expenditures. Navigant is also
reviewing employee ti mesheets and other records that may exist to evaluate th e
appropriateness of how costs were charged to grants and other activities.

        Navigant believes it is both appropriate and cost effec ti ve to utilize statistical sampling
techniques to track the use o f Federal funds transferred to subrecipients. The cost to review
100% of the subrecipients' use of these funds would far outweigh the benefits derived from
applying the results of a sample to the population of subrecipients and the time required would
also be prohibitive. Accordingly, for testing purposes, we propose selecting a sample of




                                                 14




                                               - 54 ­
subrecipients that would provide us with confidence that the outcomes would be
representa tive of the entire population of subrecipients.

         In conformi ty wi th AU Section 350, HAudit Sampling. n issued by the American Institute
of Certified Public Accountants, Navigant plans to make a random selection of subrecipients for
attri bute and cost accountability testing from the population of subrecipients that received
questioned grant funds. For those subrecipients selected, Navigant will conduct site visits
and/or desk audits and will review and analyze their books and records to assess whether t he
funds were used for the purposes intended and the subrecipients were in compliance with
applicable grant and o ther OJP Financial Guide requirements.

         Navigant will track the use of the funds transferred to the selected subrecipients. These
procedures could include interviewing subrecipient employees; performing walk-throughs of
the curren t processes and subsequently providing improvements to enhance approach and
stre ngt hen the subrecipients' internal controls; and collecting and analyzing bank statements,
cancelled checks and othe r related support from 2009 to the present to determine how t hese
funds were used. This process would also encompass inspection of the underlying support
of grant fund disbursements such as vendor invoices, consulting contracts, purchase orders,
payroll records and other supporting documen tation to ultimately assess whether the
questioned funds were used for the purposes intended under the grant. 888SA intends to
discuss this approach in more detail with the DIG prior to commencement of this work.

               3.     Recomme ndation No. 3: De obligate and put to better use the
                      re maining $3,714,838.

        BBBSA respectfully disagrees with t his recommenda tion. The Draft Audit Report
recognizes tha t BBBSA had me t or was on t rack to meet its performance goals under t he
grants - and BBBSA has upda ted da ta to demonstrate that it exceeded its goals for children
served under these grants by 22.3%. Moreover, as described below in response to
Recommendation Nos. 4 through 15, BBBSA has made signi ficant progress towards systemic,
policy and procedural improvements, including but not limited to, implementation of
enhancements to the overa ll system of internal controls over its financial management system,
which are designed to ensure that (1) transactions are properly recorded and accounted for in
orde r to permit preparation of re lia ble financial statements and reports to funders (including
Federal agencies), accountability over assets is main tained, and compliance wi t h laws,
regulations and o ther compliance requirements, including requ irements imposed pursuant to
grant agreements, can be demonstrated; (2) funds, property and other assets are safeguarded
against loss from unauthorized use or disposition, including use or dispos ition contrary to any
grant agreements; and (3) all BBSSA staff receive the financial training and supervision
appropriate to their role within the organiza tion, so that BBBSA can ensure compliance with
these financial controls. BBBSA has also implemented enhanced policies, systems and
procedures re lating to the financial and performance management of its subrecipients.

        Through these enhanced policies, systems and procedures, BBBSA will ensure that use
of Federal funds will be in compliance with Federal law, regulations and agency requ irements.


                                                15




                                             - 55 ­
Further, Navigant will remain in-house and will continue to assist with and monitor the
implementation of BBBSA's policies and practices, as well as make recommendations regarding
additiona l measures for further improvements t o BBBSA's financial and performance systems_

        Deobligation of the r emaining $3,714,838 in OJP funds is unwarranted, given BBSSA's
newly overh auled systems, and wou ld create unnecessary and unreasonable consequent ial
injury to the youth we all serve. With the remaining $3,714,838, BBBSA and its subrecipients
can preserve acti ve mentoring relationships. As described below, the premature and abrupt
termination of mentoring re lationships is especially harmful to the population of at-risk youth
in underserved communities targeted by BBBSA.

        BBSSA has undertaken a complete turnaround in its internal policies, systems and
procedures to ensure the safeguarding of Federal grant funds. OJP should provide the
rema ining funds to BSBSA, so tha t BBSSA can maintain the mentoring relationsh ips that are
having a measurable, positive impact on children's lives.

               4.      Recommendation No.4: Ensure that seeSA establishes appropriate
                       intermd controls that include the design and implementation of policies
                       and procedures to assure that its financial management system
                       provides for adequate reco rding and sa feguardin g of g rant-related
                       activities and ensure that staff are adequately trained and supervised in
                       th e use of th e system.

      SBSSA concurs with this recommendation and has already made significant progress
towards systemic, policy and pr ocedural improvements, as described below.

         BBSSA has approved, an d is currently implementing, new internal con trols over its
financial management system, wh ich are designed to ensure tha t (1) transact ions are properly
recorded and accou nted fo r in order to permit pr eparation of reliable financial statements and
repo rts to funders (including Feder al agencies), accountability over assets is maintained; (2)
comp liance wi t h laws, regu lations and other com pliance requiremen ts, including requi r emen ts
imposed pursuant to grant agreements, can be demonstra ted; (3) funds, property and other
assets are safeguarded against loss from unauthorized use or disposition, including use or
disposi t ion contrary to any grant agreemen ts; and (4) all SBBSA staff receive the financial
tr aining and supervision appropria te to t heir role wi thin t he organization, so that SSSSA can
effectivel y implement these financial controls.

       The new intern al contro ls are set forth in the Finoncial Management System and
Internal Controls Policy, which includes comprehensive policies and procedures governing the
following subject areas:

       Financia l system: The enhanced procedures associated with SSBSA's overall fina ncia l
system will ensure that the organization has the ability to generate accura te, timely and
complete reports of the financial activities for each program or project; that accounting entries
are entered into the SSSSA financial system con temporaneously, and such entries ar e



                                                 16




                                              - 56 ­
adequately coded to identify the source and use of grant fun ds; and that grant funds are
safeguarded and may only be disbursed for grant-related expenditures fo r which appropriate
supporting documentation and approval s have been obtained _ BBSS A will monitor the
effectiveness of its financial system an d implement updates if needed.

         Grants management: SSSSA's enhanced grants management policies an d procedures
ensure that the o rg ani~ati on supervises an d monitors the rece ipt and use of grant awards, so
that all expend itures and activities are in accor dance with applicable grants, including through
th e following:

   •   Drawdowns and cash management: Pursuant to its Federal Award Drowdown Policy,
       discuss ed in more detail in response to Recomm en dati on No. 11, 66SSA has
       implemented procedures pro vi ding that drawdowns from future Federal agency grants
       will be requested on a rei mbursement basis, and will be managed to minimize the time
       between drawdown an d disbursement. On a monthly basis, 6S6SA will identify
       drawdown requests based on monthly reports of actual expendi tures at the 66SSA and
       subrecipient levels, with such reimbursements to be made immediately o r return ed to
       the awarding Federal agency_

   •   Disbursement procedures: S66SA req uires all expendi tures to be suppor ted by
       contemporaneous source documentation, and, if grant-related, certification that any
       grant-related expenditure is in accord ance with the approved grant budget.

       Implementatio n of these improved procedures to date includes the following:

           o   Disbur sement forms and approval: Effective January 1, 2013, (1) every request
               for disbursement by a SSSSA employee or consultant must indicate th e grant or
               grants t o whi ch the request applies, and (2) the Finance sta ff review all
               disbursement requests to verify that proper supporting documentation has been
               included, and that the expendi tures are in accordance with approved grant
               budgets. Add itional new compliance measures incl ud e: (1) effective M ay 1,
               2013, both the employee and his or her supervisor must approve the request,
               thus subjec ting the expense to an additional level of review, and (2) under a
               recently approved req uirement, both the requesting employee and supervisor
               must certify, at the tim e o f submi ssion, that th e exp endit ure is in acco rdance
               with th e approved grant budget. To assis t employees and their supervisors with
               this certi fkati on, th e Finance department will provide all employees and th ei r
               supervisor s approved t o work o n a particular grant with a monthly compa ri son
               of actual expenditures to date to the approve d grant budget.

           o   Trave l expenditures: BSBSA will communicate to its staff which travel costs are
               allowable or unallowable under Federal grant requirements. SSSSA will also
               require staff to com plete a travel expense report in order to obtain
               reimbursement, and such form will require receip ts o r other supporting
               documentation to subs tantiate the reimbursement amount. The fo rm will


                                                17




                                              - 57 ­
           require supervisor review and approval, as well as th e employee's certification,
           to ensure travel expenses are contemporaneously linked to a gra nt, if applicable,
           and are all owable expenses in ac cordance wi th the grant budget and under
           Federal rules. BBBSA's corporate credit card reconciliation form similarly
           requires supervisory approval, supporting documentation, grant.related
           information and, if grant. related, certification that grant. related expenses are in
           accordance with the grant budget.

       o   Personnel and fringe benefit expenditures: As described in more detail in its
           Timekeeping Policy and in response to Recommendation No.6, effective
           January 1, 2013, all empl oyees must en ter all tim e worked, including on activities
           related to grants, into its ADP time entry sys tem. Other t ypes of employee
           benefits and requests for any personal reimbursements claimed by employees
           must be supported with source documentati on and wi ll require supervisory
           review and approval to ensure the expenses are allowable in accordance with
           the grant budget.

       o   Financial systems entry: As of January 1, 2013, at the time of processing for
           deposit o r r eimbursement, Finance staff enter all grant -related expenses into
           BBBSA's accounting system tagged to the designated grant to ensure th at the
           accounting system accurately and complete ly tracks grant-related expenses.
           This ensures the segrega ti o n of grant-rela ted funds from other sour ces, as well
           as crea tes and preserves a history of transactions relating to each grant.

•   Budget controls: Through its Grant Adjustment and Budget Modification Policy and as
    described in r esponse to Recommendation No. 12, BBBSA will regularly monitor th e
    administration and disbu rsemen t of grant funds, inclu ding a monthly reconciliation of
    ac t ual costs against budgeted costs and, in the case of Federal awards, will obtain
    advanced agency approval in th e event of certain budget or programmati c deviations.

•   Reporting: Under the Grant Reporting Policy an d as described in more deta il in
    response to Recommendation No. 14, BBBSA wi ll ensure the accurate and timely
    submi ssion of financial and programmatic reports required by the funder, including as
    required by applicable law, r egulations and awarding agency requirements in the case of
    Federal grants.

•   Subrecipient monitoring: Pursu ant to the Subrecipient Monitoring Policy and as
    describe d in more detail in response to Recommendation No. S, BBBSA re quires
    subrecipients to have sys tems in place to accurately account for and monitor the use of
    award funds, and to comp ly with applicable grant requirements, including requirements
    associated with Federal grants. BBBSA r equires th at subrecipients submit det ailed
    budgets, report actual expenditures in accordance with grant budgets to receive
    drawdo wn s of Federal funds, submit documentati o n regarding internal finan cia l
    controls for BBBSA review and approval, provide ongoing reports regarding grant



                                             18




                                          - 58 ­
       activities, participate in trainings o n programmatic and fi nancial issues, allow site visits,
       and respond to information requests to enable BBBSA to monitor their acti vities.

       As described in more detail in response to Recommendation No.5, BBBSA is requiring all
       subrecipients, pri or to receiving any Fe deral funds through BBBSA, to, among other
       things, (1) provide BBBSA with information regarding their systems of internal controls
       for review and approval by BBBSA, (2) submit detailed budgets in accordance with
       Federal law, regulations and agency requirements, (3) attend training prOvided by
       BBBSA on finan cial management of Federal grants, (4) obtain certification that the
       subrecipient's CEO or CFO (or o th er most senior member of the Finance department)
       has attended DOJ Grants Financial Management Training, and (5) submit to enhanced
       monitoring processes and procedures.

   •   Asse t and pr operty management; The BBBSA Property Po/icy, described in more detail
       in response to Recommendation No. 13, governs the purchase and use of property,
       requi res the purchase of property using Federal grant fund s to be pre-approved by th e
       awarding agency and requires that, upon purchas e, BBBSA will only use such property
       for grant purposes or other purposes pr e-approved by the awarding agency_ Further,
       the policy requ ires that adequate documentation regarding th e property be maintained
       throughou t its lifecycle.

         Finance staff train ing. access to financial system and supervision: BBBSA Finance staff
and appropriate members of the management team are required to participate in all financia l
trainings, and obtain all financial certifications, offered by an awarding Federal agency. BBBSA
also ensures the security o f its financial system and protects access to grant funds by limiting
access to the financial management system to only those Finance staff who have undergone
trainin g regarding the use o f the financial system, grant management and releva nt grant award
requirements. BBBSA procedures require th at finan cial duties be distributed among multiple
people to ensure protection from fraud and error, and that appr opriat e documentation of all
expense approvals be maintained _

   •   Staffing ch anges: BBBSA has implemented a complete overhaul of its Finance
       department with the hiring in early 2013 of a new Senior Director of Fina nce, staff
       accountant an d AlP clerk, as well as the recent hiring of an Associate Director of Grants
       Administration (responsible for various financial matters associated with grant
       operations) _ In addition, BBBSA is in the process of hiring a new CFO (who will be
       required to ensure that BBBSA's financial reporting and acco unting satisfy grant
       re quirements and government contracts) and has terminated the two most senior
       members of the Finance department from the Fall of 2012.

   •   Agency-specific financial training: As described above, BBBSA policy now requires that
       Finance staff and appropriate members of the management team r eceive agency·
       specific financial training. As of May 2013, all members of the Finance staff and senior
       BBBSA management have comp leted DOJ Grants Financial Management Trainin g, which
       will further assis t BBBSA in complying with OJP grant re quirements. In additio n, as part


                                                  19




                                               - 59 ­
       of the subrecipient trainin g described in more detail in response to Recommendati on
       No.5, SSSSA now requires that the CEO or CFO (or th e other most senior member of
       the Finance department) of each subrecipient entity also be ce rtifie d in DOJ Grants
       Financial M anagement Training in order to be eligible to recei ve OJP fund ing from
       BBSSA.

   •   Training on SSBSA finan ci al systems and policies provided in this response: Under
       supervision of the new Senior Director of Finance, all SSSSA Finance staff obtain training
       on the SSSSA financial system, inclu ding instruction and ongoing support directly from
       vendors, as needed . In addi tion, non-Finance employees obtain financial trainin g as
       appropriate pursuant to their positions including, (1) traini ng on the disbursement
       process (for example, trainings in December 2012 and January 2013 relate d to the new
       disbursement procedures, including for grant -related disbursements), and (2) trainin g
       on the new timekeeping system and approval processes. Further, to ensure that all
       SSSSA employees have a basic fa miliari ty with the financial responsibilities associated
       with SSSSA's sta tus as a Federal grant recipien t, SSSSA intends to provide orga niza ti on­
       wi de training o n these issues, including all the policies described in this respo nse, so
       that all empl oyees, regar dless of ro le, are able to actively participate in SSSSA's
       comp liance with Federal grant requiremen ts goi ng forward .

               5.     Recommendatio n No.5: Ensure th at SBBSA documents and
                      implements policies and proced ures for subreci pi ent m o nitoring.

       SSSSA concurs with this recommendation and has already made significant progress
towar ds systemic, policy and pr oced ural improvem ents, as describ ed below.

        SSSSA has approved a Subrecipient Monitoring Policy to ensure subr ecipients pr ovide
accurate, timely and compl ete programmatic and financial disclosure to SSSSA of activities
undertaken pursuant to subaward s, and to ensur e that the programmatic and financial
requirements of subaward s are fulfille d_ The policy also establishes a SSSSA-wide standardized
process for the pre-qualifica ti on o f subrecipients, as well as the oversight and obligations of
qualified subrecipients. In order to achieve these goal s, the Subrecipient Monitoring Policy sets
forth the policies and procedures for, among o ther th ings:

   •   Pre -award qualificatio n and sel ection procedures: BBBSA conduct s a thorough selection
       process for Federall y fund ed project s in acco rdance with applicable procure ment
       guidelines, including a compe titi ve selection process, where requ ire d. Prior t o receiving
       Federal funding through SSSSA, subrecipients must (1 ) provide SSSSA with detai led
       budgets to ensure that SSSSA funding awarded to subrecipients is based on specific
       projected costs; (2 ) submit detailed information regardin g its finances an d internal
       controls, so that SSSSA can assess a subrecipient's financial status an d financia l
       management systems to ensure that the subrecipient is able to provi de accurate, ti mely
       and com plete reportin g of financial and performance results of the subaward, including,
       in th e case of a su baward of Federal funds, segregation of Federal funding and related



                                                 20




                                              - 60 ­
    expenditures to e nsure no comm ingli ng of funds, and (3) demonstrate that personnel
    have received appropriate financial trai ning.

       o   Budget submissions: In accordance with new req uirements implemente d by
           BeBSA in January 2013, all subrecipients who r eceived a subaw ard of FY 2013
           OJP fundi ng from eSSSA have submitted detaile d budgets for SSSSA's review
           and approval.

       o   Review of internal control procedures: Effec tive January 2013, SSSSA requires
           each subrecipient to submi t documentatio n of internal control procedures to
           ensur e that the subrecipient is able to provide accura te, timely and complet e
           reporting of financial an d performance results o f the subaward, including, in the
           case of a subaward of Federal funds, segregation of Federal funding and related
           expe nditures to ensure no commingling o f funds. As of May 10, 201 3, over 70%
           of subrecipients that have recei ved OJP fun ding from SSSSA have submitted
           documentation of internal co ntrol procedures for SSSSA review. No futu r e
           Federal funds will be disbursed to any subrecipient that has not submitted
           documentation of internal contro l procedures for review and has had such
           documentation approved by SSBSA.

•   Subrecipient tra ining and support to e nsure com pliance w ith Federal funding
    requirements: SSSSA provides tra ining to its subrecipients to ensure full understanding
    and compliance with SSSSA and fun der requirements, including Federal requi rements
    as applicable. SSSSA al so provides regular support by telephone co nsul tation, blast
    emails on topics of interest, affinity group ca lls, webinars and site visits.

       o   Subrecipient training: In late 2012 and early 2013, SSSSA provided multi ple
           trainings regard ing agency-specific performance and financial requirements t o
           subrecipi ents o f OJP funding (to assist them in com pliance o nce OJP funds are
           released). and published a BSSSA Grant Guide which contains financial and
           programmatic compliance requirements, including OJP-speci fic requirements.
           SeSSA is currently updating this Grant Guide to refl ec t the com preh ensive
           poliCies and procedures now being put into place with regards to performance
           and financial management. In addition, all subrecipients are requ ired to have at
           least one member of senior management - the CEO or CFO (or other most senior
           member o f the Finance depa rtment) - certified in DOJ Grants Financial
           M anagement Trainin g prior to disbursement of OJP grants. (Over half of
           subrecipi ents have already been certified and all certificati ons are on track to be
           completed prior to future release of OJP funds.)

•   Financial reporting and monito ring proce dur es : Subreci pients must submit monthly
    fina ncial reports which will include informati on on actual cost s incurred com pared to
    each budget line item (with varian ces explained). and SSSSA w ill benchm ark the se
    reports against approved budge ts. As explained in more detail in response to
    Recommenda ti on No. 11, SBSSA w ill request drawdowns w ith respect to subrecipient


                                             21




                                          - 61 ­
    expenditures on a reimbursement ba sis ba sed on subrecipient financi al reports. In
    addition to the financial pre-qualification procedures described above (including bud get
    and internal con trols documentation submission), subrecipients must (in addition to
    monthly financial reporting) submit to ongoing financial desk audits and fiscal reviews,
    which will include, but not be limited to, the review of personnel management, payr oll,
    accounting,. bud get, and cash management. Subrecipients identified as high-risk will be
    subject to additional monitoring procedures_ All subrecipients must submit annual audit
    reports; i f such au dit reports contain adverse findings, such au di t reports will be tagged
    and tracked, and th en BBBSA's grantee management team will work with the
    subrecipient to ensure that the subrecipient takes appropriate correc tive action.
    Depending on compliance with the above requirem ents, 888SA will evaluate wh ether
    the subrecipient should be classified as high-risk, or whether an adj ustment to the
    subaward is required.

    As described above, BBBSA is already in the process of reviewing and approving
    subrecipient internal co ntrols and detail ed bu dgets for all planned subrecipients of FY
    2013 fun ding, in the event of future release of grant funds.

    In addition, all subrecipients have been provided with new monthly financial reporting
    forms and have been provid ed wi th detail ed instru ctions on which costs are eligible for
    rei mbursement, but have bee n instructed to not submit such forms while OJP fund s are
    fro~en.


•   Performance reporting and monitoring procedures: Subrecipients must submit periodic
    and year-end performance reports, which are tracked and reviewe d by the BBSSA
    grantee management team _ Subrecipients are al so required to provide immed iate
    written notification of material changes. The BBBSA grantee management team will
    monitor these reports t o determine if subrecipients are meeting, among other things,
    performance goals and deliverables, grant-specific expectations and r equirements,
    8BBSA standard s of practice, grant benchmarks and deadlines, and reporting
    requirements. In add itio n to written reports, monitoring acti viti es include site visits,
    desk reviews, telephone and email consultations, and requests for additional
    information, which are all are closely tracked and periodically audited.

    Subrecipients have already been provided with updated progra mmatic reporting form s
    for submi ssion in the even t of future release of OJP funds.

•   Enhanced momtorlng and succort for high-rISk recIpi ents Using ri sk indicators (for
    example, failure to submit ti mely financial reports in accordance with approved grant
    bud gets, or fai lure to meet programmatic milestones), BBBSA identifies subrecipients
    that may need additional programmatic/performance or financial management
    monitoring and support, and empl oys additional si te visits, trainin g, documentation
    re quirements, and progress reporting, as appropriate.




                                             "


                                           - 62 ­
           o   New BBBsA position - subreci pi ent mo nito ring: In April 2013, BBBsA hired a
               new Associate Direct or of Grants Administration, who is responsible for
               overseeing all subrecipient compliance wi th financial requirements_ Once BBBsA
               recei ves future Federal funding, this individual will be pro viding the financial
               monitoring, site visits an d support of all subrecipients, including, importantly, for
               high-risk subrecipients.

   •    Si te visi ts: BBBSA will conduct periodic site visits of its subrecipients for both
        performance review and financial review to, among oth er things, monitor and ensure
        com pliance wi th BBBsA requirements (includ ing those described above) and assess any
        challenges facin g the subrecipient. Prior to each site visit, the subrecipient is provided
        an agenda an d ch eckli st (except in the case of selected unannounced site visits), an d
        each site visit will be documented by written summary afterwards.

    •   Compliance sancti ons: BBBsA will sancti on subrecipients for failure to meet financial
        requirements or performance goals, as well as failure to comply with the BBBsA
        subredpient grant agreement or oth er requirements imposed on th e subrecipients
        through the affiliate structure. While BaBSA intends to work cooperatively with
        subrecipients to implement corrective action plans, BBBSA may al so take a variety of
        steps, including suspension or reduction of funding amounts, imposition of high-risk
        status and enhance d monitorin g procedures, or terminatio n of awar d, depen ding on
        the severity of the vio lation.

               6.      Re<:ommendation No.6: Ensure that BBSSA implements policies and
                       pnKedures that en5ure personnel expenditures paid with grant funding
                       are documented as required by the OJP Financial Guide.

       BBBSA concu r s with this recommendation and has already made significa nt progress
towar ds systemic, policy and procedural improvements, as described below.

        BSBSA has approved and put in place a Timekeeping Policy to ensure that all tim e spent
by employee s o n grant-related activities is tracked accurate ly, to provide further assurance that
employee tim e is cha rged to the appropriate grant or fun ding source and in accordance with
th e approved grant bu dget. Such policy became opera ti onal on January 1, 2013. In order to
achieve th ese goals, the Timekeeping Policy sets ou t procedures and processes for, among
other things:

   •    Timesheet submiSSion and approval SSSSA requi res each employee to submit
        timesheets at least biweekly (but no later than the Monday foll owing the en d of the pay
        period), which report all hours worked, including the number of hours worked on each
        grant. Such timesheets must be reviewed an d approved by the employee's direct
        supervisor within one week of the end of the biweekly pa y peri od. Bo th the employee
        and his or her direct supervisor must certify that gra nt tim e wa s spent in accor dance
        with approved grant bu dgets_




                                                 "


                                              - 63 ­
       o   Ro llout of ti me entry system: Since January 1, 2013, all employees have been
           required to record all hours, including grant-related hours, in the new time entry
           syst em. All time entries are reviewed by t he employee's supervisor to ensure
           that grant-relate d time is only bille d by those employees authorized to work on
           the relevant grant, and that grant-related tim e is in accordance with the
           approved grant budget.

•   Trammg on tIme entrv svst em All employees are tra ined o n the ADP timekeeping
    system as part o f their BBSSA orientation, and BBBSA provides N    refresher N trainin g at
    re gular inter vals, or when determin ed t o be necessary due t o employee noncompliance_

       o   Training rollout: Prio r to launching the time en try system, BBBSA trained all staff
           on the system to ensure compliance wi th grant-related ti mekeeping policies.

•   Certification for certain employees working on a single Federal grant: BBBSA now
    requires that any employee exp ec ted to work solely o n a single Federal grant complete
    periodic ce rtificati ons at least every six months.

    BBSSA is currently not receivi ng Federal funds; SSSSA has id entified the employees that
    would be re quired to submit such certifi cations, in the eve nt of future release of OJP
    funds.

•   Grant all ocations commu nication s: BBBSA will require th e Finance department to
    provide employees and t heir direct supelVisor s with monthly commu nica tio ns regard ing
    (1) the percentage time/average number of hour s that the employee is expec ted to
    devote to the grant during the month, and (2) a co mparison of actual expen ditures to
    date against the approved grant budget. Thi s information allows each
    employee/supervisor to (1) provide approval of timesheets, and (2) approve
    reimbursement requests (as describe d above, employees and t heir supelVisors are
    re quired to certify that all expendi tu res have been made in accordance with the
    approved grant budget).

    SBSSA bega n sendi ng commun ications to employees containing time allocation
    between gra nts in Januar y 2013; future monthly communications will also incl ude a
    compa ri son of actual expenditures to the approved grant budget

•   Approved grant personnel: Employees are only permitted to enter, an d supelVisors are
    only permitted to approve, grant time on an employee' s timesheet where such
    empl oyee is identified on th e respective approved grant budgets (as liste d in the
    monthly commun ica tion from th e Finance department). The Finance department th en
    verifies that no unauthorized empl oyee time is charged to a grant, as part of i ts
    reconciliation process. Any changes in the staffing on Federal grants is accomplished as
    specified under the Grant Adjustment and Budget Modification Policy, described in
    more det ail in response to Recommendation Nos. Sand 12.




                                             24




                                          - 64 ­
   •   Employees authorized to conduct lobbying activities: BBBSA restricts lobbying activities
       to members of the External Relations department. In addition to the enhanced
       employee/supervisor time entry approval requirements, the Finance department also
       reviews time entered to ensure that members of the External Relations department do
       not charge time for any lobbying activities against a Federal grant or other restricte d
       funding source.

   •   Grant allocations reconciliation: Before charging employee time against an approved
       grant, the Finance department reconciles employee time against approved grant
       budgets, and against the monthly communication provided to employees regarding
       approved allocation of time pursuant to the respective budget.

       The grants allocation reconciliation process was implemented concurrently with the
       launch of the new time entry system in January 2013.

       In addition, as described in the Financial Management and Internal Controls Policy
       (discussed in response to Recommendation No. 4), effecti ve January 1, 2013, (1) every
       request for disbursement by a BBBSA employee or consu ltant must indicate the grant or
       grants to wh ich the request applies, and (2) the Finance staff review all disbursement
       requests to verify that proper supporting documentation has been included, and that
       the expenditures are in accordance with approved grant budgets. Additional new
       comp liance measures include: (1) effective May 1, 2013, both the employee and his o r
       her supervisor must approve the request, thus subjecting the expense to an additional
       level of review, an d (2) under a recently approved requirement, both th e reques ting
       employee and supervisor must certify, at the time of submi ssion, that the expenditure is
       in accordance with the approved grant budget. To assist employees and th eir
       supervisors with this certification, the Finance department will provide all employees
       and their supervisors approved to work on a particular grant with a monthly comparison
       of actual expenditures to date to the approved grant budget.

              7.     Recommendation No.7: Ensure that BSSSA implements time and effort
                     tracking procedures that ensure employees document time spent on
                     grant-related activities.

      BBBSA concu rs with this recommendation and has already made significant progress
towards systemic, policy and procedural improvements, as described below.

       As described in detail in response to Recommenda ti on No.6, BeBSA adopted a
Timekeeping Policy and implemented a new timekeeping system and procedures, which require
employees to enter all time worked, including time worked on grant-related activities, on a
weekly basis, but no later than the Monday following the end of the pay period. Time entries
must be reviewe d and approved by both the employee and supervisor as being in accordance
with the approved grant budgets. To assist employees and their supervisor s with this process,
the Finance department circulates monthly communications to the employees/supervisors




                                              2S




                                            - 65 ­
which co ntain, among other things, (1) the grants on which the employees are authorized to
work, and (2) the percentage of employee time budgeted to each gra nt.

       After receiving the employee/supervisor-approved timesheets, the Finance department
performs a verifica tion that (1) the employee is identified on the respective approved grant
budgets, and (2) hours worked are in accordance with the approved grant budget.

       Once the Finance staff verify the employee's time, such staff allocate the appropriate
percentage of the employee's sala ry/taxes/benefits to each grant.

               8.     Re<:ommendation No.8: Ensure BBBSA implement policies and
                      procedures that ensure employees paid with grant funds are identified
                      on approved grant budgets.

      BBBSA concu r s with this recommendation and has already made significant progress
towards systemic, policy and procedural improvements, as described below.

       As described in detail in response to Recommendation Nos. 5 and 7, BBBSA has adopted
an enhanced Timekeeping Policy and implemented improved timekeeping procedures. There
are now multiple safeguards in place to ensure that employee s paid with grant fun ds are on
approved grant budgets, including:

       •   On a monthly basis, the Finance department informs empl oyees and their
           supervisors of the grants on which employees are approved to work in the next
           month, per the approved grant budget.

       •   When submitting timesheets, employees and their supervisors must certi fy that all
           tim e worked is in accordance with the respective approved grant budget(s).

       •   Once ti mesheets are received, the Finance department verifies that all employees
           reporting time to a particular grant are authorized on the grant budget; only the
           salary/taxes/benefits of such authorized employees are eligible to be charged
           against such grant.

               9.     Re<:ommendation No.9: Require that BBBSA dearly document and
                      maintain the analysis, negotiation, justification, and monitoring for
                      grant-funded consultants.

      BBBSA concu r s with this recommendation and has already made significant progress
towards sys temic, policy and procedural improvements, as described below.

       BBBSA has approved a Policy for Hiring and Oversight of Consultants and Other
Contractors to ensure that, in the case of Federal grants, these activities are conducted in a
manner that is consistent with Federal law, re gulations and grant requirements. In the case of
non-Federal grants, Federal law and regulations still prove useful in ensuring the propriety of
hiring and oversight o f consultants and o ther contractors. In order to achieve these goals, the




                                                "


                                             - 66 ­
Policy for Hiring and Oversight of Consultants and Other Contractors sets ou t the po licies an d
procedures for, among other thi ngs:

   •   Initiating a procurement request for a consu ltant/contractor: The BBSSA employee
       seeking to procure a consultant/contractor (the "Procurement Manager") initiates a
       re quest to hire a contractor by submitting fo r appro val by the COO or CFO (or other
       most senio r member of the Finance department), a written Requisitio n whi ch speci fies
       what type of procurement method should be used . In evaluating poten tial contracto rs,
       such co ntractors must be chec ked against the Lists o f Parties Excluded from Federal
       Procuremen t and Nonprocurement Program s, and any contractors involved in the
       development of the procure ment will be similarly excluded from the bidding list.

   •   Procurement metho d - selecti on of sale source versus compe titive bidding: When a
       contractor is to be hired using Federal fun ds, the BBBSA Procurement Manager will be
       required to use competitive bidding, unless there is an acce ptable, documented reason
       to use another method (where such documented reason exists and the contract is a sale
       source con tra ct over $100,000, BBBSA must obtain prior approval from th e awarding
       agency). For the hiring of any con tra ctor using non-Federal funds, BBBSA requires the
       Procure ment Managers have management appro val to use a sole source procurement
       process for contracts exceeding $100,000.

   •   Competitive bidding process an d contract As part of the competiti ve bi dding process,
       BBBSA will require that candidates' proposed rates be no higher than market rate, and
       that such proposed rate s are permissible under Federal standards. BBSSA will negotiate
       rates separately with each consultant and, while it is impo rta nt to fin d the lowest pri ce
       for the contracted service, price al one is not determinative. In addition, BBSSA w ill
       re quire th at candidates demonstrate an understanding of the proposed scope of wo rk
       and an ability to successfully perform the work as outlined in the co ntracts, within t he
       establi shed projec t tim efra me and, fo r grant-r ela ted w ork, in accordance with the
       approved grant bu dget. As part of the contract approved by BBBSA legal counsel (which
       shall specifically identify th e grant(s) through which the contact is being funded), th e
       select ed contractor wi n be required t o submit invoices for compensation which detail
       the hou rs worked and explicitly describe the grant-related nature of activities and
       expenditures.

   •   Monitoring and evaluation: BBBSA will perform a variety of activities to ensure proper
       oversi ght of the contractor, including, am ong other thin gs, monitoring of performance,
       w ritten eval uations and ensuring, fo r grant-related w ork, that the contractor is working
       in accordance with the approved grant bu dget. BBBSA's requirement that all
       expenditures (inclu ding travel -related expenditures) be supported by con t emporan eous
       source documents an d, if grant-related, in accor dance with the approved grant budget
       also appli es to any consultant or contractor's tim e or expenses. Any changes to the
       contractor's scope of work, or otherwise, must be in accordance with the Grants
       Adjustment and Budget Modification Policy.



                                                 27




                                              - 67 ­
               10.     Recommendation No. 10: Ensure BBBSA implements policies and
                       procedures for accurately calculating and charging indirect costs to
                       Department of Justice grants.

      BBBSA concurs with this recommendation and has already made significant progress
towards systemic, policy and procedural improvements, as described below.

        BBBSA has approved an Indirect Costs Allocation Policy to define and requi re the proper
allocation of indirect costs for Federal grants. In order to achieve these goals, the Indirect Costs
AI/ocotion Policy sets out policies and procedures for, among other things:

   •   Indirect cost proposal and negotiated agreement: BBBSA requires that the Finance
       department wi ll develop an annual indirect cost proposal and negotiate an indirect cost
       rate with the relevant funder, and formalize the indirect cost rate in a written
       agreement.

   •   Cost recording and calculation of indirect costs for Federal grants: As described
       throu ghout this response, SSSSA is implementing comprehensive reforms to its financial
       management system, wh ich will ensure that all grant-related cos ts are
       contemporaneously documented, receive appropriate approvals, and are in accordance
       with approved grant bu dgets. As part of its enhanced processes, the Finance
       department, with appropriate oversight and training, will contemporaneously code
       expenditures related to Federal grants as direct or indirect, and allowable or
       unallowable. The Finance department must follow detaile d procedures to ensure
       appropriate calculation o f indirect costs; accuracy of the resulting indirect cost
       calcu lations will be assured as all direct expenses will be properly allocated to the
       grants.

   •   Compliance procedures: The Finance department will receive ongoing guidance and
       training regarding the indirect cost policies and procedures, and the appropriateness of
       indirect costs charged will be verified through periodic internal and external audits.

       Due to the implementation of these procedures, SSBSA is prepared to calcu late
accurately charges of indirect costs to OJP grants in the event Federal funds are unfrozen_

               11.     Recommendation No. 11: Ensure BBBSA establishes and adheres to
                       written policies and procedures for (1) identifying drawdown a mounts
                       and (2) minimizing the time between drawdown and disbursement in
                       accordance with the Financial Guide.

      BBBSA concurs with this recommendation and has already made significant progress
towards systemic, policy and procedural improvements, as described below.

       SBSSA has approved a Federal Award Drawdown Policy to accurately identify amounts
for drawdown on a reimbursement basis, and minimize the time between drawdown and



                                                 2.




                                              - 68 ­
disbursement. In order to achieve these goals, the Federal Award Drawdown Policy sets out
policies and procedures for, among other things:

   •   Identifying drawdown amounts: Future drawdown amounts will be requested by SSSSA
       based on expenses ac tually incurred and supported by appropriate documentation, for
       both SSSSA's eligible direct and indirect costs, as well as the eligible costs of i ts
       subrecipients. Prior to any drawdown request, the Finance department must also verify
       that the drawdown amount is in accordance with the approved grant budget and/or
       determine whether an adjustment to the approved grant budget must be reques ted.

       As described above, SBSSA has implemented policies and procedures t o ensure that
       (1) any disbursements for grants are on approved grant budgets (see Financial
       Management and Internol Contrals Policy, discussed in connection with
       Recommendation No.4), (2) any employee time charged to a grant is in accordance with
       an approved grant budget (see Timekeeping Policy, as discussed in connection with
       Recommenda tion Nos. 5-8), (3) subrecipients report ac tual expendi tures in accordance
       with approved grant budgets (see Subrecipient Monitoring Policy, as discussed in
       connection with Recommendation No.5), and (4) indirect costs are calculated based on
       actual allowable costs incurred (see Indirect Costs Allocation Policy, as discussed in
       connection with Recommendation No. 10). Collectively, these enhanced policies and
       procedures ensure that re imbursements requested are based on supported, actual costs
       incurred.

   •   Timing of drawdown funds: SBSSA will request reimbursemen t of SSSSA and
       subrecipient expenses through the Grants Management System, and wi ll disburse such
       funds immediatel y upon receipt. The Finance department is required to generate a
       repor t of available Federal funds in BBSSA accounts seven (7) days after receipt of
       funds, to ensure that Federal cash on hand is kept at or near zero, and are required to
       investigate the reason for any Federal funds that have not been spen t or disbursed. Any
       funds not spen t wi t hin ten (10) days of receipt will be immediatel y re t urned to the
       Federal government, as we ll as any interest calcu lated on an annual basis.

       Although BBSSA is not currently receiving any Federal funds, these enhanced policies
and procedures will ensure the proper implementa tion of th is recommendation in the event
Federal funds are unfrozen.

              12.    Rec omm endation #12: Ensure BBSSA implements policies and
                     procedures th at co mply w it h all budget-rel at ed requirements, induding
                     the monitoring of grant budg et s so that only reimbu ~e ment request s
                     are made for actual expenditures ilpproved in the budget by cost
                     category an d amount.

      SBSSA concurs with this recommendation and has already made significant progr ess
towards systemic, policy and pr ocedural improvements, as described below.




                                              29




                                            - 69 ­
        As described above, BBBSA has implemented policies and procedures t o ensur e that
(1) any grant-related deposits are r estri cted and any disbursemen ts for grants from those
restricted funds are on approved grant bu dgets (see Finoncial Management and Internal
Controls Policy, discussed in connection with Recommendation No.4), (2) any employee time
charged to a grant is in accordance w ith an approved grant budget (s ee Timekeeping Policy, as
discussed in connection with Recommendation Nos. &-8), (3) subrecipients report actual
expenditures in acco rdance with approved grant bu dgets (see Subrecipient Monitoring Po/icy,
as discussed in co nnectio n with Recommendatio n No. S), and (4) indirect costs are calcul ated
based on actual allowable costs incurred (see Indirect Costs AI/ocation Policy, as discussed in
connec ti o n w ith Recommenda ti o n No. 10). Collec tively, these enha nced policies and
procedures ensur e that drawdown amounts req ues ted are ba sed o n supported, act ual cos ts
incurred.

        In addition, BBBSA has adopted the Grant Adjustment and Budget Modification Policy to
ensure that the organization monitors the operation of grants and tracks actual expen ditures
against the approved award budgets such that, in the case of a Federal grant. BBBSA receives
appropriate Federal agency approval for budget modifica tio ns and other changes to its Federal
grants through th e filing of Grant Adjustment Notices ("GANs"). In o rder to achieve these
goals, the Grant Adjustment and Budget Modification Policy sets out th e po licies and
procedures for, among other things:

   •   General GAN regu ire ments: The policy defines which programmatic or financial
       changes are significant enou gh to re quire pre-approval from the awar ding Federal
       agency, thus ensuring that BBBSA programs are in com pliance wi th budget and activities
       approved by the awarding Federal agency.

   •   Budget monitoring and modification procedu re: BSBSA actively monitor s its actual
       expenditures, to ensure that GANs are file d as re quired for an y anticipated deviations
       from budget, scope of grant, na med employees or con tractors, or otherwise. BBBSA
       performs a monthly bu dget reconciliation by comparing the month's actua l
       expenditures by cost category to the approved grant bu dget, as we ll as by comparing
       year-to-date actual expen ditures by cost category to year-to-date bu dgeted
       expenditures. If, ba sed on trends in the m onthly and year-to-date bu dget
       reconciliations, it appears actual e)(penditures will e)(ceed 10% of th e budget for a single
       cost ca tegory wi thin th e ne)(t month, BBBSA considers this a bu dget deviatio n t hat w ill
       require inquiry and correcti ve action through a GAN .

      While SBBSA is not currently receiving Federal funds, these enhanced policies and
procedures w ill enable BBBSA to moni tor f ut ure grant bud gets an d file GANs for any f ut ure
changes, as needed .




                                                  30




                                               - 70 ­
              13.     Recommendation No. 13: Ensure BBBSA implements policies and
                      procedures for the acquisition, inventory, and disposal of accountable
                      grant-funded property.

      BBBSA concurs with this recommendation and has already made significant progress
towards systemic, policy and procedural improvements, as described below.

        BSBSA has adopted a Property Policy to ensure that BBBSA appropriatel y accounts for
and monitors the acquisition, maint enance and disposal of all equipment and related property.
In order to achieve these goals, the Property Policy sets out the policies and procedures for,
among other things:

   •   AcqUISitIOn of DroDerty SSSSA must receive prior approval (such as through a request
       in the grant proposal) from the awarding Federal agency to acquire property using grant
       funds, follow procedures for approvals of the purchase within BBSSA, and ensure that
       efforts are made to purchase the product at the lowest possible price, such as through
       the evaluation of multiple vendors. As with any grant-r elated purchase, th e r eques t
       must (1) indicate the grants to which the r eques t applies, (2) indude appropriate
       supporting documentation and approvals within SBSSA, and (3) be certified by the
       requesting/approving parties within SB SSA (and verified by the Finance department)
       that the purchase is in accordance with the approved grant budget.

   •   Use of property: BBBSA ensures the proper use of property acquired using Federal
       funds, induding property acquired by subrecipien ts pursuant to subawar ds of Federal
       funds, shall be used solely for purposes authorized by the awarding Federal agency.
       Upon conclusion of the Federal grant agreement, such property can be used for other
       BSBSA or subrecipient projects, provided that priority is given to the awarding agency
       and other Federally sponsor ed projects _

   •   Inventory/maintenance: The SSBSA Business Technology Solutions department
       maintains an inventory da tabase, and takes a physical inventory of all property and
       reconciles with its records at least once every year. BBBSA employees are responsible
       for monetary losses associated with loss, damage or theft of accountable property.

   •   Disposal: All property acquired with Federal funds must be disposed of in accordance
       w ith Federal law, regulations and agency requi rements, with the appropriate disposal
       method dependent upon market value of the asset at the time of proposed disposal.

       Implementation of these improved procedures to date includes the following:

       o   Property record s: Effective May 2013, BBBSA updated the property records
           contained in its accounting system to include all information required by Federal law
           and regulation regarding accountable property purchased with Federa l funds,
           inclu ding description, serial number, source, iden tifi ca ti on of the title holder,




                                               31




                                             - 71 ­
           acquisition date, cost, percentage of Federal participation in the cost, location, use
           and condition and disposition data.

       o   Inventory: In February 2013, S8SSA took a physical inventory of all accountable
           property and r econciled the results with the property records contained in its
           accounting system .

       o   Staff t raining: To ensure comp liance wi t h the acquisi t ion, use, inventory,
           maintenance and disposal procedures and documentation requirements, particularly
           those relating to pr operty to be acquired and/or acquired with Federal funds, BBBSA
           intends to provide organi~ation-wide training on SBSSA's Property Policy. This
           training will be under the supervision of the new Senior Director of Finance.

              14.     Recommendatio n No. 14: Ensure BBBSA implements po licies and
                      procedures to ensure FFRs (NFederal Financi;ill Reports") are submitted
                      bilsed on accurate information and implements and ildheres to policies
                      and procedures to ensure prog ress reports are submitted timely.

      SBSSA concurs wi th this recommendation and has already made significant progress
towards systemic, policy and procedural improvements, as described below.

        BBSSA has adopted a Grant Reporting Policy to ensure the timely and accurate reporting
of financia l and programmatic information to funders in accordance with both Federal and non­
Federal reporting requirements. In order to achieve these goals, the Grant Reporting Policy
se ts out the policies and procedures for, among other things:

         Roles and responsibili ties: The enhanced procedu r es associated with SBSSA's grant
reporting syst em require that the Fund Development ("FO N ) department has overall
respo nsibility to ensure implementation and adherence to the policy and, to that end, will
ensur e that all reporting deadlines are incorporated into the master FD department ca lendar
and discussed at the monthly FD department meetings. The Vice President of External Affairs
w ill appoint a Project Manager ("PM"), unless a PM was already named in the approved grant.
who, with the assistance of the Finance department, will be responsible for overseeing
comp liance wi t h applicable grant reporting requirement s and submission of gr an t reports.
Thus, through t he PM, BSBSA will ensure that the appropria te BSBSA staff and project team
members are timely notified of upcoming reporting needs.

        Accur acy of reports: SSSSA's enhanced financial management and monitoring policies
ensure that SBSSA is able to document and collec t thorough and accura te information including
from its subrecipients. For example:

   •   BBBSA's Financial Management System and Internal Controls Policy (discussed in
       connection with Recommendation No.4) ensures tha t BBSSA is able to generate
       accurate, time ly and complete reports of the financial activities for each program or
       project since, for example, accoun t ing entries are entered into t he BBSSA financia l




                                                "


                                             - 72 ­
       system contemporaneously and adequately coded to identify the source and use of
       grant funds.
   •   BBBSA'S 5ubrecipient Monitoring Policy (discussed in connection with Recommendation
       No. 5) ensures that subrecipients submi t monthly financial reports which include
       information on actual cost s incurred compa red to each budget line item (with variances
       explained).
   •   BBBSA's Federol Aword Orowdown Policy (discussed in connecti on with
       Recommendation No. 11) ensur es that drawdown amounts are identified by eligible
       direct and indirect costs and eligible costs of subrecipien ts, with supporting
       documentation.

       Types of reports: As described throughout this response, BBSSA's enhanced financial
management systems and subrecipient monitoring procedures, among other policies, ensure
the timely and accurate submission of the following types of reports:

   •   Financial reports: The FFR Standard Form 42S (SF -425), unless otherwise instruc ted by
       the Federal agency sponsoring the project, or any other reports indicated in a funding
       agreement; any additional reporting requirements that may be required if BSSSA is
       designated as a high-risk grantee; or, for non-Federal awards, financial reports in th e
       format and frequency specified in the terms and conditions of the fund ing agreement
       or, if not specified, submission of a standard SSSSA financial report.

   •   Progress reports: Programma ti c progress reports to funders in accordance with the
       terms and conditions of the award documents, in order to provid e information relevant
       to th e performance and activities of a project and as a means to monitor performance.

   •   Additional reporting reguirements: Reports required under the Federal Funding
       Accountability and Transparency Act of 2006 (FFATA) and reg ulations thereof, which
       require a FFATA subaward report through the FFATA Subaward Reporting System by the
       end of the month following any month in which SSSSA awards any subgrant equal to or
       greater than $2S,000.

       Implementation of these improved procedures to date includes the following:

       o   Treatment of deadlines: Even though SBBSA's Federal fund ing is currently frozen,
           SBSSA is tracking deadlines for FFRs and Progr ess Reports on the master FD
           department calendar and including them as agenda items at the monthly FD
           department meetings.

       o   Timely submission of FFRs: Even though BBSSA's Federal funding is cu rrently frozen,
           BBSSA is tra cking comp lete and accurate grant-related information relevant to the
           FFRs for purposes of tim ely and accurate subm ission on or before the next due date
           (July 31, 2013).




                                               "


                                            - 73 ­
       o   Timely submission of Progress Reports: Even though BSBSA's Federal funding is
           current ly frozen, BSBSA is tracking complete and accurate grant-related information
           relevant to t he Progress Report for purposes of tim ely and accurate submission on
           or before the ne)(t due date (June 30, 2013).

               15.     Recommendation No. 15: Ensure SSSSA implement policies and
                       pnxedures to identify, track, manage, and use program income in
                       accordance with the Financial Guide requirements.

      SBSSA concurs with this recommendation and has already made significant progress
towards systemic, policy and pr ocedural improvements, as described below.

         BSSSA has adopted a Program Income Policy to ensure that BSSSA appropriately
identifies, treats, records and reports program income associated with f unds received from
Federal agencies_ In the even t that a SBSSA program generates income for the purposes o f
Federal law, the policy sets forth the requirements for how that program income shall be used,
in accordance with Federal awarding agency regulations or the term s and conditions o f the
award.

        Specifically, SBSSA's Program Income Policy provides th at program income earned
during the project period shall be retained by BBSSA and, depending on award agency
regulations or the terms and conditions of the award, will be generally treated in one of three
ways: (I) additive, or added to funds committed to the project by the aW<lrding <lgency <lnd
used to further program objectives; (2) matching, or used to finance the non-Federal share o f
the project or program; or (3) deductive, or deducted from the total project allowable cost in
determining the net allowable costs on which the Federal share of cos ts is based. SBSSA's
policy also requires a determinati on <IS to whe the r t he program income associated with an
award must be reported to the sponsor and if so, inclusion in official financial reports and/or
invoices submitted to the sponsor.

      While SSSSA's Federal funding is currently frozen, SSSSA requires compliance with its
Program Income Policy effective immediately.

V.     If Continued Funding 15 Unavililable, At-Risk Youth Will Be Hilrmed

               1.      lack of Funding Adverselv Impacts At-Risk Children

        Numerous studies have shown that mentoring benefits children's emotional and
psychological well-being, peer relationships, academic attitudes and grades. 5 Mentoring may
also help reduce risky behavior, such as dr ug and alcohol use or violence. Researchers have


     See generally eula Herrera, David l. DuBOiS and Jean Baldwin Grossman, The Role of Risk:
Mentoring Experiences and Outcomes for Youth with V<lrying Risk Profiles (A Public/Private Ventures
project distributed by Manpower Demonstration Research Corporation (MDRe), 2013) (hereinafter
~Role of Risn; BBBSA 2013 Youth Outcomes Report.




                                                  34




                                               - 74 ­
found strong evidence that community-based mentoring helps to alleviate depression and
improves chil dren's emoti onal and psychological well -being. This is a significant outcome for
the long-term health of children because "deficits in these areas can make child ren vu lnerable
to more serious problems down the road. For example, childhood depression is associa ted with
suicidal behavior, academic and social difficulties, and increased risk for substance abuse and
teen pregnancy .... Low peer acceptance and social isolation are similarly associated with
dropping out, criminal behavior and health problems later in life."6

        In addition to the extensive st ud ies on th e posi tive effects of mentorin g on at-risk youth,
researchers have also begun to focus on the detri menta l consequences when mentoring
relationships terminate prematurely. Th er e is no doubt that many mentoring relationships do
not endure for years and may last only a few months. A mentoring relationship may end early
for a number of reasons, including when children transfer to another school or community. We
know that mentoring relationships that last longer than 6-12 months correlate with more
positive behaviors in children. For example, in community-based relationships, the strongest
gains were evidenced for youth who were in a mentoring relationship for 12 months or longer,
with progressively fewer gains reported as the match length diminished. If the match
terminated at three months or less, there were drops in various indicators, including sel f-worth.

        More importantly, ch il dren are particularly vulnerable to early terminations of the
mentoring relationship that are abrupt and unexplained. Many of the at-risk youth in BBSSNs
mentoring programs come from single-par ent homes and have su ffered the loss of regular
contact with an adult. Researchers have noted that such youth Hmay feel particularly
vulnerable to, and res ponsible for, problems in subsequent adult relationship s . ~ 1 Abrupt
terminations of mentoring relationships may leave children worse off than at the beginning of
the rela tionship, feeling rej ected and resp onsible, leading to negative behavior. As one
researcher noted, "[i ]rrespective of relationship histories, all youth may show certain
vulnerabilities to ea rly terminations. Adolescence is a life stage during which issues of
acceptance and rejection are especially salient. To the exten t that adolescents have identified
with their mentors, and have begun to va lue the relationship, they may feel profound
disappointment when the relationship does not progress . Feelings of rejection and
disappointment, in turn, may lead to a host of negative emotional, beha vioral, and academic
outcomes. N8

       In addition, abrupt term inations ha ve a negative effect on the mentors. A large majority
of mentors r eport disappOintment that their match had closed. Although BBBSA mentors who
work with at-risk youth are more likely to want to mentor again, abrupt terminations may
dissuade mentors from continued involvement in mentoring. It is also possible that mentors


    Id. at64.
    Jean B. Grossman and Jean E. Rhodes, "The Test ofTime: Predictors and Effects of Duration in
Youth Mentoring Relationships, ~ American Journal of Communi ty Psychology, 199; 200 (April 2002).
    Id. at 20l.




                                                  3S




                                                - 75 ­
may try to contin ue t heir mentoring informally, which could pu t children at risk because there
would be no oversight or support of the me nto ri ng relat ionship. Ad ults providing mentoring to
at-ri sk youth report multipl e training an d support needs to help w ith their mentori ng
relationship?

                2.      The Impact to Date has Been Significant

        The impact of freez ing OJP funding has already been fe lt . 8ased on preli minary data
com piled by 888SA, S,754 ot herwise success ful ma tches may have to be terminated early
becau se OJ? funding is not available. In ad dition, well in excess of a th ousan d matches that
would have been fun ded from M ay through September 2013, now have no funding due to th e
freezing of OJ? funds. While the numbers of children who face a premature end to their BBBSA
mentoring relat ionships, or who may never see a mentoring r elationship, should funding not be
released are substa ntial, it is impo rta nt to re member that behind each " number N there is an
actual child. If frozen fun ds do not begin to flow, thou san ds more chil dre n w ill be put at risk.
Given the very valuable wo rk that BBBSA has per form ed, an d t hat it is uniquely posi tioned to
perform in th e future, it w ould be shortsighted to all ow the current situation to bet:Ome the
death kn ell of the BBBSA.

VI.     Conclusion

         As set forth herein, BBBSA has made considerable progress in im plementing t:Orrec tive
and remedial measur es, inclu ding significant personnel changes, the creati on an d
implementatio n of new and enhanced policies and procedures regarding its fin ancial sys tems,
grants management an d internal controls, and training at both BBBSA an d th e subrecipi ent
level to ensure com plian ce with applicable law, regulation s an d agency requirements. BBBSA
will co ntinue to work diligently and transparentl y to address all of the draft audit findings, with
th e assista nce o f our com pliance cou nsel and forensic acco untan ts. Moreover, BBBSA's
forensic accountants w ill rema in in-house to tes t the impl eme ntatio n of the new and enhanced
polici es an d procedures and ret:Ommend enhancements thereto .

         BBBSA respec tfull y req uests that th e OIG:

            •   grant an extension of 60 days befo re f inalizing its re port so that our fore nsics
                t eam can (1) undertake furthe r analysis of the quest ioned costs, and (2)
                implement the update d po licies, procedures an d processes; and

            •   affirm th e OIG's comm itme nt to wo rk closely w ith us in provid ing the
                info rmati o n and support needed by OJ? to free up and distrib ut e the remaining
                $3,7 14,838 of grant funds no t yet disbursed so th ey can be used forthe
                purp ose s originally intended.



      See, fex example, Role of R at 68.
                                 isk,




                                                   36




                                                 - 76 ­
        We look forward to meeting with the DIG the week of Mav 27, 2013 or otherwise in the
near future to provide additional detai ls regarding our efforts and receive feedback and
sugges ti ons in turn.




                                             37




                                           - 77 ­
                                                                                      APPENDIX V


        OFFICE OF JUSTICE PROGRAMS

    RESPONSE TO THE DRAFT AUDIT REPORT


                                                   U.S. Department of Justice

                                                   Office of Justice Programs

                                                   Office oj Audit. Assessment. and Manugement




  JUN   ~.(   2013



MEMORANDUM TO:               Thomas O. Puerzer
                             Regional Audit Managfr
                             Philadelphia Regional Audit Office
                             Oflice of the Inspector General

FROM:                        Maureen A. Hennebclj._. _1           A   A


                             Director    M..Ad4~;;.jt/10

SUBJECT:                     Response to the Drdfi Audit Report, Office ojJustice Programs,
                             Qffice 0/Juvenile Justice Md Delinquency Prevention GrantS
                             Awarded 10 Big BrO/hers Big Sisters 0/America,
                             Philadelphia. Pennsyh'ania

This memorandum is in reference to your correspondence, dated April 10, 2013, transmitting
thc above-refere nced draft audit report for the Big Brolhers Big Sisters of America (BBBSI\).
We consider the subject report resolved and request written acceptance of this action from your
office.

The Office of Justice Programs (OJP) received a copy of the BBBSA's response to the draft
audit report, dated May 2 1, 2013, in which nBBSA management has acknowledged the
significance of findings and are engaged in addressing the deficiencies identified during the
audit. OJP appreciates that the audit recommendations and questioned costs are substantial, in
both nature and amount, and will require a significant effort to properly and fully address.
As you know, OJP and the BBBSA management have been working together since notification
of the preliminary audit findings. Immediately upon being infonned of the preliminary issues
by the Office of the Inspector General (DIG), and evcn prior to receiving the draft report, alP
took concrete steps to mitigate the corresponding risks associated with SBBSA's grant funds,
including freezing grant fund s on al! of BOOSA's active awards as of February II, 20 13.
Further, on February 27, 20 13, OlP iss ued a Jetter to SBSSA notifying them that they had been
designated as a Department of Justice (DOJ) high-risk gran tee. Award conditions were added
to ~maining open grants that restrict BRBSA from obligating, expending, or drawing down
funds. Additionally, as pan of the high-risk designation, I3BBSA officials, who are involved in
accounting for and administering DO] grant funds, are required to complete the OQJ-sponsored
on-line grants financial management training. To date, the Office of the Chief Financial




                                            - 78 ­
Officer (OCFO) confmned that IS BBBSA officials and 92 of its subrecipicnts have
successfully completed the on-line grants financial management tmining.

On March 1,2013, pemonnel from OJP's Office of Audit, Assessment, and Management,
OCFO, Office of Communications, Office of the General Counsel, and the Office of Juvenile
Justice and Delinquency Prevention (OlJDP) held a teleconference with BBBSA management
officials to generally discuss the preliminary audit issues, explain the DOJ high-risk
designation process and provide technical assistance. During this call, OJP staff advised
BBRSA officials that they should consider procuring a forensic auditor to assist them in
addressing the various accounting, internal control, and questioned cost issues identified by the
OIG during ils audit. On April IS, 2013, OJP held a follow-up teleconference with 8B8SA
management officials, to provide further guidance. On May 9, 2013, OJP, OIG, and BBBSA
management and representatives met to further di!'.Cuss the draft audit report findings. OIG and
OJP representatives explained the audit resolution process, and provided information on how
each office would work with BBBSA to address the audit recommendations and questioned
costs. On May 21, 2013, BaaSA provided OJP with a copy of its recently implemented
" Financial and Grants Management Policies" manual, which includes internal controls over its
financial management system to ensure that grant-related transactions are accounted for
properly. Ongoing communication between OJP and BBBSA staff will continue throughout
the audit resolution process, until all recommendations and questioned costs are properly and
fully addressed.

1be drnft report indicates that desk reviews were conducted by OJP's OJJDP in September
2010, September 2011, and June 2012, with no issues related to financial and programmatic
compliance found. OIP annual desk reviews, conducted on all active grants, are used 10 assess
progress toward stated project goals and objectives and to review grantee submitted reports and
other infonnation in the existing grant file (e.g., correspondence, drawdown data, compliance
with :;pedal conditions) to detcrmine programmatic and adm inistrative compliance. The
standard desk review process docs not involvc or require obtaining or reviewing grantee source
documentation related to fmancial records or assessing the adequacy of grantee financial
management systems or internal controls. In-depth financial monitoring of this nature would
occur during an on-site visil by OlP's OeFO.

OJP uses a risk-based approach to determine monitoring priority of its grants and grantees for
in-depth monitoring, e.g., on-site visits and/or enhanced desk reviews. Annually, OJP grants
arc systematically assessed against a set of over two dozen risk factors to determine
Ildministmtive, financial, and programmatic compliance to identify grantees that may be in
need of increased oversight and in-depth monitoring. Each grant is assigned a risk score and an
associated monitoring priority of high, medium, or low and OJP grant managers usc this
monitoring priority as a guideline, while exercising professional discretion, in making their
progr.illlmatie monitoring plans. As mentioned in the draft report, the BB8SA wa~ not a high­
risk grantee during the period of the desk reviews and was not detennined to be a high priority
risk for monitoring. BRBSA 's risk score did not reach a high priority level despite the amoWlt
of funding provided to BBBSA due 10 the following contributing factors: consistent ongoing
compliance with reporting requirements; dmwdowns were deemed proportionate to reported
program activity; program implementation was on track with no noted concerns; it was not a

                                                2




                                             - 79 ­
new grantee within the last three years of risk assessment; and it wa.~ not implementing a new
POOb'TlUTI. It should also be noted that during the project period of the grants, BBBSA officials
attended, in person, an ocro Regional Financial Management Training seminar (RFMTS).
SBBSA's Finance Director attended the JW1e 2011 RFMTS in Charlotte, North Carolina, and
its Associllte Director for Grants Administration, attended the February 20 12 RFMTS in
Phoenix, Arizona.

Tn addition to the OJJ DP desk reviews conducted, on August 14,2009, 01101' staff conducted
a progr.unmatic monitoring site visit to BBBSA with the primary purpose to review its Agency
Infonnation Management (AIM) system. It should be noted that in the latter halfofFY 2012,
BBBSA was assigned a medium priority fo r in-depth moni to ring, but because the OIG audit
was ongoing, OllDP and the OCFO did nol conduct a programmatic or financial on-site visit or
enhanced programmatic desk review. OlP is reviewing its current process to determine otheT
Ilpproaches, in addi tion to il<J risk-based approllch for monitoring, thllt mlly assist OJP in
identifYi ng grantees, like BBBSA, that have significant risks that may not be identified through
the risk scoring process and may only be detectable through in-person reviews of source
documentation by specially trained financial professionals.

The draft audit report oontains 15 reoommendations, $19,462,448 1 in nel questioned COSIS , and
$3,714,838 in funds 10 better usc. The following is OJP's analysis oftne draft audit report
recommendations and questioned costs. For ease of review, the recommendations are restated
in bold and are followed by our response.

I.       We recommend tbat OJP remedy the $19,462,448 in unsupported expenditures
         resulting from:

             (a) grant drawdowns that were unsupported due to commingling (drawdown
                 of$19,462,448),
             (b) payments made to subrecipients, from the initiation of the grants to
                 June 27, 2012, due to lack of monitoring how the subruipicnts spent the
                 funds (expenditures of $12,624,008),
             (c) costs associated with personnel and fringe henefits due to Jack of time and
                 effort reports (expenditures of S2,008,405),
             (d) travel expenditures that were not sufficiently documented (expenditures of
                 $196,059),
             (e) costs of a Native American Mentoring consultant without the required time
                 and effort reports (expenditures of $19,375),
             (I) costs associated with a Native American Mentoring consultant with no
                 documentation of grant related activity (expenditures of $1 1,625), and
             (g) indirect costs not verifiable due to a lack of direct cost data resulting from
                 commingling expenditures (expenditures of $434,157).




I Some que.~ti<)lled costs were questionNl for mOrt: than one reason. Net questioned costs exclude Ihe duplicate
amoun1.

                                                         J




                                                      - 80 ­
     OJP agrees with the recommendation. We will coordinate wi th BDBSA to remedy the
     $19,462,448 in WlSupported expenditures charged to OJP grants, as spcdfied above. In
     its May 2 1, 2013 response, MBBSA stated that they havc retained the assistance of a
     forensic accounting finn, Navigant, and compliance attorneys, Arnold & Porter, LLP, to
     assist them in tracking the flow of grant funds from receipt to disbursement, and
     detennine whether the questioned grant funds were used for the intended purposes.
     BBRSA also ~tated that Naviganl is in the process of finalizing its workplan using
     forensic accounting review and analysis techniques. OJP will work with B13BSA to
     discuss Novigant's approach and provide input as needed.

2.   W e recommend that OJP remedy the $ 1,019,818 in unallowable expenditures
     resulting frum;

        (0) costs a.~sociated with the Associate Director of Native American Mentoring
            position not on the 2009·TY·FX..J)047 approved budget (expendituus of
            $37,017),
        (b) travel expenditure!! that were not allowable (expenditure~ of $ 196,059),
        (c) consultant costs due to a failure to ensure that reasonable consultant rates
            were established 00 a easc-by-ease basis (expenditures of S221,182),
        (d) costs due to an unapproved, non-competitively negotiated rate without
            justification for the ArM consultant (expenditures of $79,000), and
        (e) indirect costs that were improperly calculated (expenditures of S434,1 57).

     OJP agrees with the reconunendation. We will coordinate with SSSSA to obtain
     documentation.regarding tbe questioned expenditures, and will request a final
     dctennination from OJJDP regarding the allowability of the expenditures. If the
     expenditures arc determined to be unallowable. we will rcquestthatlhe next Federal
     Financial Report for the various grants be adjWited and, as necessary, the funds returned
     to the DOJ. As previously indicated in OJP's respon se to Reoommendation Number I,
     BBBSA stated, in its May 21, 2013 response, that they have retained the assb1ancc ofa
     forensic accounting finn, Navigant. and oompliance attorneys, Arnold & Porter, LLP, to
     assist them in tracking the flow of grant funds from receipt to disbursement, and to
     detennine whether the questioned grant funds were used for the intended purposes.

3.   We recommend that OJP deobligate and put to better use the remaining
     S3,714,838.

     OJP respectfuUy disagrees with the recommendation, as OJP has taken actions to
     mitigate the risk a.~sociated with the remaining, un.~pent grant funds. OJP imposed an
     immediate freeze on BBBSA's funding under OJP T        nstnlction, OJ I' 14S01.1A,
     Temporarily Freezing Paymenrs and Suspension or Termination o/Grant or
     Cooperati"l'e Agreement Awards, and subsequently added award conditions to remaining
     open grants that restriet BBBSA from obligating, expending, or drawing down funds.
     Also, as previously mentioned, on February 27, 20 13, OJP designated SBBSA as a DOJ
     high-risk. grantee, pursua nt to the requirements of 28 C.F.R. §70.14. This designation
     and award conditions preventing access to funds will remain in effect until BBSSA


                                             4




                                          - 81 ­
     implements the corrective actions to address the open recommendations and questioned
     costs related to this audit. Additionally, DOJ/OlP rescrves the right to take furt her
     administrative action ifBBBSA docs not make timely progress in addressing the
     outstanding high-risk issues.

     As acknowledged on page 29 in the draft OIG audit report, despite its accounting and
     administrative issut:s, the OIG stated that BBBSA achieved or was on track to achieve
     the goals and objectives of the grants. At this time, the current [eadcr.>hip of the
     BBBSA has shown a commitment to addressing the audit issues, and OlP will continue
     to work with the grantcc with the expectation that BBBSA will resolve the issues and
     questioned costs, enabling it to resume fu ll implementation of its OJJDP-fundcd
     mentoring program. Accordingly, we believe that the actions taken by Ol P to dale, as
     described in the above paragraph, arc sufficient to address the concerns associated with
     this recommendation. Last, but certainly not least, we believe that the work of BBBSA
     - providing mentoring scrvices for disadvantaged youth - is a critically important
     priority for urban, suburban, and rural communities across America and in light of the
     statutory limitations on the funding, the purpose of supporting mentoring for youth is a
     very worthy purposc. As such, OlP requcsts elosure of this recommendation.

4.   We recommend that OJP ensure that BBBSA establishes appropriate internal
     controls that include the design and implementation of polkies and procedures to
     assure that its financial management system provides for adequate recording and
     safeguarding of grant-related activities and ensure tllat ~ taff arc adcquately
     trained and supervised in the use of Ihe system.

     DJ P agrees with the recommendation. In its May 2 1, 20 13 response, BBBSA provided
     DIP with a copy of its recently implemented "Financial and Granl" Management
     Policies" manual, whieh includes internal controls over its financial management
     system to ensure that grant-related transactions are accounted for properly. IlBilSA
     also stated that at an "all-hands" training would be hcld on May 30, 20 13, to provide
     SBSSA staff with training on the implemented policies. Further, SBBSA stated that all
     members of the Finance staff and senior BBBSA management (including those
     responsible for grants administration) have completed the web-based DOl Grants
     Financial Management Training, which will further assist SBSSA in complying with
     OJP grant requirements. While we believe these improved procedures arc sufficient to
     close this recommendation, we will work with BBBSA to obtain additional
     documentation 10 support that grant-related tran~actioos are properly recorded its
     financial management system, by selecting and receiving a sample oftransaetions and
     in·house training was provided to BBBSA staff on its newly implemented procedures.




                                             5




                                          - 82 ­
5.   We recommend that OJP ensure that ORBSA documents and implements policies
     and procedures for subreeipient monitoring.

     OIP agrees with the recommendation. Tn its May 21,2013 response, SSBSA provided
     OIP with a copy of its recently implemented procedures, incorporated in its policies
     manual, to ensure that adequate oversight is established for Federal grant funds awarded
     to its subrccipients. While we believe these improved pro!;:cdures are ~uffic icnt to close
     this recommendation, we will work with BSSSA to obtain additional documentation to
     support that the procedures were properly implemented and SSSSA provided training
     to its ~ubrccipients on the newly implemented procedures.

6.   We recommend that DJP ensure that BBBSA implements policies and proecdure.~
     that ensure personnel expenditures paid with grant funding are documented as
     required by tbe OJP Financial Guide.

     OJP agrees with the recommendation. [n its May 2 1, 20 13 response, SBBSA provided
     OJP with a copy of its recently implemented procedures, incorporated in its policies
     manual, to ensure that employees track time spent on grant-related activity is properly
     documented and aceurnte. While we believe these improved procedures are sufficient to
     dose this recommendation, we will work with SeSSA to obtain additional
     documentation to suppon that the procedures were properly implemented and in-house
     training was provided to its stafT on the new timekeeping sy~.tem.

7.   We recommend that OJP ensure that BBBSA implements time and effort tracking
     procedures tbat ensure employees document time spent on grant-related activities.

     OJP agrees with the recommendation. In its May 21, 2013 response, nBDSA provided
     OJP with a copy of its recently implemented procedures, incorporated in its policies
     manual, to ensure that employees document all lime worked on grant-related activities.
     This documentation includes the establisbment of a new timekeeping system_While we
     believe these improved procedures are sufficient to dose this recommendation, we will
     work with BBBSA to obtain addi tional documentation to support that the procedures
     were properly implemented and in-house training was provided to BOOSA staff on the
     new timekeeping system.

8.   We recommend that D,JP ensure BBUSA implements policies and procedures that
     ensure employees paid with grant funds are identified on approved grant budgets.

     OJP agrees with the recommendation. In its May 21, 2013 response, BBBSA provided
     OJP with a copy of its recently implemented procedures, incorporated in its policies
     manual, to ensure that employees paid with grant funds are identified on approved grant
     budgets. While we believe these improved procedures are sufficient to close this
     recommendation, we will work with BBBSA to obtain additional documentation to
     support that the procedures wcre properly implemented and appropriate training was
     provided to BBSSA staff on ensuring compliance with approved grant budgets.



                                              6




                                           - 83 ­
9.     We recommend tha t OJP rcquire that BOBSA clearly documents and maintains
       the analysis, negotiation, justification, and monito ri ng fo r ,nant-funded
       consulta nts.

       OJP agrees with the recommendation. In its May 2 1,2013 response, nnnSA provided
       OJP will! a copy of its rccently implemcntcd procedures, incorporated in its policies
       manual, to ensure that activities (i.e., analysis, negotiation, justification, lind
       monitoring) related to grant-funded consultants and other contractors are documented
       consistent will! Fcderallaw, regulations, and grant requirements. While we believe
       these improved procedures arc sufficient to close this recommendation, we will work
       with BBBSA to obtain additional documentation to support that the procedures were
       properly implemented and in-house training was provided to OOOSA staff on its new
       procedures for overseeing consultants.

10.    We recommend that OJP ensure BBBSA implements policies and procedures for
       acc urately calculating and charging indirect cos ts to J>epartmcnt of Justice grants.

       OlP agrees with the recommendation. In its May 2 1, 20 13 response, BUSSA provided
       OJP with a copy of its recently implemented procedures, incorporated in its policies
       manual, lO ensure that the allocation of indirect costs for Federal grants is properly
       calculated and documented_ While we believe these improved procedures are sufficient
       1 close this recommendation, we will work will! BBSSA to obtain addi tional
        0
       documentation to suppon that the procedures were properly implemented and in- house
       training was provided to BSBSA staff on its new indirect cost allocation procedures.

II .   We recommend that OJP ensure BBRSA establishes and ad hl'res to written
       policies and procedures for (I) identifying dnwdown amounts a nd (2) minimizing
       the time between drawdown and disbursement in accordance with tbe Financial
       Guide.

       OJP agrees with the recommendation. In its May 21 , 2013 response, BBBSA provided
       OJP with a copy of its recently implemented procedures, incorporated in its policies
       manual, to ensure that: drawdown requests are made on a reimbursement basis; the time
       between drawdown and disbursement is minimized; and Federal ca.<;h-on-hand is
       maintained in accordance with the OJP Financial Guide. While we believe these
       improved procedures are sufficient to close this recommendation, we will work with
       BBBSA to obtain additional documentation to suppon that the procedures were
       properl y implemented and in-house trai ning was provided to BBSSA staff on its new
       d rawdown policy.




                                              7




                                           - 84 ­
12.   We recommend that a.TV ensure OHBSA implements policies and procedures that
      comply with all budget-related requirements, including the monitoring of grant
      budgets so that only reimbursement requests are made for actual expenditures
      approved in the budget by cost category and amount.

      OIP agrees with the recommendation. In its May 21, 2013 response. nBBSA provided
      DIP with a copy of its recently implemented procedures, incorporated in its policies
      manual, to ensure compliance with all budget-related requirements, including
      monitoring of actual grant expenditures against the approved grant budget. While we
      believe these improved procedures are sufficient to close this recommendation, we will
      work with BBBSA to obtain additional documentation to support that the procedures
      were properly implemented and in-house training was provided to SB8SA staff on its
      new grant adjustment and budget modification policy.

13.   We r«ommend that OJP ensure BBBSA implements policies and procedures for
      the acquisition, invcntory, and disposal of accountable grant-funded property.

      OlP agrees with the recommendation. In its May 21 , 2013 response, BBBSA provided
      OJP with a copy of its recently implemented procedures, incorporated in its policies
      manual, to ensure proper accounting over the acquisition, inventory, and disposal of
      accountable grant-funded property and equipment. While we believe these improved
      procedures are sufficient to close this recommendation, wewill    work with BBBSA to
      obtain additional documentation to support that the results ofthe February 2013
      physical inventory conducted by SBBSA of its accountable property agree with the
      property reGords ill its accounting system, and in-house training was provided to
      BI3BSA starr on its new property policy.

14.   We recommend tbat OJP ensure BBBSA implements policies and procedures to
      ensure FFRs are submitted based on accurate information and implements and
      adheres to policies a nd procedures to ensure progress reports are submitted
      timely.

      OJI' agree~ with the rewmmendation. In its May 21, 2013 response, ROOSA provided
      OJP with a copy of its recently implemented procedures, incorporated in its policies
      manual, to ensure that FFRs and programmatic progress reports are accurate and
      submitted timely. While we believe these improved procedures are sufficient to close
      this recommendation, we will work with SSBSA to obtain addi tional documentation to
      support that the procedures were properly implemented and in-house training was
      provided to BBBSA staff on its new grant reporting policy.




                                             8




                                          - 85 ­
15.    We recommend tbat OJP ensure BBBSA implements policies and procedures to
       identify, track, manage, and Ulie program income in accordance witb the Financial
       Guide requirementl!.

       OlP agrees with the recommendation. In its May 21,2013 response, SSBSA provided
       OJP with a copy of its recently implemented procedures, incorporated in its policies
       manual, to ensure that it appropriately identifies, tracks, records, manages, and reports
       progralU income in accordance wit h the OJP Financial Guide. While we believe these
       improved procedures arc sufficient to elose this recommendation, we will work with
       BBBSA to obtain additional documentation to suppon that the procedures were
       properly implemented and in-house training was provided to BBSSA staff on its new
       program income policy.

We appreciate the opportunity to review and comment on the draft: report. I f you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, at (202) 6 16-2936.

ce:    Karo l V. Mason
       Assistant Attorney General

       Mary Lou Leary
       Principal Deputy Assistant Attorney General

       James H . Burch, II
       Deputy Assistant Attorney General
         for Operations and Management

       Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Robert L. Listenbee
       Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Marilyn Roberts
       Deputy Administrator
       Office of Juvenile Justice and Delinquency Prevention

       James Antal
       Deputy Associate Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Sharie Cantclan
       Grant Program Specialist
       Office of Juvenile Justice and Delinquency Prevention


                                                9




                                             - 86 ­
cc:   Kerri Strug
      Program Manager
      Office of Juvenile Justice and Delinquency Prevention

      Leigh A. Benda
      Chief Pinancial Officer

      Jerry Conty
      Assistant Chief Financial Officer
      Office ofthc Crucf Financial Officer

      Lucy Mungle
      Manager, Evaluation and Oversight Division
      Office of the Chief Financial Officer

      Charles Moses
      Deputy General Counsel

      Silas V. Darden
      Acting Director
      Office or Communication

      Richard P. Theis
      Director. Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Divisioo

      OJP Executive Secretariat
      Control Number 20130467




                                              10




                                             - 87 ­
                                                            APPENDIX VI


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to Big Brothers Big
Sisters of America (BBBSA) and the Office of Justice Programs (OJP).
BBBSA’s response is incorporated as Appendix IV of this final report, and
OJP’s response is included as Appendix V. The following provides the OIG’s
analysis of the responses and summary of actions necessary to close the
report.

Analysis of BBBSA and OJP Responses

       BBBSA provided an initial response to our draft report on
May 21, 2013, that provided general observations related to this audit,
additional information on the history and accomplishments of BBBSA, and
points specifically addressing each audit recommendation. In its response,
BBBSA also requested a 60-day extension to respond further to the draft
audit report. This extension request was denied because, while we
recognize BBBSA was working to correct the deficiencies identified in this
audit, a 21 day extension was already provided, the extent of the findings
would likely require more than 60 days to fully address, and the information
contained in this report to the Office of Justice Programs must be timely so
that appropriate actions may be taken. BBBSA continued to provide updates
on its corrective actions since the original response, including two responses
on May 31 and June 6, 2013. These responses will be taken into
consideration as appropriate in the resolution of the recommendations
below.

       In providing general comments and information on its history and
accomplishments, BBBSA’s response focused on three overall areas; a
strong history of improving the lives of children, BBBSA’s commitment to
compliance, and its successful partnership with the Department of Justice
(DOJ) to address challenges faced by today’s youth. In discussing the first
topic, BBBSA provided an overview of its organizational history and
accomplishments. While we understand the importance of the work BBBSA
strives to accomplish through its programs, our audit was not intended to
report on the history or accomplishments of BBBSA. Rather, as stated in our
report the purpose of our audit was to determine whether reimbursements
claimed for costs under the grants reviewed were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and the terms
and conditions of the grants.




                                    - 88 ­
       BBBSA’s response then included a discussion on its commitment to
compliance, stating that the remediation process had been initiated and that
BBBSA “is committed to each and every change recommended by the OIG.”
However, BBBSA’s response also stated that the findings were not reflective
of the BBBSA organization as a whole or over time. BBBSA then referred to
reviews by the OIG in 2004, Single Audit Reports issued by independent
auditors from the years 2006-2011, and OJP desk reviews that did not catch
level of problems with BBBSA systems as this audit. Regarding our 2004
audit, we reviewed BBBSA’s management of the one grant it had received
from the Department of Justice at the time, which totaled about $12 million
to be spent over 5 years. 18 Since that audit, BBBSA has received 13 grants
from the Department of Justice, totaling about $68 million. This significant
increase in funding contributed to the reasons for our return to BBBSA so
that we could examine if its systems, which were sufficient for the
management of one grant, properly managed the increase in federal funds.

      With respect to the Single Audit Reports, these reports are intended to
provide assurance to the federal government that grants are being properly
managed by a recipient, and we mention these reports in our report as a
factor of our risk assessment of grant recipients. However, validating the
accuracy of the reports is beyond the scope of this audit. In addition, OJP
provided in its response a discussion of the risk assessments, desk reviews,
and other grantee monitoring it performs in managing the grant funding it
provides to grantees. OJP stated that the desk reviews are not intended to
be financial reviews. As we have indicated in our audit report, we
considered the results of the OJP desk reviews in planning our audit work,
however this audit is of the OJP grant funds provided to BBBSA and not an
evaluation of OJP’s grants monitoring system.

       BBBSA also stated that neither the OIG nor BBBSA’s forensic
accounting team has found any evidence of intentional misuse or
misdirection of Federal funds. While our audit does not focus or report on
the intent of any misuse, our audit findings disclosed significant deficiencies
in grant management as recognized by BBBSA and OJP. BBBSA also stated
that it now recognizes that individuals who provided information were unable
to deliver the information we requested. We identified this inability to
provide the required information early in our audit. Rather than issue our
report at that time, we allowed BBBSA additional time to provide the
required documentation, but it could not provide reliable or adequate

       18
         U.S. Department of Justice Office of the Inspector General, Office of Justice
Programs Grant Administered by Big Brothers Big Sisters of America, Philadelphia,
Pennsylvania, Audit Report No. GR-70-04-005 (May 2004).




                                           - 89 ­
information as it had not maintained that information in the manner required
by the grant terms.

       BBBSA’s response stated that part of its effort to move forward has
included the replacement of all of its senior management and financial
leadership. In our report, we recognized some of these actions but do not
comment on the overall organizational management structure of BBBSA,
only the BBBSA’s performance on key areas of DOJ grant management.
BBBSA also included a discussion of work done to overhaul its grants
management and internal control policies and procedures in order to
effectively comply with applicable law, regulations, and guidance. BBBSA
stated that, to the extent federal funds are released, BBBSA will be able to
verify that the new policies are sufficient to correct the problems identified
during our audit or, if necessary, to make additional adjustments. Lastly,
BBBSA referred to its partnership with the DOJ in addressing the challenges
confronting the nation’s youth, again with references to BBBSA’s history of
program accomplishments. For example, BBBSA stated that it exceeded the
objectives of the grants. As indicated by our report conclusions, our audit
did not take issue with the BBBSA’s program accomplishments, but found
significant deficiencies in key areas of grant management. In addition, we
did not audit the process of reporting these accomplishments as disclosed in
our report.

       In its response, OJP generally concurred with our recommendations
with the exception of recommendation three which is discussed in detail
below. OJP also indicated that it has been working with BBBSA to address
these issues prior to the issuance of this report, and has taken significant
steps to remedy the situation including the freezing of funds and its
designation of BBBSA as a high-risk grantee. In addition, for
recommendations 4 through 15, OJP did not request closure of the
recommendations but indicated it will verify the implementation of the
revised procedures and their effectiveness in resolving the identified
deficiencies. OJP also stated in its response that it is reviewing its current
grantee risk assessment process to determine other approaches which may
identify grantees, like BBBSA, which have significant risks that may not be
identified by the current risk assessment process.

Summary of Actions Necessary to Close Report

1. Resolved. In its response, OJP agreed with our recommendation to
   remedy the $19,462,448 in unsupported expenditures resulting from:

   (a) grant drawdowns that were unsupported due to commingling 

       (drawdown of $19,462,448),



                                    - 90 ­
(b) payments made to subrecipients, from the initiation of the grants to
    June 27, 2012, due to lack of monitoring how the subrecipients spent
    the funds (expenditures of $12,624,008),

(c) costs associated with personnel and fringe benefits due to lack of time
    and effort reports (expenditures of 2,008,405),

(d) travel expenditures that were not sufficiently documented
    (expenditures of $196,059),

(e) costs of a Native American Mentoring consultant without the required
    time and effort reports (expenditures of $19,375),

(f) costs associated with a Native American Mentoring consultant with no
     documentation of grant related activity (expenditures of $11,625),
     and

(g) indirect costs not verifiable due to a lack of direct cost data resulting
    from commingling expenditures (expenditures of $434,157).

OJP stated that it will coordinate with BBBSA to remedy the $19,462,448
in unsupported expenditures including monitoring the work of BBBSA’s
forensic accounting firm.

BBBSA stated that a forensic accounting review was being performed and
therefore it could not agree or disagree to any unsupported and
unallowable expenditures. In addition, BBBSA requested that we
withhold any final determination on the unsupported or unallowable
expenditures until the forensic review was complete.

Grant rules require grantees to readily identify the full use of the grant
funds received and maintain adequate supporting documentation
demonstrating the use of the funds. In performing our audit of BBBSA,
we were not provided an accurate accounting of the federal funds
expended by BBBSA, and based on the commingling of funds from other
sources, it was not possible for us to determine how grant funds were
used specifically versus any other funds utilized by BBBSA. As a result,
the determination has been made regarding the questioned costs for this
recommendation.

While BBBSA is performing a forensic review of its expenditures, which
should establish the amount of funds used for its entire operations,
concerns may still exist that the final accounting may not clearly delineate


                                  - 91 ­
   how federal funds were used, at the time of expenditure, versus funds
   from other sources for specific transactions.

   In its response, BBBSA also states that it would like to work cooperatively
   with the OIG with regard to the forensic investigation. However, our role
   in performing grant audits is to perform independent reviews and report
   findings and recommendations to the DOJ granting agency. BBBSA will
   need to work with OJP to remedy the findings.

   This recommendation can be closed when we receive documentation
   demonstrating that OJP remedied the unsupported expenditures.

2. Resolved. In its response, OJP agreed with our recommendation to
   remedy the $967,415 19 in unallowable expenditures resulting from:
   (a) costs associated with the Associate Director of Native American
       Mentoring position not on the 2009-TY-FX-0047 approved budget
       (expenditures of $37,017),
   (b) travel expenditures that were not allowable (expenditures of

       $196,059),

   (c) consultant costs due to a failure to ensure that reasonable consultant
       rates were established on a case-by-case basis (expenditures of
       $221,182),
   (d) costs due to an unapproved, non-competitively negotiated rate
       without justification for the AIM consultant (expenditures of $79,000),
       and
   (e) indirect costs that were improperly calculated (expenditures of

       $434,157).


   OJP stated that it will coordinate with BBBSA to obtain documentation
   regarding the questioned expenditures, and will request a final
   determination from OJJDP regarding the allowability of the expenditures.

   In its response, BBBSA neither concurred nor disputed our
   recommendation, stating that a forensic review of the use of grant funds
   had been initiated but not yet completed. Additionally, the response
   provided a discussion of the planned actions taken during the review in
   order to assess whether the funds were used for the purposes intended.
   However, the issues with the unallowable expenditures will not
   necessarily be resolved by the efforts of forensic accounting as the

      19
           In response to our draft report, OJP and BBBSA responded to the draft report
total unallowable expenditures of $1,019,818. The figure was adjusted to $967,415 in the
final report.




                                         - 92 ­
   underlying issue was that BBBSA spent funds on personnel or other items
   that were not approved by OJP, or charged expenditures to the grants in
   a manner that was not approved by OJP.

   This recommendation can be closed when we receive documentation
   demonstrating that OJP remedied the unallowable expenditures.

3. Resolved. In its response to the draft report, OJP disagreed with our
   recommendation to deobligate and put to better use the remaining
   $3,714,838. However, OJP described in its response a number of
   alternative corrective actions it has taken that represent increased
   oversight of BBBSA. These actions included the imposition of an
   immediate freeze on BBBSA funds and the designation of BBBSA as DOJ
   high-risk grantee. In addition, OJP stated that it will require that BBBSA
   implement internal controls that will ensure grant funding is safeguarded
   and managed properly. In addition, OJP recognizes that the work of
   BBBSA, to provide mentoring services for disadvantaged youth, is a
   critically important program.

   In its response, BBBSA also disagreed with the recommendation stating
   that deobligating the remaining $3,714,838 is unwarranted given its
   newly overhauled systems. BBBSA stated that it has made significant
   progress towards systemic, policy, and procedural improvements,
   including but not limited to, implementation of enhancements to the
   overall systems of internal controls over its financial management system
   and it has undertaken a complete turnaround in its internal policies,
   systems, and procedures to ensure the safeguarding of Federal grant
   funds.

   Given the extent of the issues the audit revealed, and the fact that all of
   the other recommendations in this report were agreed to by OJP, we
   believe it is critical for BBBSA to demonstrate “present responsibility”—
   the ability to safeguard and properly account for the federal funds that
   they are given – to close this recommendation. Based on OJP’s decision
   to freeze funds and its increased oversight of BBBSA, both demonstrated
   and planned, this recommendation can be closed when we receive
   evidence from OJP that BBBSA has implemented the changes it has
   described in regard to managing federal funds, including the closure of
   recommendations 4 through 15 of this report. Simply put, this
   recommendation can be closed when BBBSA has demonstrated that it has
   the ability to safeguard and properly account for the federal funds that it
   receives.




                                    - 93 ­
4. Resolved. In its response, OJP agreed with our recommendation to
   ensure that BBBSA establishes appropriate internal controls that include
   the design and implementation of policies and procedures to assure that
   its financial management system provides for the adequate recording and
   safeguarding of grant-related activities and ensure that staff are
   adequately trained and supervised in the use of the system. OJP stated it
   believes BBBSA’s recently improved procedures, including its “Financial
   and Grants Management Policies” manual which includes internal controls
   over its financial management system, are sufficient to close the
   recommendation. However, OJP stated it will work with BBBSA to obtain
   additional documentation to support that grant-related transactions are
   properly recorded in BBBSA’s financial management system.

  In its response, BBBSA concurred with our recommendation and stated
  that it has approved, and is currently implementing, new internal controls
  over its financial management system.

  This recommendation can be closed when we receive documentation
  demonstrating the implementation of BBBSA’s new policies, receive
  evidence that staff have been adequately training on new policies, and
  staff are adequately supervised in the use of the system.

5. Resolved. In its response, OJP agreed with our recommendation that
   BBBSA document and implement policies and procedures for subrecipient
   monitoring. OJP stated it believes BBBSA’s recently implemented
   subrecipient monitoring procedures are sufficient to close the
   recommendation. However, OJP stated that it will work with BBBSA to
   obtain additional documentation to support that the procedures were
   properly implemented and BBBSA has provided training to its
   subrecipients.

  In its response, BBBSA concurred with our recommendation and stated
  that it has recently approved a “Subrecipient Monitoring Policy” to ensure
  subrecipients provide accurate, timely, and complete programmatic and
  financial disclosure to BBBSA.

  This recommendation can be closed when we receive documentation
  demonstrating the implementation of the subrecipient policies and
  procedures, and review evidence that subrecipients received adequate
  training on the newly implemented procedures.

6. Resolved. In its response, OJP agreed with our recommendation to
   ensure that BBBSA implements policies and procedures that ensure
   personnel expenditures paid with the grant funding are documented as


                                   - 94 ­
  required by the OJP Financial Guide. OJP stated that it believes that
  BBBSA’s recently implemented procedures to ensure employees track
  time spent on grant-related activity are sufficient to close the
  recommendation. However, OJP stated that it will work with BBBSA to
  obtain additional documentation to support its procedures were properly
  implemented and training was provided.

  In its response, BBBSA concurred with our recommendation and stated
  that it has approved and recently put in place a “Timekeeping Policy” to
  ensure that all time spent by employees on grant-related activities is
  tracked accurately.

  This recommendation can be closed when we receive documentation
  demonstrating the implementation of the timekeeping procedures.

7. Resolved. In its response, OJP agreed with our recommendation to
   ensure that BBBSA implements time and effort tracking procedures that
   ensure employees document time spent on grant-related activities. OJP
   stated that it believes BBBSA’s recently implemented procedures are
   sufficient to close this recommendation. However, OJP stated that it will
   work with BBBSA to obtain additional documentation to support that the
   procedures were properly implemented.

  In its response, BBBSA concurred with our recommendation and stated
  that as part of its newly developed “Timekeeping Policy” employees are
  required to track time spent working on grant-related activities.

  This recommendation can be closed when we receive documentation
  demonstrating the implementation of the time and effort tracking
  procedures.

8.	 Resolved. In its response, OJP agreed with our recommendation to
   ensure that BBBSA implements policies and procedures that ensure
   employees paid with grant funds are identified on approved grant
   budgets. OJP stated that it believes BBBSA’s recently implemented
   procedures to ensure that employees paid with grant funds are identified
   on approved grant budgets are sufficient to close this recommendation.
   However, OJP stated that it will work with BBBSA to obtain additional
   documentation to support that the procedures were properly
   implemented and ensure that BBBSA staff comply with approved grant
   budgets.




                                   - 95 ­
  In its response, BBBSA concurred with our recommendation and stated
  that it has recently adopted policies and procedures to ensure that
  employees paid with grant funds are on approved grant budgets.

  This recommendation can be closed when we receive documentation
  demonstrating the implementation of policies and procedures ensuring
  employees paid with grant funds are on approved grant budgets.

9. Resolved. In its response, OJP agreed with our recommendation to
   require BBBSA to clearly document and maintain the analysis,
   negotiation, justification, and monitoring for grant-funded consultants.
   OJP stated that it believes BBBSA’s recently implemented procedures to
   ensure that activities related to grant-funded consultants and other
   contractors are sufficient to close this recommendation. However, OJP
   stated that it will work with BBBSA to obtain additional documentation to
   support that the procedures for overseeing consultants were properly
   implemented.

  In its response, BBBSA concurred with our recommendation and has
  recently approved a “Policy for Hiring and Oversight of Consultants and
  Other Contractors” which includes procedures for procurement,
  monitoring, and evaluation of consultants.

  This recommendation can be closed when we receive documentation
  demonstrating implementation of procedures that documents and
  maintains the analysis, negotiation, justification, and monitoring for
  grant-funded consultants.

10. Resolved. In its response, OJP agreed with our recommendation to
   ensure BBBSA implements policies and procedures for accurately
   calculating and charging indirect costs to DOJ grants. OJP stated that it
   believed that BBBSA’s recently implemented for calculating and charging
   indirect costs are sufficient to close this recommendation. However, OJP
   stated that it will work with BBBSA to obtain additional documentation to
   support that the procedures were properly implemented.

  In its response, BBBSA concurred with our recommendation and has
  recently approved an “Indirect Costs Allocation Policy” to define and
  require the proper allocation of indirect costs for Federal grants.

  This recommendation can be closed when we receive documentation
  demonstrating the implementation of the procedures that ensure the
  accurate calculation and charges of indirect costs to DOJ grants.



                                   - 96 ­
11. Resolved. In its response, OJP agreed with our recommendation to
   ensure BBBSA establishes and adheres to written policies and procedures
   for (1) identifying drawdown amounts and (2) minimizing the time
   between drawdown and disbursement in accordance with the Financial
   Guide. OJP stated that it believes that BBBSA’s recently implemented
   policies include procedures that ensure drawdown requests are made on a
   reimbursement basis, time between drawdown and disbursement is
   minimized, and Federal cash-on-hand is maintained in accordance with
   the Financial Guide are sufficient to close this recommendation.
   However, OJP stated that it will work with BBBSA to obtain additional
   documentation to support that the procedures were properly
   implemented.

  In its response, BBBSA concurred with our recommendation and has
  recently approved a “Federal Award Drawdown Policy” to accurately
  identify amounts for drawdown on a reimbursement basis and minimize
  the time between drawdown and disbursement.

  This recommendation can be closed when we receive documentation
  demonstrating BBBSA has established and is adhering to its policies and
  procedures for identifying drawdowns and minimizing the time between
  drawdown and disbursement.

12. Resolved. In its response, OJP agreed with our recommendation to
   ensure BBBSA implements policies and procedures that comply with all
   budget-related requirements, including the monitoring of grant budgets
   so that only reimbursement requests are made for actual expenditures
   approved in the budget by cost category and amount. OJP stated that it
   believes that BBBSA’s recently implemented procedures to ensure
   compliance with all budget-related requirements are sufficient to close
   this recommendation. However, OJP stated that it will work with BBBSA
   to obtain additional documentation to provide support that the procedures
   are properly implemented.

  In its response, BBBSA concurred with our recommendation and has
  recently adopted procedures which include the active monitoring of actual
  expenditures against approved award budgets.

  This recommendation can be closed when we receive documentation
  demonstrating BBBSA’s ability to monitor grant budgets so that only
  reimbursement requests are made for actual expenditures approved in
  the award budget by cost category and amount.




                                   - 97 ­
13. Resolved. In its response, OJP agreed with our recommendation to
   ensure BBBSA implements policies and procedures for the acquisition,
   inventory, and disposal of accountable grant-funded property. OJP stated
   that it believes BBBSA’s recently implemented procedures to ensure
   proper accounting over the acquisition, inventory, and disposal of
   accountable grant-funded property and equipment are sufficient to close
   this recommendation. However, OJP stated that it will work with BBBSA
   to obtain additional documentation to support that the results of a
   February 2013 physical inventory conducted by BBBSA of its accountable
   property agree with property records in its accounting system.

  In its response, BBBSA concurred with our recommendation and recently
  adopted a “Property Policy” to ensure that BBBSA accounts for and
  monitors the acquisition, maintenance, and disposal of all equipment and
  related property.

  This recommendation can be closed when we receive documentation
  demonstrating the implementation of procedures for the acquisition,
  inventory, and disposal of accountable grant-funded property.

14. Resolved. In its response, OJP agreed with our recommendation to
   ensure BBBSA implements policies and procedures to ensure Federal
   Financial Reports (FFR) are submitted based on accurate information and
   implements and adheres to policies and procedures to ensure progress
   reports are submitted timely. OJP stated that it believes BBBSA’s
   recently implemented procedures to ensure that FFRs and programmatic
   progress reports are accurate and submitted timely are sufficient to close
   this recommendation. However, OJP stated that it will work with BBBSA
   to obtain additional documentation to support that the procedures were
   properly implemented.

  In its response, BBBSA concurred with our recommendation and stated
  that it has recently adopted a “Grant Reporting Policy” to ensure the
  timely and accurate reporting of financial and programmatic information.

  This recommendation can be closed when we receive documentation
  demonstrating this policy has been implemented.

15. Resolved. In its response, OJP agreed with our recommendation to
   ensure BBBSA implements policies and procedures to identify, track,
   manage, and use program income in accordance with the Financial Guide.
   OJP stated that it believes BBBSA’s recently implemented procedures to
   ensure that it identifies, tracks, records, manages, and report program
   income are sufficient to close this recommendation. However, OJP stated


                                    - 98 ­
that it will work with BBBSA to obtain additional documentation to
support that the procedures were properly implemented.

In its response, BBBSA concurred with our recommendation and said that
it has recently adopted a Program Income Policy to ensure that it
appropriately identifies treats, records, and reports program income
associated with funds received from federal agencies. However, BBBSA
also stated in its response to Recommendations 1 and 2, “Navigant will
also address the audit finding that certain fees charged to subrecipients
should be considered program income and, as such, restricted as to their
use.” In agreeing with our recommendation, BBBSA qualified its
response by stating that “In the event that a BBBSA generates program
income for the purposes of federal law….” As a result, we have noted
that BBBSA is working to determine what constituted program income
and whether or not their determination agrees with the audit finding.

This recommendation can be closed when we receive adequate
documentation demonstrating that this policy has been implemented.




                                - 99 ­
